<html>
<title> - IRAQ'S TRANSITION--THE WAY AHEAD [PART II]</title>
<body><pre>[Senate Hearing 108-645]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-645

                    IRAQ'S TRANSITION--THE WAY AHEAD
                               [PART II]

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 19, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
96-372                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     4
Cordesman, Dr. Anthony, Arleigh A. Burke Chair in Strategy, 
  Center for Strategic and International Studies, Washington, DC.     8
    Prepared statement...........................................    11
Diamond, Dr. Larry, senior fellow, Hoover Institution, Stanford, 
  CA.............................................................    41
    Prepared statement...........................................    44
Hoar, General Joseph P., USMC (Ret.), former Commander in Chief, 
  United States Central Command, Del Mar, CA.....................    30
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Marr, Dr. Phebe, former senior fellow, National Defense 
  University, Washington, DC.....................................    34
    Prepared statement...........................................    38

                                 (iii)

  

 
                    IRAQ'S TRANSITION--THE WAY AHEAD
                               [PART II]

                              ----------                              


                        WEDNESDAY, MAY 19, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met at 9:38 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Richard G. Lugar (chairman of the 
committee), presiding.
    Present: Senators Lugar, Hagel, Chafee, Voinovich, Sununu, 
Biden, Feingold, Boxer, and Corzine.


        opening statement of senator richard g. lugar, chairman


    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    Six weeks from today the Coalition Provisional Authority in 
Iraq will turn over sovereignty to an Iraqi government. With 
that deadline in mind, the Committee on Foreign Relations meets 
today to further explore the administration's plans for the 
transition. Yesterday, Deputy Secretary Armitage and Deputy 
Secretary Wolfowitz answered questions on many aspects of our 
Iraq policy, and despite the difficult challenges ahead, both 
noted progress in preparing for Iraqi governance.
    This is the sixth hearing that the Foreign Relations 
Committee has held on Iraq in the last month and the twentieth 
since January 2003. I might add that many of you have 
participated in several of those hearings and made very vital 
contributions. We are hopeful that these hearings enlighten the 
American people, as well as stimulate thinking within our 
government and within the Coalition about creative policies 
that will optimize our prospects for success.
    Secretary of State Powell reflected the perspective of many 
Americans about Iraq last weekend when he said: ``The United 
States is not anxious to keep our troops there any longer than 
we have to. We want to finish our job, turn full sovereignty 
over to the Iraqi people, see them elect a government that is 
fully representative of the people, and let us come back home 
as fast as we possibly can. But we're also not going to leave 
while the Iraqi people still need us, and while the interim 
government or the transitional government still sees a need for 
our presence.''
    Now, with lives being lost and billions of dollars being 
spent in Iraq, the American people must be confident that we 
have carefully thought through an Iraq policy. A detailed plan 
is necessary to prove to our allies and to Iraqis that we have 
a strategy and that we are committed to making it work. If we 
cannot provide that clarity, we risk the loss of support of the 
American people, the loss of potential contributions from our 
allies, and the disillusionment of Iraqis.
    Achieving a positive outcome in Iraq is a vital national 
security priority. The appalling revelations about prisoner 
abuse in Iraq have added to the stakes, because they have hurt 
our reputation in the Middle East and the international 
community. As we pursue the noble goals of independence and 
security in Iraq, the deeds we perform must be consistent with 
our words about freedom, democracy, human rights, and 
accountability.
    As we discussed in our hearing yesterday, we must use every 
tool at our disposal to ensure that the transition to Iraqi 
sovereignty succeeds, and we should make every effort to 
accelerate stabilization and reconstruction in Iraq. Once the 
new caretaker government is named by United Nations Special 
Envoy Lakhdar Brahimi, the transition to sovereignty should 
begin immediately.
    It is vital that we put an Iraqi face on the governance of 
that country. The Iraqi people must have a visible role in 
securing the country, organizing elections, managing 
reconstruction. The most effective way to make this happen is 
for elections to take place as quickly as possible. If national 
elections can be accelerated for the transitional and permanent 
Iraqi governments, scheduled now for January and December 2005, 
respectively, we should move up that timetable. In the 
meantime, we should push forward with as many elections at the 
provincial, municipal, and neighborhood levels as possible. 
Yesterday Secretary Armitage underscored that local elections 
are taking place and are making a positive difference in the 
attitudes of Iraqis.
    Accelerating completion of a new United Nations Security 
Council resolution could also help give international 
legitimacy to the new Iraqi government and clarify new security 
arrangements. We want to hear from our witnesses today about 
what a Security Council resolution should contain and whether 
opportunities will emerge after the transition of sovereignty 
to broaden the international coalition working in Iraq.
    Our committee also has closely followed the management of 
reconstruction funds appropriated by the Congress. I noted 
yesterday that only $2.3 billion out of the $18.4 billion 
appropriated for Iraqi reconstruction in the November 2003 
emergency supplemental have been obligated by March 24. And we 
would like our witnesses to comment on whether they see 
legitimate reasons for the slow pace of reconstruction 
activities. Can the coalition move more efficiently and swiftly 
in this area given that delays in reconstruction undercut the 
United States' credibility and increase suspicions among Iraqis 
who are impatient for those improvements?
    We are pleased to have a distinguished panel of experts 
today to help us assess the way ahead in Iraq. Before welcoming 
this panel, let me intrude with one other item that I add to my 
opening comments.
    I was struck by the final paragraphs of a column by Arnaud 
de Borchgrave in the Washington Times this morning. He is an 
old friend of many of us, and I would admit to having enjoyed 
conversations with Arnaud, as many of you have, around the 
world for many years. He writes in the Washington Times today 
some thoughts of outsiders. Yesterday our hearing was with 
insiders within our government. Today it is with scholars, 
people who have been witnessing this situation and who are not 
a part of the CPA or our government. And this is all now a 
quote from Arnaud de Borchgrave's column in the Washington 
Times of today.
    He says: ``One former low-intensity warfare specialist at 
the Pentagon described his visit to the Coalition Provisional 
Authority in Baghdad's Green Zone as `Alice in Wonderland.' 
`It's hard to get out of it, let alone get into it,' he told an 
audience of strategic experts. Some of them have never met an 
Iraqi outside the Green Zone and yet they draft proclamations 
they have no way of implementing. CPA is part of the problem, 
not part of the solution.
    ``Some of the other observations from recent visitors''--
and this is Arnaud de Borchgrave speaking--``who have had 
experience in previous conflicts in the developing world:
    First,``We have outworn our welcome and we now find 
ourselves in a hell of a pickle.''
    Second, ``If you don't know where you're going, you're 
likely to wind up where you don't want to be. Forget about 
installing a liberal democracy in Baghdad. Such constructs need 
a lot of fertilizer to take root. We don't have the time.''
    Third, ``There is no way to put a good face on the 
strategic withdrawal. Civilian heads must roll; generals are 
tired of taking the fall.''
    Fourth, ``The transition government that takes over July 1 
must be inclusive, even with people who don't like us. It can't 
be a little bit sovereign. Colin Powell said we would leave if 
asked to by a sovereign Iraqi government. That is the only 
posture that will restore U.S. credibility.''
    Fifth, ``The civilian contractors hired to train a new 
Iraqi Army cost the U.S. taxpayer a lot of money and got it all 
wrong. The target of 27 battalions meant quantity, not quality. 
They were designed as an external protection force, unable to 
deal with urban warfare.''
    Sixth, ``There is an urgent need for a national force 
capable of protecting the core functions of government. The 
immediate need is for five or six Iraqi battalions to protect 
the new government, which will be challenged almost immediately 
after July 1.''
    Seventh, ``There are no genuine Iraqi leaders on the 
horizon.''
    Eight, ``A strongman is needed, one that will understand 
that the Shi'ites, for the first time in hundreds of years, 
have a chance to escape the role of low man on the totem 
pole.''
    And finally, ``The Swiss cantonal system for Iraq's three 
or more component parts is probably the best bet for a new 
constitution. The alternative could be Lebanon-and civil war.''
    Then Arnaud concludes: ``The U.S. has given top priority to 
a new U.N. resolution that would confer legitimacy on a U.S. 
military presence in Iraq after July 1. The coalition is 
splintering as its members with boots on the ground--Britain, 
Italy, Denmark, Poland and Hungary--face growing domestic 
opposition. And Mr. Rumsfeld's `old' Europeans--France and 
Germany--and Russia are negotiating among themselves what 
demands will be made on President Bush in return for a 
favorable vote on a new U.N. resolution. The I-told-you-so 
European `oldsters' may see this one as diplomatic payback 
time.''
    With these rather challenging comments in front of you, you 
already have provided provocative testimony, but the purpose of 
our hearing today is really to try to push it all out. I cannot 
think of a better panel to do this.
    I would like for you to testify in the order that I will 
introduce you, and that will be, first of all, Dr. Anthony 
Cordesman; second, General Joseph Hoar; third, Dr. Phebe Marr; 
and finally, Dr. Larry Diamond. We thank you for coming, and 
before I ask you to testify, I will call upon my friend, the 
distinguished ranking member, Senator Biden.


           OPENING STATEMENT OF SENATOR JOSEPH R. BIDEN, JR.,
                             RANKING MEMBER


    Senator Biden. Thank you very much, Mr. Chairman. Again, 
thank you for this hearing.
    It sounds like a little bit of hyperbole, but it is not. 
You said we are looking for clarity, and we have had the 
chance, privately and publicly, to plumb the ideas of the 
witnesses we have. I can really say from my perspective--and I 
suspect yours--without equivocation, we have a panel that is 
capable of providing clarity and they have been providing 
clarity on this for a long time. I just hope to hell people 
start to listen a little bit.
    I also want to thank you, Mr. Chairman, for the clarity 
that you are providing in the sense that you have been 
consistent in one simple, clear question, and that is, what is 
the plan? Or as they used to say back in my generation, 
``What's the plan, Stan''? What's the deal? What is the plan?
    I realize we spend a lot of time talking and having serious 
witnesses come and discuss the strategic situation in the 
Middle East, in Iraq and the consequences that flow from that. 
To use the vernacular again, the devil is in the details. It is 
the tactical decisions that we are making, I think, so badly 
from, as one of the witnesses and I were talking earlier, 
literally not being able to get into the Green Zone. I mean, 
why there is not a special ``express line,'' to use his phrase, 
to allow people to get in there, things that when you go there 
and you are on the ground, you wonder how can this be managed 
this way.
    I want the public to know just because we spend a lot of 
time, because we do not have a strategic plan that has been put 
forward, talking about that, no one should misunderstand that 
the success or failure of our effort to provide a whole stable 
state that is secure within its borders, not a threat to its 
neighbors, not a haven for terror, not seeking or having 
weapons of mass destruction ultimately comes down to some 
significant tactical judgments that I hope we will get to talk 
a little bit about today because these people know of what they 
speak.
    And the last point I will make, looking at General Hoar. 
General, I am not going to put you in a spot and ask you this 
today. We heard yesterday, we hear constantly that the generals 
on the ground do not need any more forces. When we were on the 
ground, people I talked to, coming back from on the ground, 
there is a genuine resentment that is communicated coming from 
the operational commanders on the ground in Iraq who do not 
think they are being supported.
    Now, if you are here as long as many of us have been and 
all the people here, you end up over time just establishing 
contacts, friendships, relationships with people who are not 
going out of the chain of command. They are your friends, and 
you get e-mails and you have discussions. I just want to make 
it clear that I really think that, as our colleague Carol 
Moseley-Braun used to kid and say, we should not have the 
generals wearing the jacket here if this thing goes south.
    I apologize for being as personal as I am being here, Mr. 
Chairman, and I actually do have a short opening statement. I 
remember when you and Senator Hagel and I--it will be a year in 
August--were in Iraq.
    The Chairman. June.
    Senator Biden. June I should say. I remember Chuck Hagel, 
when we were talking to somebody, I turned around and I saw him 
walking back to a Humvee and getting in a conversation. As a 
non-commissioned officer that he was, he really knows where the 
real power is. He was talking, if I am not mistaken, to a 
sergeant. I may be mistaken. But then one gathered and two and 
three and four, and they started talking to us. They were 
already--``angry'' may be the wrong word. If he wants, I will 
let him elaborate on this. But they were already concerned. 
They were already feeling that they were not getting the 
straight scoop. They were already of a mind.
    Then we met with a group of deployed forces from our home 
States. And it was like, hey, someone tell us the truth here, 
will you? Someone tell us what the deal is here. Someone tell 
us how long we are really going to be here. Remember, I know 
the Secretary of Defense says this is not the case, and it may 
not have been, but the perception was we were going to be down 
to 30,000 troops by December. That was clearly coming from the 
Pentagon. My point was we have not leveled here, and I want to 
make sure that, if you are willing, general--and if you are 
not, I understand. I would a little straight talk about what is 
going on, what you think as a Marine four-star--by the way, 
damn, you look good. I tell you what. Does he not? He looks 
like he stepped out of Gentlemen's Quarterly.
    At any rate, I would like some straight talk and I know we 
can get it from you.
    So, Mr. Chairman, it seems to me our policy right now seems 
to be stuck in second gear. To continue this silly metaphor, I 
do not think it is in reverse, as some of my colleagues think. 
I do not think it is lost. I do not think it is beyond the 
pale. But I do think it is in second gear because we tend to be 
reacting at events and are continually behind the curve.
    When this administration makes a judgment that is sound, it 
is usually a day late and a dollar short. It appears every time 
that they are being pushed into a position. If Secretary 
Wolfowitz had said--how many months ago was he here? I cannot 
recall. Three, four months ago. We asked him if there was 
anything they got wrong. Well, no. Everything is just right. If 
he had said what he said yesterday, that they underestimated 
the opposition, that they underestimated the amount of force 
that was needed, if they had leveled a little bit, we would be 
moving along a little more here.
    And getting them to level is not getting them to level in 
order to say, ``We told you so, you are wrong.'' You have got 
to figure out what mistakes were made, whether you say them 
publicly or not, in order to figure out what we do from here.
    It seems to me two of the mistakes that were made, Mr. 
Chairman--and I know I am a broken record on this--is we went 
into Iraq with two towering deficits, a security deficit and a 
legitimacy deficit. As a result, I think we are losing the 
Iraqi people, and without their support, we have little chance 
of succeeding.
    As I have said time and again, the Iraqi people have to 
want to have a government that is representative more than we 
want them to have it or it is not going to work. At least as 
much as we want them, they have to want it.
    We also risk losing the support of the American people. 
They too sense that our policy is adrift and that we do not 
have a plan for success.
    There was a report that came out at the request of the 
Secretary of Defense last year, a commission led by John Hamre 
goes over and comes back and says we have a window of 
opportunity, but it is closing in Iraq. We all in one form or 
another sent out a report saying the window of opportunity is 
closing in America. We only have a window that is only open so 
long for the American people to say let us get this done, we 
are willing to make the sacrifices to get it done.
    But the American people I think are still with us because 
they know if we fail in Iraq, it could take a generation to 
recover from the damage. But without a new plan--not staying 
the course--a new plan to succeed that overcomes the security 
deficit and the legitimacy deficit, I am concerned that we are 
headed for serious trouble in Iraq and at home.
    This includes the plan, which I hope we will get to talk 
about, for successfully dealing with the militias and the 
mutations off of these Iraqi militias that we asked about 
yesterday and I did not seem to get an answer.
    To change the dynamic, I believe the President has to 
articulate a single, overreaching goal, and I think we should 
take this June 30, as badly as it has been planned, as badly as 
it has been handled, and turn it from a liability into an 
asset. We should use that date as the rationale for our 
continued and increased presence and international presence or 
major power presence in Iraq, and that is that our purpose is 
to hold successful elections in 2005 in December. That is the 
rationale for our being there. That is the rationale for why we 
are going to stay there because that is the vehicle through 
which the Iraqis ultimately get control of a stable, God 
willing, government that can be held together. I think he 
should use those elections as a rallying point within and 
beyond Iraq to build more security and more legitimacy.
    Putting the focus on elections in my view would provide a 
rationale for Europeans and Arab leaders to join the effort. It 
would provide a reason for an Iraqi caretaker government to be 
able to be seen as cooperating with the ``occupiers'' and would 
give the American people more confidence that we have an end 
strategy--not an exit--an end strategy.
    I know that our witnesses today will present their own 
ideas for recapturing the initiative, and I look forward to 
asking some very specific questions. Would using elections next 
year as a rallying point offer a way to broaden the coalition 
and recoup some of the ground we have lost? Just as we do not 
know the strategy, I do not think the Iraqi people know the 
strategy. I do not think they know what the deal is.
    How do we energize the moderate center in Iraq, assuming it 
is there, because if it is not there, all this is for naught in 
my view--that silent majority of people who reject an Iranian 
style theocracy and a new strongman but remain on the sidelines 
because they have been conditioned for over 30 years not to 
raise their heads.
    What should we do about the al-Sadr militia and all the 
militias for that matter?
    With at least 82 percent of the Iraqis saying that they 
oppose American and allied forces, how long do you think it 
will be before the Iraqi government asks for our departure? As 
one person said, the race will be who asks us to leave first, 
the American people or the Iraqi people? And how should we 
respond? .
    Who should be the primary international figure that the 
Iraqis interact with during this difficult transition period 
from July 1 to December 2005? Should it be an American super-
Ambassador or should it be a major power representative in 
place who will be the referee?
    What will we have to do to attract support of our NATO 
allies? And is it important that we put a different face on 
this, that it be a NATO-led multinational force?
    How can we attract more support, if we can, from our Arab 
allies? What specific support can we reasonably expect?
    I believe we can still succeed in Iraq, but we need a 
strategy for success and we need leadership from the President. 
And that is not a political comment. I am not being a wise guy 
here. This is not the President is responsible, the President 
has to fix it. That is not what I am saying. I literally 
believe things have gotten out of whack to the point that 
sending your Secretary of Defense, your Secretary of State, 
your National Security Adviser, is not sufficient. The 
President of the United States of America has it within his 
capacity, because of the power of the office and because of his 
character, if he will exercise it, to bring the major powers in 
the world together on this. As a plain old politician, it does 
not matter what level that political discourse takes place. 
Presidents and Senators and Congressmen and mayors are no 
different. When you want to get it done, the principal has to 
engage the other principals directly.
    By the grace of the office he holds and the country he 
represents, I believe the President of the United States has 
the power to reverse this downward spiral we are in. And I will 
support him if he begins the process, publicly support him, but 
we must act decisively and deliberately. We cannot continue to 
fall backward into a strategy that not many people understand.
    Thank you very much, Mr. Chairman. I apologize for the 
length of the statement. I think it is important that we get 
some straight answers.
    The Chairman. Well, thank you very much, Senator Biden. As 
the witnesses will note, after 20 hearings on Iraq, we have 
developed quite a bit of passion for the subject and so have 
you.
    I want to, first of all, introduce Dr. Anthony Cordesman, 
who is holder of the Arleigh Burke Chair in Strategy at the 
Center for Strategic and International Studies. Welcome, Dr. 
Cordesman, and would you please proceed with your testimony. I 
will just say at the outset, all of the statements of the 
witnesses will be made a part of the record in full. You may 
proceed in any way that you wish.

 STATEMENT OF DR. ANTHONY CORDESMAN, ARLEIGH A. BURKE CHAIR IN 
    STRATEGY, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Dr. Cordesman. Thank you very much, Mr. Chairman and 
Senator Biden. I would like to thank the committee for the 
opportunity to testify today.
    Let me begin by noting we are dealing with truly complex 
problems, and I have provided a formal statement that goes into 
these answers in depth. I am all too well aware, however, of 
the time pressures on U.S. Senators, and let me confine my oral 
comments to a few short remarks.
    First, it may be too late to deal with the most serious 
problem we face within the U.S. Government, the fact that a 
small group of neo-conservative idealogues were able to 
substitute their illusions for an effective planning effort by 
professionals using the interagency process.
    Some 40 years ago, I entered the office of the Secretary of 
Defense at a time when an equally small group of neo-liberals 
were able to do the same thing. These ``best and the 
brightest'' trapped us into a losing war and their names were 
written invisibly on the body bag of every American who died in 
that conflict.
    This time it is neo-conservatives, not neo-liberals who 
trapped us into a war without setting realistic and obtainable 
goals without a realistic and workable approach to creating 
stability, security, and nation-building. And once again, we 
find that the end result is that incompetence kills just as 
effectively as malice.
    The resulting message is simple. We need an interagency 
system that works, a National Security Council that forces 
jointness on military and civilian alike, and a clear 
understanding that idealogues of any stripe should never be 
allowed to function in sensitive positions in the office of the 
Secretary of Defense, the National Security Council, the office 
of the Vice President, and organizations like the CPA without 
adequate controls and checks and balances.
    Second, we must never again treat forging a piece as phase 
IV or talk about post-conflict operations as if peace was a 
secondary objective. Our war planning should make reaching a 
successful peace--a peace with clear, long-term strategic 
benefits--its primary goal from the start. The effort to win 
the peace should begin as a political struggle before the first 
shot is fired, and it should continue to have first priority 
through every day of combat.
    Moreover, the Congress must act firmly and decisively to 
find a workable alternative to the War Powers Act. It must find 
one which ensures it is fully consulted on the reasons for war, 
the battle plan, and the precise nature of the strategic and 
grand strategic goals which are the reason for using military 
force. The Congress should never again vote for the equivalent 
of war without a clear and realistic plan for armed nation-
building and clear and achievable goals for peace. It is not 
just the names of neo-conservatives that are written invisibly 
on every American body bag that is coming out of Iraq.
    Third, to turn to the specific issues here, I cannot assure 
this committee or anyone else that we can still win an 
acceptable level of victory in Iraq or that we could have done 
so with proper planning before the war started. We have to deal 
with the aftermath of decades of tyranny and economic failure, 
the resulting power vacuum, and political, religious, and 
ethnic tensions, which have never worked their way out.
    I do believe, however, that we have at least a 50/50 chance 
of coming out of this war on such terms if we do the following 
things, and I should note that many of my recommendations are 
underway in some of the actions of the administration and 
follow the recommendations of the chairman and ranking member.
    First, we need to support the transfer of power to Iraqis 
along the lines proposed by the U.N. Envoy, Lakhdar Brahimi, as 
soon as possible.
    We need to dump the Iraqi Governing Council and 
particularly its most unpopular members like the Iraqi exile, 
Ahmad Chalabi.
    Above all, we need to accept the fact that only a broad 
range of Iraqis from within Iraq can create a government that 
Iraqis require as legitimate. We must recognize that such an 
Iraqi government must be as inclusive as possible and include 
many ex-Baathists and Shi'ite Islamists. There can be no real 
progress or security solution without a broadly based 
government that various Iraqi factions see as acceptable and 
which is chosen by a majority of the key factions within the 
Iraqi people.
    The United States cannot abandon its military effort to 
bring security to Iraq as long as there is hope and progress. 
But we must make every effort to rush forward the realistic 
training and equipment of Iraqi security forces, and there must 
be tangible and clear benefits that we are doing this and not a 
series of half-truths, false reports, and an inability to 
report on the fact that the equipment and training is not being 
rushed forward and is not being provided on the basis that is 
needed. We must remember that only trained, effective cadres 
can do this mission, not untrained masses of men.
    Above all, a new Iraqi government must play a major and 
visible role in Iraqi security, must be consulted in, support 
and participate in all new military operations. A government's 
legitimacy will never be credible without this.
    The United States must abandon its Green Zone approach and 
effort to rule through a massive new embassy and to transform 
the Iraqi economy through U.S.-chosen projects driven by U.S. 
contractors. We need to totally restructure the American aid 
process to go directly to Iraqi ministries and Iraqi 
governments and do so through programs that they choose or 
through U.S. military-run programs designed to supplement 
bullets with dollars. Aid must be focused on tangible, visible 
progress on the ground, not idealized dreams of some future. 
Our management should consist of demands, programs, avoid 
corruption and produce clear benefits.
    The Iraqis, not the United States, should shape this 
country's destiny. At the same time, we must make it clear to 
the Iraqis that they, not the U.S. or United Nations, are 
ultimately responsible for success or failure. They must know 
that we and the international community will leave and will not 
aid or sustain them if they do not reach workable political 
compromises, do not make real progress, or turn toward civil 
war. No Iraqi should operate under the illusion that either the 
U.S. or the U.N. will save Iraq from itself.
    Fourth, we cannot succeed in Iraq unless we understand that 
no issue so drives Iraqi, Arab, and Islamic perceptions of the 
United States as the Israeli-Palestinian conflict. Our peace 
efforts are perceived throughout the region and Iraq as weak 
and dishonest, and the United States is viewed as little more 
than Israel's proxy.
    False as such perceptions are, we cannot succeed in Iraq or 
have a strategy that will function unless we revitalize the 
peace process. We must accept the fact we are now dealing with 
two failed regimes, not just one, and that steady and visible 
U.S. pressure is needed on both governments. That means U.S. 
pressure on the Palestinians to halt terrorism must be matched 
by equal pressure on Israel to halt the expansion of 
settlements and those Israeli security measures that do more to 
make a Palestinian state impractical than to aid Israeli 
security.
    And finally, the Bush administration must not make another 
major strategic blunder in the Middle East. It must accept the 
fact it is currently too unpopular to issue a U.S.-led Greater 
Middle East Initiative and that it must concentrate on Iraq and 
the Israeli-Palestinian peace process.
    Mr. Chairman, in the interest of time, I will not go into 
detail on just how dangerous I think the public drafts of the 
Greater Middle East Initiative are. It should be clear, 
however, we have no climate of trust. We have no basis for 
pushing reform unilaterally at this point in time. If we are to 
succeed, we need to reestablish our credibility, focus on 
essentials, and seek joint efforts with the EU and with the 
Arab League. Above all, we must do more than issue vacuous 
rhetoric about democracy and liberty and develop tangible plans 
to bring democracy and deal with human rights, establish a rule 
of law, focus on economic reform and demographic problems and 
not simplistic and unworkable slogans at a time when those 
breed nothing but distrust and the feeling we are somehow 
seeking to establish regimes friendly to us.
    The last remark I would make is simply this. We can succeed 
through pragmatism. We can succeed by focusing on what we need 
to do, but if we continue to dwell in a climate of ideological 
illusions, no strategy can succeed and this government cannot 
function.
    [The prepared statement of Dr. Cordesman follows:]

             Prepared Statement of Dr. Anthony H. Cordesman

         The ``Post Conflict'' Lessons of Iraq and Afghanistan

                           EXECUTIVE SUMMARY

    The current situation in Iraq and Afghanistan has exposed the fact 
that there is a serious danger in the very term ``post conflict:'' It 
reflects critical failures in American understanding of the world it 
faces in the 21st Century, and in the nature of asymmetric warfare and 
defense transformation:

  <bullet> First, the US faces a generational period of tension and 
        crisis in the Middle East and much of the developing world. 
        There is no post conflict; there is rather a very different 
        type of sustained ``cold war.'' The ``war on terrorism'' is 
        only part of a period of continuing tension and episodic crises 
        in dealing with hostile extremist movements and regimes. At a 
        minimum, the US faces decades of political and ideological 
        conflict. More probably, the US and its allies will deal with 
        constantly evolving and mutating threats. These will involve 
        steadily more sophisticated political, psychological, and 
        ideological attacks on the West. They will be sustained by 
        massive economic problems and demographic pressures that create 
        a virtual ``youth explosion,'' and by the regional failures of 
        secularism at both the political and ideological level. The 
        ``wars'' in Iraq and Afghanistan are actually ``battles,'' and 
        the keys to victory lie in a sustained US campaign to help our 
        allies in the region carry out political, economic, and social 
        reform; in supporting efforts to create regional security and 
        fight terrorism, and in checkmating and containing hostile 
        movements and nations.

  <bullet> Second, defeat or victory in this struggle will be shaped 
        largely by the success of American diplomacy, deterrence, and 
        efforts to create and sustain alliances that occur long before 
        military action. They will also be shaped by US ability to 
        reach out to the UN, international organizations, and moderates 
        in the Islamic world and other challenged areas. US efforts to 
        create favorable strategic outcomes in asymmetric conflicts and 
        in conflicts involving any form of nation building must be 
        conducted in a political environment shape by information 
        operations on a continuing and global basis. Victory can only 
        come through the equivalent of a constant program of political, 
        psychological, and ideological ``warfare'' that is design to 
        win a peace more than to aid in the military phases of a 
        conflict. A climate of trust and cooperation must be 
        established before any given clash or war takes place.

  <bullet> Third, no matter how well the US adapts to these realities, 
        it will have to make hard strategic choices which should be 
        made well before it uses military force. The present contest 
        between neoconservatives and neoliberals to see who can be the 
        most self-deluded, intellectually ingenuous--and use the most 
        naive and moralistic rhetoric--is not a valid basis for either 
        war or dealing with its aftermath. Iraq and Afghanistan are 
        both warnings of the complexity, cost, and time required to 
        even attempt to change national political systems, economies, 
        and social practices. Long before one considers any form of 
        ``nation building,'' one must decide whether such activity is 
        practical and what the strategic cost-benefits really are. In 
        many cases, it will not be worth the cost of trying to deal 
        with the aftermath of overthrowing a regime and carrying out 
        any form of occupation. When the objective is worth the cost, 
        both the executive branch and Congress must honestly face the 
        fact that the results will still be uncertain, that 5-10 years 
        of effort may be required, and that the end result will often 
        be years of occupation and low intensity conflict, as well as 
        years of massive economic aid.

  <bullet> Fourth, preparation and training for the security and nation 
        building phases of a conflict require that planning, and the 
        creation of specialized combat units and civilian teams with 
        suitable resources and regional expertise to carry out the 
        security and nation building missions, take place long before 
        the combat phase begins. Success requires the battle plan and 
        US military operations to be shaped to aid nation building and 
        create security after the enemy's regime and armed forces are 
        defeated. It requires the ability to make a transition to 
        security and nation building activity as US forces advance 
        during the combat phase and long and before ``victory.'' It 
        requires political campaigns designed to win hearts and minds 
        of the peoples in the nation to begin before combat starts.

  <bullet> Fifth, in more cases than not, the aftermath of conventional 
        conflict is going to be low intensity conflict and armed nation 
        building that will last months or years after a conventional 
        struggle is over. As Iraq and Afghanistan show that it's the 
        war after the war that counts, and which shapes US ability to 
        win conflicts in any grand strategic sense.

  <bullet> Sixth, the US cannot succeed through a mix of arrogance and 
        ethnocentrism. The US is not the political, economic, and 
        social model for every culture and every political system. It 
        has much to contribute in helping trouble nations develop and 
        evolve, but they must find their own path and it will not be 
        ours, in most cases, economic and physical security; dealing 
        with the educational and job problems created by demographic 
        change, and creating basic human rights will be far more 
        important that trying to rush towards ``democracy'' in nations 
        with no history of pluralism, no or weak moderate political 
        parties, and deep religious and ethnic divisions. Evolution 
        tailored to the conditions and the needs of specific countries, 
        can work; revolution will inevitably prove to lead to years of 
        hardship and instability. The idea that the US can suddenly 
        create examples of the kind of new political, economic, and 
        social systems it wants in ways that will transform regions or 
        cultures has always been little more than intellectual 
        infantilism, and Iraq provides all the proof the US can ever 
        afford to acquire.
What is to Be Done: The Broader Grand Strategic Lessons of the Iraq and 
        Afghan Conflicts
    If the US is to succeed in the conflicts that are likely to shape 
much of the 21st Century, it must learn from both its successes and 
mistakes in Iraq and Afghanistan. Strategic engagement requires an 
objective--not an ideological--assessment of the problems that must be 
dealt with, and of the size and cost of the effort necessary to achieve 
decisive grand strategic results. Neither a capabilities-based strategy 
nor one based on theoretical sizing contingencies is meaningful when 
real-world conflicts and well-defined contingencies require a strategy 
and force plan that can deal with reality on a country-by-country 
basis, rather than be based on ideology and theory.

  <bullet> There is no alternative to ``internationalism.'' There may 
        be times we disagree with the UN or some of our allies, but our 
        strategy must be based on seeking consensus wherever possible, 
        on compromise when necessary, and on coalitions that underpin 
        virtually every action we take.

  <bullet> Great as US power is, it cannot substitute for coalitions 
        and the effective use of international organizations, regional 
        organizations, and NGOs. In order to lead, we must also learn 
        to follow. We must never subordinate our vital national 
        interests to others, but this will rarely be the issue. In 
        practice, our challenge is to subordinate our arrogance to the 
        end of achieving true partnerships, and to shape our diplomacy 
        to creating lasting coalitions of the truly willing rather than 
        coalitions of the pressured or intimidated.

  <bullet> At the same time, armed nation building is a challenge only 
        the US is currently equipped to meet. While allies, the UN, and 
        NGOs can help in many aspects of security and nation building 
        operations. They often cannot operate on the scale required to 
        deal with nation building in the midst of serious low intensity 
        combat.

  <bullet> Deterrence and containment are more complex than at the time 
        of the Cold War, but they still are critical tools and they too 
        are dependent on formal and informal alliances.

  <bullet> War must be an extension of diplomacy by other means, but 
        diplomacy must be an extension of war by other means as well. 
        US security strategy must be based on the understanding that 
        diplomacy, peace negotiations, and arms control are also an 
        extension of--and substitute for--war by other means. It is 
        easy for a ``superpower'' to threaten force, but far harder to 
        use it, and bluffs get called. Fighting should be a last 
        resort, and other means must be used to limit the number of 
        fights as much as possible.

  <bullet> Military victory in asymmetric warfare can be virtually 
        meaningless without successful nation building at the 
        political, economic, and security levels. ``Stabilization'' or 
        ``Phase IV'' operations are far more challenging than defeating 
        conventional military forces. They can best be conducted if the 
        US is prepared for immediate action after the defeat of 
        conventional enemy forces. Both in Afghanistan and Iraq, the US 
        wasted critical days, weeks, and months in engaging in a 
        security effort before opposition movements could regroup or 
        reengage. It left a power vacuum, rather than exploited one, 
        and it was not prepared for nation building or the escalation 
        of resistance once the enemy was ``defeated.''

  <bullet> Force transformation cannot be dominated by technology; 
        manpower skills, not technology, are the key. The military 
        missions of low intensity combat, economic aid, civil-military 
        relations, security, and information campaigns are manpower 
        dominated and require skilled military manpower as well as new 
        forms civil expertise in other Departments. Human intelligence 
        can still be more important than technical collection, local 
        experience and language skills are critical, and the ability to 
        use aid dollars can be more important than the ability to use 
        bullets. Simply adding troops or more weapons will not solve 
        America's problems any more than trying to use technology to 
        make US forces smaller and more cost-effective will. The 
        missions that are emerging require extremely skilled troops 
        with excellent area skills, far more linguists, and training in 
        civic action and nation building as well as guerrilla warfare.

  <bullet> Technology-based force transformation and the revolution in 
        military affairs are tools with severe and sometimes crippling 
        limits. The ability to provide Intelligence, Surveillance, and 
        Reconnaissance (IS&R) coverage of the world is of immense 
        value. It does not, however, provide the ability to understand 
        the world, deal with complex political issues, and fight 
        effectively in the face of terrorism, many forms of low 
        intensity conflict and asymmetric warfare, and the need to deal 
        with conflict termination and peace making or protect nation 
        building. In practice, there may be a need to make far more 
        effective use of legacy systems, and evolutionary improvements 
        in weapons and technology, to support ``humancentric'' forms of 
        military action requiring extensive human intelligence and area 
        skills, high levels of training and experience, and effective 
        leadership in not only defeating the enemy in battle but 
        winning the peace.

  <bullet> ``Jointness'' cannot simply be an issue for restructuring 
        the US military, and is far more than a military problem. It 
        must occur within the entire executive branch, and on a civil-
        military level as well as a military one. An advisory National 
        Security Advisor is a failed National Security Advisor; 
        effective leadership is required to force coordination on the 
        US national security process. Unresolved conflicts between 
        leaders like Secretary Powell, and Secretary Rumsfeld, the 
        exclusion of other cabinet members from key tasks, insufficient 
        review of military planning, and giving too much power to small 
        elements within given departments, have weakened US efforts and 
        needlessly alienated our allies. The creation of a large and 
        highly ideological foreign policy staff in Vice President's 
        office is a further anomaly in the interagency process. The US 
        interagency process simply cannot function with such loosely 
        defined roles, a lack of formal checks and balances, and a 
        largely advisory National Security Advisor. ``Jointness'' must 
        go far beyond the military; it must apply to all national 
        security operations.

  <bullet> Policy, analysis, and intelligence must accept the true 
        complexity of the world, deal with it honestly and objectively, 
        and seek ``evolution'' while opposing ``revolution.'' The US 
        cannot afford to rush into--or stay in--any conflict on 
        ideological grounds. It cannot afford to avoid any necessary 
        commitment because of idealism. What it needs is informed 
        pragmatism. One simple rule of thumb is to stop over-
        simplifying and sloganizing--particularly in the form of 
        ``mirror imaging'' and assuming that ``democratization'' is the 
        solution or even first priority for every country. The US needs 
        to deal with security threats quietly and objective on a 
        country-by-country and movement-by-movement basis. The US must 
        also seek reform with the understanding that progress in 
        economic reform, dealing with population problems, and 
        improvements in human rights may often not only be more 
        important in the near term than progress towards elections, but 
        that ``democracy'' is purposeless, or actively destructive, 
        unless viable political parties exist, political leaders have 
        emerged capable of moving their nations forward toward 
        moderation and economic development, and enough national 
        consensus exists to allow different ethnic, ideological, and 
        religious factions to function in a stable pluralistic 
        structure. Finally, the US must act with the understanding that 
        other societies and cultures may often find very different 
        solutions to political, social, and economic modernization.

  <bullet> Stabilization, armed nation building, and peacemaking 
        require a new approach to organizing US government efforts. The 
        integration of USAID into State has compounded the problems of 
        US aid efforts which had previously transferred many functions 
        to generic aid through the World Bank and IMF. There was no 
        staff prepared, sized, and training to deal with nation 
        building on this scale, or to formulate and administer the 
        massive aid program required. Contractors were overburdened 
        with large-scale contracts because these were easiest to grant 
        and administer in spite of a lack of experience in functioning 
        in a command economy and high threat environment. US government 
        and contractor staff had to be suddenly recruited--often with 
        limited experience--and generally for 3-12 month tours too 
        short to ensure continuity in such missions. This should never 
        happen again. Denial of the importance and scale of the mission 
        before the event in no way prevents it from being necessary 
        when reality intervenes.

  <bullet> New capabilities are required within the National Security 
        Council, the State Department, and the Department of Defense 
        for security and nation building missions. It does not matter 
        whether these are called post conflict, Phase IV, 
        stabilization, or reconstruction missions. The US must be as 
        well prepared to win a peace as it is prepared to win a war, It 
        must have the interagency tools in place to deal with providing 
        security after the termination of a conflict, and to support 
        nation building in terms of creating viable political systems, 
        economic stability and growth, effective military and security 
        forces, and public information system and free press. This 
        requires the National Security Council to have such expertise, 
        the State Department to have operational capability to carry 
        out such a mission, the Department of Defense to have the 
        proper military capabilities, and other agencies to be ready to 
        provide the proper support. The US must never again repeat its 
        most serious mistakes in Iraq and Afghanistan. It must make 
        security and nation building a fundamental part of the planning 
        and execution of military operations directed at foreign 
        governments from the start. A clear operational plan for such 
        activity must be prepared before military operations begin, the 
        costs and risks should be fully assessed, and the Congress 
        should be fully consulted in the same way it is consulted 
        before initiating military operations. The security and nation-
        building missions must begin as combat operations proceed, 
        there must be no pause that creates a power vacuum, and the US 
        must act from the start to ensure that the necessary resources 
        for nation building are present.

  <bullet> Our military strategy must give interoperability and 
        military advisory efforts the same priority as jointness. The 
        US needs to rethink its arms sales and security assistance 
        policies. The US needs to pay far more attention to the social 
        and economic needs of countries in the Middle East, and to work 
        with other sellers to reduce the volume of sales. At the same 
        time, it needs to work with regional powers to help them make 
        the arms they do need effective and sustainable, create local 
        security arrangements, and improve interoperability for the 
        purposes of both deterrence and warfighting. The US needs to 
        recast its security assistance programs to help nations fight 
        terrorism and extremism more effectively, and do so in ways 
        that do not abuse human rights or delay necessary political, 
        social, and economic reforms.

  <bullet> The US needs to organize for effective information campaigns 
        while seeking to create regional and allied campaigns that will 
        influence Arab and Islamic worlds. The US needs to revitalize 
        its information efforts in a focused and effective way that 
        takes advantage of tools like satellite broadcasting and the 
        Internet while working directly in country. The US, however, 
        can never be an Arab or Islamic country. It needs to work with 
        its friends and allies in the region to seek their help in 
        creating information campaigns that reject Islamic radicalism 
        and violence, encourage terrorism, and support reform. The US 
        should not try to speak for the Arabs or for Islam; it should 
        help them speak for themselves.

  <bullet> The US private sector and foreign direct investment should 
        be integrated into the US security strategy and efforts to 
        achieve evolutionary reform. The US has tended to emphasize 
        sanctions over trade and economic contact in dealing with 
        hostile or radical states, and assign too low a priority to 
        helping the US private sector invest in friendly states. A 
        ``zero-based'' review is needed of what the US government 
        should do to encourage private sector activity in the Middle 
        East.

  <bullet> Current methods of intelligence collection and analysis, 
        cannot guarantee adequate preparation for stabilization 
        operations, properly support low intensity combat, or properly 
        support the nation-building phase. The US needs to 
        fundamentally reassess its approach to intelligence to support 
        adequate planning for the combat termination, security, and 
        nation building phases of asymmetric warfare and peacemaking 
        operations. It is equally important that adequate tactical 
        intelligence support be available from the beginning of combat 
        operations to the end of security and nation building 
        operations that provides adequate tactical human intelligence 
        support, combined with the proper area expertise and linguistic 
        skills. Technology can be a powerful tool, but it is an aid--
        not a substitute--for human skills and talents.

  <bullet> New approaches are needed at the tactical and field level to 
        creating effective teams for operations and intelligence. 
        Tactical intelligence must operate as part of a team effort 
        with those involved in counterinsurgency operations, the 
        political and economic phases of nation building, and security 
        and military advisory teams. It is particularly critical that 
        both intelligence and operations directly integrate combat 
        activity with civil-military relations efforts, US military 
        police and security efforts, the use of economic aid in direct 
        support of low intensity combat and security operations, the 
        training of local security forces and their integration into 
        the HUMINT effort, and the creation of effective information 
        campaigns.

  <bullet> Current methods of intelligence collection and analysis, and 
        current methods of arms control and inspection, cannot 
        guarantee an adequate understanding of the risks posed by 
        proliferation. The US needs to fundamentally reassess the 
        problems of intelligence on proliferation and the lessons Iraq 
        provides regarding arms control. Far too much of the media 
        coverage and outside analysis of the intelligence failures in 
        Iraq has focused on the politics of the situation or implied 
        that intelligence failed because it was improperly managed and 
        reviewed. There were long standing problems in the way in which 
        the CIA managed its counterproliferation efforts, and 
        institutional biases that affected almost all intelligence 
        community reporting and analysis on the subject.

  <bullet> The US has agonizing decisions to make about defense 
        resources. The fact that the current Future Year Defense Plan 
        does not provide enough funds to allow the US cannot come close 
        to fund both its planned force levels and force improvement 
        plans is obvious. Everyone with any experience stopped 
        believing in estimated procurement costs long ago. What is 
        equally clear now, however, is that the US faces years of 
        unanticipated conflicts, many involving armed peacemaking and 
        nation building, and must rethink deterrence in terms of 
        proliferation. This is not a matter of billions of dollars; it 
        is a matter of several percent of the US GNP.

  <bullet> Limit new strategic adventures where possible: The US needs 
        to avoid additional military commitments and conflicts unless 
        they truly serve vital strategic interests. The US already 
        faces serious strategic overstretch, and nothing could be more 
        dangerous than assuming that existing problems can be solved by 
        adding new ones--such as Syria or Iran. This means an emphasis 
        on deterrence, containment, and diplomacy to avoid additional 
        military commitments. It means a new emphasis on international 
        action and allies to find substitutes for US forces.

    One final reality--the image of a quick and decisive victory is 
almost always a false one, but it is still the image many Americans 
want and expect. One thousand or more dead in Iraq is hardly Vietnam, 
but it must be justified and explained, and explained honestly--not in 
terms of the ephemeral slogans. The budget rises and supplements of the 
last few years are also likely to be the rule and not the exception. 
America may well have to spend another one percent of its GNP on 
sustained combat and international intervention overseas than any 
American politician is willing to admit.
    America faces hard political choices, and they are going to take 
exceptional leadership and courage in both an election year and the 
decades to come. They require bipartisanship of a kind that has faded 
since the Cold War, and neither neo-conservative nor neo-liberal 
ideology can help. Moreover, America's think tanks and media are going 
to have to move beyond sound bites and simple solutions, just as will 
America's politicians and military planners. Put differently, it not 
only is going to be a very tough year, it is going to be a very tough 
decade.
What is to Be Done: The Need for Near-Term Actions in Iraq and the 
        Middle East
    At this point, the US lacks good options in Iraq--although it 
probably never really had them in the sense the Bush Administration 
sought. The option of quickly turning Iraq into a successful, free 
market democracy was never practical, and was as absurd a 
neoconservative fantasy as the idea that success in this objective 
would magically make Iraq an example that would transform the Middle 
East.
    The key to the success the US can now hope to achieve is to set 
realistic objectives. In practice, these objectives are to create an 
Iraqi political structure that will minimize the risk of civil war, 
develop some degree of pluralism, and help the Iraqis take charge over 
their own economy.
    This, in turn, means a major shift from trying to maintain US 
influence and leverage in a post sovereignty period to a policy where 
the US makes every effort to turn as much of the political, aid, and 
security effort over to Iraqis as soon as possible, and focuses on 
supporting the UN in creating the best compromises possible in creating 
Iraqi political legitimacy.
    The US should not abandon Iraq, but rather abandon the effort to 
create an Iraq in its own image.
    Other measures are:

  <bullet> Accept the fact that a universal, nation-wide ``security 
        first'' policy is stupid and impractical, and that the US needs 
        to isolate and bypass islands of resistance, and focus on 
        creating a legitimate Iraqi government that can unify Iraqis 
        and allow nation building to work. This means relying on 
        containment in the case of truly troubled and high insurgent 
        areas, and focusing on security in friendly areas.

  <bullet> Accept the fact there is no way to ``drain the swamp.'' At 
        this point, there simply is no way to eliminate cadres of 
        insurgents or to disarm the most threatening areas. Fallujah 
        and similar areas have too much popular support for the 
        insurgents; there are too many arms that can be hidden, and too 
        many points of vulnerability. This does not mean the US should 
        give up fighting the insurgents or its efforts to disarm them. 
        It does mean the US must accept that it cannot win in the sense 
        of eliminating them or turning hostile areas into secure and 
        disarmed areas.

  <bullet> Rush aid to the Iraqi security forces and military seeking 
        more friendly Arab aid in training and support, and provide as 
        broad a base of Iraqi command as possible. Forget contract 
        regulations on buying equipment. Deliver everything necessary 
        and worry about the details later.

  <bullet> Continue expanding the role of the Iraqi security forces. 
        Understand that their loyalties will be divided, that putting 
        them in charge of hostile areas does not mean they can be 
        expected to do more than work out a modus vivendi with the 
        insurgents, and that the end result will often be to create 
        ``no go'' or limited access areas for Americans. The US cannot 
        afford to repeat the Israeli mistake of assuming that any Iraqi 
        authority in hostile areas can be counted on to provide 
        security for Americans.

  <bullet> Walk firmly and openly away from the losers in the IGC like 
        Chalabi. Open up the political structure and deal with Shi'ite 
        oppositionists, Sunni insurgents, ex-Ba'athists to the maximum 
        degree possible. Drag in as many non-IGC leaders as possible, 
        and give Ibrahimi's council idea the strongest possible 
        support. Lower the US profile in shaping the political future 
        of Iraq as much as possible and bring in as broad a UN 
        international team as possible.

  <bullet> Focus on all of the Shi'ites, not just the friendly ones. 
        Make this a critical aspect of US diplomatic efforts. Let the 
        Iraqi Shi'ites deal with Sadr and stay out of internal Shi'ite 
        disputes, except to help insure security. Quietly reach out to 
        Iran to create whatever kind of dialogue is possible.

  <bullet> Push Sunni Arab states into helping Iraq's Sunnis and in 
        helping to deal with the political issues involved by quietly 
        making it clear that they will have to live with the aftermath 
        of failure and that the US presence and commitment is not open-
        ended.

  <bullet> Zero-base the failed contracting effort for FY2004 US aid to 
        put Iraqi Ministries and officials in charge of the aid process 
        as soon as possible, with Iraqis going into the field and not 
        foreign contractors.

  <bullet> Reprogram funds for a massive new CERP program to enable US 
        military commanders to use dollars instead of bullets at every 
        opportunity. Make the focus of US control over aid whether 
        Iraqis spend the money honestly and effectively, and not on US 
        control, plans, and objectives.

  <bullet> Zero-base the US embassy plan to create the smallest staff 
        practical of proven area experts, with the clear message to the 
        Iraqis that not only are they going to be in charge, but non-
        performance means no US money and no continuation of US troops 
        and support. End the image of a US end of an occupation after 
        the occupation.

  <bullet> Develop a long-term economic and military aid program as 
        leverage to try to influence Iraqi decision making over time. 
        Have the ministries manage the process, not USA1D or 
        contractors. Focus on whether the Iraqi efforts are honest and 
        produce real results. Do not try to use aid to force Iraq into 
        US modes and methods.

  <bullet> Accept the near total failure of US information operations. 
        Stop giving all CPA/CJTF-7 press conferences, and put an Iraqi 
        on the stage with the US spokesmen. Stop all procounsel-like 
        press conferences where the US seems to be dictating. Make an 
        Iraqi spokesman part of all dialogue, and give them the lead as 
        soon as possible. Subordinate US and Coalition spokesmen as 
        soon as possible to Iraqis in press conferences and briefings 
        that are held in Arabic.

  <bullet> Look at the broader failures of US policy in the region. 
        Revitalize the Road Map and the Quartet in the light of 
        Sharon's problems. Deal with the reality that there are two 
        failed sets of political elites in the Israeli-Palestinian 
        conflict, and that settlements should be unacceptable and not 
        just terrorism.

  <bullet> Abandon the Greater Middle East Initiative in its present 
        form. Do not add another strategic and policy blunder to the 
        present situation by appearing to call for regime change and 
        seeking to dominate the region. Focus on a broad cooperative 
        initiative worked out with the EU and where the EU puts 
        pressure on the Arab League. Stop talking about region-wide 
        democracy and liberty before there are responsible political 
        parties and the other reforms necessary to make democracy work. 
        Focus on a country-by-country approach to reform that considers 
        human rights, economic welfare, and demographic issues to be at 
        least as important as elections. Stress cooperation in 
        ``evolution;'' not random efforts at ``revolution.''

    Prepare for the fact that nation building may still fail, and 
position the US to use the threat of withdrawal as leverage. Make it 
clear that the US can and will leave Iraq if the Iraqis do not reach 
agreement on an effective interim solution and if they do not proceed 
with reasonable unity to implement the UN plans.
    The US position should be that the US is ready to help an Iraq that 
will help itself, and that it supports a true transfer of sovereignty. 
It should make it clear to Iraq and the world, however, that the US has 
a clear exit strategy. It has no interest in bases or control over 
Iraqi oil. It has no reason to stay if Iraq become unstable, devolves 
into civil war, or ends up under a strong man. The US can live with a 
weak or unstable Iraq, and Iraq still will have to export oil at market 
prices and will still be far less of a threat than Saddam's Iraq.

                            *      *      *

  The Security Problems that Drive the Need for Continuing Engagement

    US intervention in Iraq--like its role in the war in Afghanistan, 
the broader struggle against terrorism, and the Arab-Israel conflict--
must be seen in the context of continuing region-wide problems that 
will take at least 10-20 years to resolve, and which are spilling over 
into Central, South, and East Asia.
    At the same time, the history of the modern Middle East shows that 
the way in which these forces will play out is normally highly 
national. No one can deny the reality that Arab and Islamic culture are 
powerful regional forces, or that the rhetoric of Arab unity still has 
powerful influence. The fact remains, however, that history shows most 
demographic, social, economic, and political problems play out at a 
national level. Solutions are found, or not found, one nation at a 
time, and there is little historical evidence since the time of Nasser 
that any one nation may serve as an example that transforms the others.
    This scarcely means that short-term American success in Iraq is 
unimportant. It does mean that the forces shaping the region are far 
too powerful to play out quickly or be deeply influenced by a single 
case. Regardless of how well or how badly America does in Iraq--and in 
the other three wars it is involved in it faces decades in which:

  <bullet> Internal tensions will lead to violence in many states.

  <bullet> Demographic momentum will increase demographic pressure on 
        virtually every nation for at least the next three decades.

  <bullet> Economic reform will come slowly, particularly in reaching 
        the poor and badly educated.

  <bullet> Political evolution may succeed over time, but there is--as 
        yet--no foundation for sudden democracy or political reform. 
        Stable political parties, the rule of law, human rights, 
        willingness to compromise and give up power, and all the checks 
        and balances that allow our republic to function, are still 
        weak. Attempts at reform that outpace the ability of societies 
        to generate internal change will lead to revolution and new--
        and generally worse--forms of authoritarianism or theocracy.

  <bullet> Islamic extremism and terrorism may never come to dominate 
        more than a handful of states, but they will mutate and endure 
        for decades after Bin Laden and Al Qaida are gone and only 
        sheer luck will prevent them from dominating at least some 
        states or at least posing a critical challenge to some regimes.

  <bullet> Anger and jealousy at the West and against the US in 
        particular, may fade some if the US can find a way of helping 
        to end the Arab-Israeli conflict, and can succeed enough in 
        Iraq so that it is not perceived as a modern group of 
        ``crusaders'' and an occupying enemy. This anger will not, 
        however, disappear. It may well be compounded by the backlash 
        from cultural conflicts over immigration and a steadily growing 
        gap between the wealth of the West, and living standards in 
        much of the MENA region.

    The fact that the future of Iraq and the Middle East will be as 
difficult, complex, and time consuming as its past, however, does not 
mean that the US can disengage from the region. Neither do the facts 
that US influence will be far more limited than we might like, that 
reform and change will be driven by local values and priorities, and 
that there will often be set backs and reversals.
    America is not involved in a ``clash of civilizations.'' It is, 
however, on the periphery of a clash within a civilization that affects 
their vital strategic interests, that can lash out in the form of 
terrorism and extremist attacks, and which deserves an active US role 
on moral and humanitarian grounds. Like the Cold War, the fact America 
faces what could be half a century of problems, and can neither foresee 
nor fully shape the future, in no way allows Americans to stand aside.
    Like it or not, the US is also involved in a war of ideas and 
values in the Arab and Islamic worlds, and there is no easy dividing 
line between the Middle East, the general threat of Islamic extremism, 
the Arab-Israeli conflict, the war in Afghanistan, and instability in 
Central and South Asia. We will be a target regardless of how active we 
are in the region. The events of ``9/11'' have made part of the threat 
as obvious as the previous points have shown the need for outside aid 
and encouragement. Terrorism can reach anywhere in the world, and 
sometimes will.

  STRATEGY, GRAND STRATEGY, AND THE ORGANIZATION OF THE US GOVERNMENT 
                       CIVIL AND MILITARY EFFORT

    In fairness to the Bush Administration, only one of the four wars 
the US now faces--Iraq--can be called ``optional.'' Afghanistan came as 
the result of a major attack on the US. The problem of terrorism had 
arisen long before ``9/11,'' and US involvement in Arab-Israeli 
conflicts is inevitable unless a true and lasting peace can be achieved 
or the US abandons an ally.
    Even Iraq is ``optional'' largely in retrospect. The Bush and Blair 
governments may have politicized some aspects of the assessment of 
Iraqi proliferation, but virtually all experts felt the threat was more 
serious than it has proved to be. Moreover, it seems doubtful that 
Saddam's Hussein's Iraq would not have triggered another regional 
conflict at some point, just as it is doubtful that most of Iraq's 
present internal problems would not have surfaced at some point in the 
future even if the US, Britain, and Australia had never invaded.
    The end result, however, is the US does not face the possibility of 
fighting two major regional contingencies the strategic focus of both 
the first Bush Administration and the Clinton Administration. The US 
instead faces the reality of actually fighting three low intensity 
conflicts and deep strategic involvement in a fourth. Moreover, the US 
still faces the risk of involvement in major regional conflicts. These 
risks include Iran, North Korea, Taiwan, and Columbia.
    American military planning and strategy must be reevaluated in 
terms of this situation and many of the lessons that grow out of US 
experience in Iraq apply to the other wars as well:

  <bullet> Strategic engagement requires an objective--not an 
        ideological--assessment of the problems that must be dealt 
        with, and of the size and cost of the effort necessary to 
        achieve decisive grand strategic results. Neither a 
        capabilities-based strategy nor one based on theoretical sizing 
        contingencies is meaningful when real-world conflicts and well-
        defined contingencies require a strategy and force plan that 
        can deal with reality, rather than theory. The US does not face 
        a world where all problems were solved by the end of the Cold 
        War. It does not face a world it can control or predict in the 
        future. It must constantly adapt to the tasks at hand and those 
        it can immediately foresee, not base its plans on hopes and 
        strategic slogans.
      The US must pursue strategies and tactics that reflect the fact 
        that many of the conflicts we are now involved in cannot be 
        resolved by defeating a well defined enemy and involve 
        political, social, and economic forces that will take years, if 
        not decades to run their course. Iraq, at best, will be an 
        unstable and evolving state for a decade after we leave. At 
        worst it could be the subject of strong antiAmerican feelings 
        in the Gulf and Arab world.
      The war in Afghanistan is mutating in ways that are beyond our 
        control and nation building so far is failing. The war on 
        terrorism is not a war against Al Qaida but against violent 
        Islamic extremism driven by mass demographic, economic, and 
        social forces in a region with limited political legitimacy. It 
        may take a quarter of a century to deal with. The Israeli-
        Palestinian conflict seems years away from peace, and the last 
        peace process has shown how tenuous and uncertain even a 
        seemingly successful peace process can be.

  <bullet> ``Superpower'' has always been a dangerous term. The 
        resulting exaggeration of US capabilities and strategic focus 
        on bipolar threats and ``peer rivals'' misses the point. The 
        real problem is being a global power with limited resources--a 
        problem that Great Britain encountered throughout the 19th 
        century. The world already is multipolar. There are severe 
        limits to what the US can do, and how many places it can do it. 
        Coalitions and alliances are more important than ever.
      There is no alternative to ``internationalism.'' There may be 
        times we disagree with the UN or some of our allies, but our 
        strategy must be based on seeking consensus wherever possible, 
        on compromise when necessary, and on coalitions that underpin 
        virtually every action we take. Our rhetoric can no longer be 
        simply American or be driven by domestic politics; it must take 
        full account of the values and sensitivities of others.
      Our military strategy must give interoperability and military 
        advisory efforts the same priority as jointness. In order to 
        lead, we must also learn to follow. We must never subordinate 
        our vital national interests to others, but this will rarely be 
        the issue. In practice, our challenge is to subordinate our 
        arrogance to the end of achieving true partnerships, and to 
        shape our diplomacy to creating lasting coalitions of the truly 
        willing rather than coalitions of the pressured and 
        intimidated.

  <bullet> Great as US power is, it cannot substitute for coalitions 
        and the effective use of international organizations if at all 
        possible. The term ``superpower'' may not be a misnomer, but it 
        certainly does not imply US freedom of action. At the same 
        time, most NGOs and international organizations are not 
        organized for armed nation building and face severe--if not 
        crippling--limitations if they are targeted in a low intensity 
        combat environment or by large-scale terrorism.

  <bullet> At the same time, armed nation building is a challenge only 
        the US is currently equipped to meet. While allies, the UN, and 
        NGOs can help in many aspects of security and nation building 
        operations. They often cannot operate on the scale required to 
        deal with nation building in the midst of serious low intensity 
        combat. Armed nation building requires continuing US military 
        and security efforts, and civil and economic aid programs. 
        Security and nation building not only require new forms of US 
        ``rapid deployment,'' but major financial resources and the 
        development of new approaches to providing economic aid and the 
        necessary contract support.

  <bullet> Deterrence and containment are more complex than at the time 
        of the Cold War, but they still are critical tools and they too 
        are dependent on formal and informal alliances. The need to 
        create reliable structures of deterrence must also respond to 
        the reality of proliferation. The problem no longer is how to 
        prevent proliferation, but rather how to live with it.
      The US needs to develop more mobile forces that are better 
        tailored to rapid reaction, power projection in areas where the 
        US has limited basing and facilities, and capable of dealing 
        better with the kind of low intensity combat dominated by 
        terrorists or hostile movements that require an emphasis on 
        light forces and HUMINT, rather than heavy forces and high 
        technology.
      Military intervention cannot, however, be the dominant means of 
        exercising US military power. The problem is to find better 
        ways to use the threat of US military power to deter and 
        contain asymmetric conflicts, and new kinds of political and 
        economic threats. War avoidance is just as important in the 
        post-Cold War era as it was during it.

  <bullet> War must be an extension of diplomacy by other means, but 
        diplomacy must be an extension of war by other means as well. 
        US security strategy must be based on the understanding that 
        diplomacy, peace negotiations, and arms control are also an 
        extension of--and substitute for--war by other means. It is 
        easy for a ``superpower'' to threaten force, but far harder to 
        use it, and bluffs get called. Fighting should be a last 
        resort, and other means must be used to limit the number of 
        fights as much as possible.

  <bullet> Military victory in asymmetric warfare can be virtually 
        meaningless without successful nation building at the 
        political, economic, and security levels. These 
        ``stabilization'' or ``Phase IV'' operations are far more 
        challenging, however, than defeating conventional military 
        forces. They also probably can best be conducted if the US is 
        prepared for immediate action after the defeat of conventional 
        enemy forces. Both in Afghanistan and Iraq, the US wasted 
        critical days, weeks, and months in engaging in a security 
        effort before opposition movements could regroup or reengage. 
        It left a power vacuum, rather than exploited one, and it was 
        not prepared for nation building or the escalation of 
        resistance once the enemy was ``defeated.''
      The Quadrennial Defense Review was right in stressing the risk 
        asymmetric warfare posed to the US in spite of its conventional 
        strength. It failed, however, to look beyond the narrow 
        definition of the problems of direct combat to the problems of 
        containment and deterrence, conflict termination, and armed 
        nation building. Much of today's problems in Iraq stem from the 
        fact that the Defense Department and the Bush Administration 
        were as badly prepared for conflict termination, nation 
        building, and low intensity threats after the defeat of 
        Saddam's regular military forces, as they were well prepared to 
        carry out that defeat.
      The price tag also involves more than dollars and includes some 
        share of responsibility for every US body bag being flown out 
        of Iraq. To a lesser degree, the same is true of the situation 
        in Afghanistan, and the problem is scarcely new.
      The US failed in both nation building and Vietnamization in 
        Vietnam. It failed in Lebanon in the early 1980s. It failed in 
        Haiti, and it failed in Somalia. The stakes, level of 
        involvement, and the costs to the US may have been far lower in 
        some of these cases, but the fact remains that the US failed.

  <bullet> Force transformation cannot be dominated by technology; 
        manpower skills, not technology, are the key. The Afghan War 
        led to an emphasis on a method of using airpower that could not 
        secure the country or deal with Taliban and Al Qaida forces 
        that quickly mutated and dispersed. The Iraq War began with 
        heavy conventional land forces and soon became a heavy air-land 
        battle. It was all airpower, armored, Intelligence, 
        Surveillance, and Reconnaissance (IS&R) and precision through 
        late April. As such, it showed that high technology forces 
        could decisively defeat lower technology conventional forces 
        almost regardless of force numbers and the kinds of force 
        ratios that were critical in past conflicts. Yet, the US has 
        since been forced to virtually reinvent the way in which it 
        uses its forces since the fall of Saddam's regime. Technology 
        and netcentric war--and an emphasis on destroying enemy hard 
        targets and major weapons systems--failed when the problem 
        became conflict termination, armed nation building, and low 
        intensity warfare.
      The military missions of low intensity combat, economic aid, 
        civil-military relations, security, and information campaigns 
        are manpower dominated and require skilled military manpower as 
        well as new forms civil expertise in other Departments. Human 
        intelligence can still be more important than technical 
        collection, local experience and language skills are critical, 
        and the ability to use aid dollars can be more important than 
        the ability to use bullets.
      This requires a fundamental reexamination of US force plans and 
        force transformation concepts. For decades, the US has sought 
        to use technology to substitute for defense spending, for force 
        numbers, and for manpower numbers. During the conventional 
        phases of both the Afghan and Iraq conflicts, suggestions were 
        made for further force and manpower cuts and further efforts to 
        achieve savings in defense spending by acquiring 
        transformational technology.
      Technology has been, is, and will be critical to American power 
        and military success. It is extremely questionable, however, 
        that the US has any credible way of using technology to make 
        further force and manpower cuts without taking unacceptable 
        risks. Creating the proper mix of capabilities for asymmetric 
        warfare, low-intensity conflict, security and Phase IV 
        operations, and nation building requires large numbers of 
        skilled and experience personnel. It is manpower intensive, and 
        technology is at best an aid to--not a substitute for--force 
        size and manpower numbers.
      This problem is further compounded by the fact that the US does 
        not have a single major transformational weapons system or 
        technology under development which now seems likely to be 
        delivered on time, with the promised effectiveness, and at even 
        half of the unit life cycle cost originally promised. The US 
        has made little meaningful progress in the effective planning 
        and management of the development and procurement of advanced 
        military technology in the last quarter century--at least in 
        the sense of being able to integrate it into realistic budgets 
        and force plans. While the US has shown it can transform, it 
        has not shown it can plan and manage transformation.
      For at least the next half decade, the US must also deal with the 
        backlog of maintenance and service requirements created by its 
        operations in Iraq and Afghanistan, and with the fact it must 
        retain and modernize far more of its so-called legacy systems 
        that it now plans.

  <bullet> Technology-based force transformation and the revolution in 
        military affairs are tools with severe and sometimes crippling 
        limits. The ability to provide Intelligence, Surveillance, and 
        Reconnaissance (IS&R) coverage of the world is of immense 
        value. It does not, however, provide the ability to understand 
        the world, deal with complex political issues, and fight 
        effectively in the face of terrorism, many forms of low 
        intensity conflict and asymmetric warfare, and the need to deal 
        with conflict termination and peace making or protect nation 
        building.
      The ability to use precision weapons, helicopter mobility, and 
        armor to destroy enemy conventional forces and blow fixed 
        targets up ``24/7'' is also of great tactical value, but it 
        does not mean that defeating enemy conventional forces really 
        wins wars. The US is as bad at knowing what to blow up in terms 
        of strategic targeting and many aspects of interdiction bombing 
        as it was in World War II.
      There also are good reasons to question whether many aspects of 
        ``Netcentric'' warfare are little more than a conceptual myth, 
        concealing the military equivalent of the ``Emperor's new 
        clothes'' in a dense forest of incomprehensible PowerPoint 
        slides than cannot be translated into procurable systems, 
        workable human interfaces, and affordable Future Year Defense 
        Plans.
      In practice, there may be a need to make far more effective use 
        of legacy systems, and evolutionary improvements in weapons and 
        technology, to support ``humancentric'' forms of military 
        action requiring extensive human intelligence and area skills, 
        high levels of training and experience, and effective 
        leadership in not only defeating the enemy in battle but 
        winning the peace.
      This, in turn, means creating US military forces with extensive 
        experience in civil-military action and which can use aid as 
        effectively as weapons--dollars as well as bullets. It also 
        means redefining interoperability to recognize that low 
        technology allied forces can often be as, or more effective, as 
        high technology US forces in such missions.

  <bullet> Simply adding troops or more weapons will not solve 
        America's problems any more than trying to use technology to 
        make US forces smaller and more cost-effective will.
      Manpower quality is at least as important as manpower quantity, 
        and they require suitable increases in the strength of military 
        and civil units. The problem is not boots on the ground, but 
        the capability of those wearing the boots. The missions that 
        are emerging require extremely skilled troops with excellent 
        area skills, far more linguists, human intelligence experts, 
        experts in urban and low intensity warfare, military police, 
        security experts and experts with training in civic action and 
        nation building. Personnel are require who can train local 
        personnel in security, police functions, and well as guerrilla 
        warfare. Many of these personnel and forces, however, would 
        have little value in a Korean or Taiwan contingency. The US 
        needs to pause and think out the issue of quality before it 
        does anything about force quantity. The fact is that 200,000 
        under-trained troops in Iraq would not be better than 150,000, 
        and having F-22s instead of F-15s would be pointless.

  <bullet> ``Jointness'' cannot simply be an issue for restructuring 
        the US military, and is far more than a military problem. It 
        must occur within the entire executive branch, and on a civil-
        military level as well as a military one.
      The Iraq War has shown that the end result of allowing small 
        cadres in the Office of the Secretary of Defense, the Vice 
        President, and National Security Council was to allow 
        ideological cadres to bypass the US national security process 
        in ways that led to critical failures in key strategic tasks 
        like conflict termination and nation building. More broadly, 
        similar failures have occurred in virtually every aspect of US 
        strategic engagements and diplomacy, including critical areas 
        like counterproliferation and the Arab-Israel peace process.
      To date, this lack of ``jointness'' in the Bush Administration's 
        national security team has had many of the same effects as a 
        similar Department of Defense-driven breakdown in the 
        interagency process during the period in which critical 
        decision were made to carry out a massive US building up in 
        Vietnam.
      An advisory National Security Advisor is a failed National 
        Security Advisor; effective leadership is required to force 
        coordination on the US national security process. Unresolved 
        conflicts between leaders like Secretary Powell, and Secretary 
        Rumsfeld, the exclusion of other cabinet members from key 
        tasks, insufficient review of military planning, and giving too 
        much power to small elements within given departments, have 
        weakened US efforts and needlessly alienated our allies. The 
        creation of a large and highly ideological foreign policy staff 
        in Vice President's office is a further anomaly in the 
        interagency process.
      The US interagency process simply cannot function with such 
        loosely defined roles, a lack of formal checks and balances, 
        and a largely advisory National Security Advisor. ``Jointness'' 
        must go far beyond the military; it must apply to all national 
        security operations.

  <bullet> Policy, analysis, and intelligence must accept the true 
        complexity of the world, deal with it honestly and objectively, 
        and seek ``evolution'' while opposing ``revolution.''
      The US is involved in four very complex wars, each of which 
        requires the most objective intelligence and analysis that is 
        possible. There is no room for ideological sound bites or 
        overly simplistic solutions, and force transformation cannot 
        cut some mystical Gordian knot. The US cannot afford to rush 
        into--or stay in--any conflict on ideological grounds. It 
        cannot afford to avoid any necessary commitment because of 
        idealism. What it needs is informed pragmatism.
      One simple rule of thumb is to stop over-simplifying and 
        sloganizing--particularly in the form of ``mirror imaging'' and 
        assuming that ``democratization'' is the solution or even first 
        priority for every country. The US needs to deal with security 
        threats quietly and objective on a country-by-country and 
        movement-by-movement basis.
      The US must seek reform with the understanding that progress in 
        economic development, raising the living standards of the 
        ordinary citizen, dealing with population problems, and 
        improvements in human rights may often not only be more 
        important in the near term than progress towards elections, but 
        that ``democracy'' is purposeless, or actively destructive, 
        unless viable political parties exist, political leaders have 
        emerged capable of moving their nations forward toward 
        moderation and economic development, and enough national 
        consensus exists to allow different ethnic, ideological, and 
        religious factions to function in a stable pluralistic 
        structure. Finally, the US must act with the understanding that 
        other societies and cultures may often find very different 
        solutions to political, social, and economic modernization.
      The US cannot afford to carelessly abuse words like `Islam'' and 
        ``Arab,'' or ignore the sensitivities of key allies like South 
        Korea in dealing with the threat from the North. It cannot 
        afford to alienate its European allies or lose support in the 
        UN by throwing nations like ``Iran'' into an imaginary ``axis 
        of evil.'' It needs nations like Saudi Arabia as an ally in the 
        struggle against movements like Al Qaida, and it cannot afford 
        to confuse terrorist movements driven by different and largely 
        neo-Salafi beliefs with terms like Wahhabi, any more than it 
        can afford to act as if Al Qaida somehow dominated a far more 
        complex mix of different threats.
      The US needs a nuanced pragmatism that deals with each nation and 
        each threat individually and in proportion to the threat it 
        really presents. It must give regional and other allies a 
        proper role and influence in decision-making rather than seek 
        to bully them through ideology and rhetoric. It needs to engage 
        the checks and balances of the fully interagency process, of 
        area and intelligence professionals, and seek a bipartisan 
        approach with proper consultation with the Congress.

  <bullet> Stabilization, armed nation building, and peacemaking 
        require a new approach to organizing US government efforts.
      It is not clear when the US will have to repeat stabilization and 
        nation building activities on the level of Iraq. It is clear 
        that the civilian agencies of the US government were not 
        adequately prepared to analyze and plan the need for the 
        political, security, aid, and information programs needed in 
        Iraq, and to provide staff with suitable training and ability 
        to operate in a high threat environment. The State Department 
        was prepared to analyze the challenges, but lacked both 
        planning and operational capability and staff prepared to work 
        in the field in a combat environment.
      The integration of USAID into State has compounded the problems 
        of US aid efforts which had previously transferred many 
        functions to generic aid through the World Bank and IMF. There 
        was no staff prepared, sized, and training to deal with nation 
        building on this scale, or to formulate and administer the 
        massive aid program required. Contractors were overburdened 
        with large-scale contracts because these were easiest to grant 
        and administer in spite of a lack of experience in functioning 
        in a command economy and high threat environment. US government 
        and contractor staff had to be suddenly recruited--often with 
        limited experience--and generally for 3-12 month tours too 
        short to ensure continuity in such missions.
      It is a tribute to the CPA and all those involved that so much 
        could be done in spite of the lack of effective planning and 
        preparation before the end of major combat operations against 
        Iraq's conventional forces. The fact remains, however, that 
        this should never happen again. Denial of the importance and 
        scale of the mission before the event in no way prevents it 
        from being necessary when reality intervenes.

  <bullet> New capabilities are required within the National Security 
        Council, the State Department, and the Department of Defense 
        for security and nation building missions. It does not matter 
        whether these are called post conflict, Phase IV, 
        stabilization, or reconstruction missions. The US must be as 
        well prepared to win a peace as it is prepared to win a war. It 
        must have the interagency tools in place to deal with providing 
        security after the termination of a conflict, and to support 
        nation building in terms of creating viable political systems, 
        economic stability and growth, effective military and security 
        forces, and public information system and free press. This 
        requires the National Security Council to have such expertise, 
        the State Department to have operational capability to carry 
        out such a mission, the Department of Defense to have the 
        proper military capabilities, and other agencies to be ready to 
        provide the proper support. The US must never again repeat its 
        most serious mistakes in Iraq and Afghanistan. It must make 
        security and nation building a fundamental part of the planning 
        and execution of military operations directed at foreign 
        governments from the start. A clear operational plan for such 
        activity must be prepared before military operations begin, the 
        costs and risks should be fully assessed, and the Congress 
        should be fully consulted in the same way it is consulted 
        before initiating military operations. The security and nation-
        building missions must begin as combat operations proceed, 
        there must be no pause that creates a power vacuum, and the US 
        must act from the start to ensure that the necessary resources 
        for nation building are present.

  <bullet> The US needs to rethink its arms sales and security 
        policies.
      The US still is selling massive amounts of arms to the region 
        with more attention to the dollar value of sales than to their 
        impact on local societies, the need for interoperability and 
        effectiveness, and changes in security needs that increasingly 
        focus on internal security.
      The US signed $13.3 billion worth of new arms sales agreements 
        with Middle Eastern countries during 1995-1998, of total sales 
        to the region of $30.8 billion. Most are still in delivery or 
        early conversion and require extensive US advisory and contract 
        support to be effective. The US signed another $17.2 billion 
        during 1999-2002, out of a worldwide total of $35.9 billion. 
        All of these latter sales require extensive US advisory and 
        contract support. At present, almost all of these sales are 
        going to countries with poorly integrated arms buys, and low 
        levels of readiness and sustainability. They are also being 
        made in ways that offer only limited interoperability with US 
        forces.
      The sheer volume of these sales also does as much to threaten 
        regional security as it does to aid it. The US needs to pay far 
        more attention to the social and economic needs of countries in 
        the Middle East, and to work with other sellers to reduce the 
        volume of sales. At the same time, it needs to work with 
        regional powers to help them make the arms they do need 
        effective and sustainable, create local security arrangements, 
        and improve interoperability for the purposes of both 
        deterrence and warfighting.
      At the same time, most countries now face internal security 
        threats that are more serious than external threats. The US 
        needs to recast its security assistance programs to help 
        nations fight terrorism and extremism more effectively, and do 
        so in ways that do not abuse human rights or delay necessary 
        political, social, and economic reforms.

  <bullet> The US needs to organize for effective information campaigns 
        while seeking to create regional and allied campaigns that will 
        influence Arab and Islamic worlds.
      The integration of the US Information Agency (USIA) into the 
        State Department, and major cutbacks in US information and 
        public diplomacy efforts, have deprived the US of a critical 
        tool that works best when regional efforts are combined with 
        well-funded and well-staffed efforts at the embassy and local 
        level. The US needs to revitalize its information efforts in a 
        focused and effective way that takes advantage of tools like 
        satellite broadcasting and the Internet while working directly 
        in country.
      The US, however, can never be an Arab or Islamic country. It 
        needs to work with its friends and allies in the region to seek 
        their help in creating information campaigns that reject 
        Islamic radicalism and violence, encourage terrorism, and 
        support reform. The US should not try to speak for the Arabs or 
        for Islam, it should help them speak for themselves.

  <bullet> The US private sector and foreign direct investment should 
        be integrated into the US security strategy.
      Far too often, the US ignores the role that the US private sector 
        can and must play in achieving evolutionary reform. The US has 
        tended to emphasize sanctions over trade and economic contact 
        in dealing with hostile or radical states, and assign too low a 
        priority to helping the US private sector invest in friendly 
        states. A ``zero-based'' review is needed of what the US 
        government should do to encourage private sector activity in 
        the Middle East.

  <bullet> The US has agonizing decisions to make about defense 
        resources.
      In spite of major recent increases in defense spending, even the 
        present force plan is unsustainable in the face of the combined 
        funding burdens of operations, modernization, and 
        transformation.
      The fact that the current Future Year Defense Plan does not 
        provide enough funds to allow the US cannot come close to fund 
        both its planned force levels and force improvement plans is 
        obvious. Everyone with any experience stopped believing in 
        estimated procurement costs long ago. What is equally clear 
        now, however, is that the US faces years of unanticipated 
        conflicts, many involving armed peacemaking and nation 
        building, and must rethink deterrence in terms of 
        proliferation. This is not a matter of billions of dollars; it 
        is a matter of several percent of the US GNP.

  <bullet> The US must limit new strategic adventures where possible:
      The US needs to avoid additional military commitments and 
        conflicts unless they truly serve vital strategic interests. 
        Regardless of the outcome of the reevaluation of force 
        transformation recommended earlier, it will be two to three 
        years at a minimum before the US can create major new force 
        elements and military capabilities, and some change will take 
        at least five to ten years. The US already faces serious 
        strategic overstretch, and nothing could be more dangerous than 
        assuming that existing problems can be solved by adding new 
        ones--such as Syria or Iran. This means an emphasis on 
        deterrence, containment, and diplomacy to avoid additional 
        military commitments. It means a new emphasis on international 
        action and allies to find substitutes for US forces.

                 LESSONS FOR INTELLIGENCE AND ANALYSIS

    Current methods of intelligence collection and analysis, cannot 
guarantee adequate preparation for stabilization operations, properly 
support low intensity combat, or properly support the nation-building 
phase. The US needs to fundamentally reassess its approach to 
intelligence to support adequate planning for the combat termination, 
security, and nation building phases of asymmetric warfare and 
peacemaking operations. The same jointness is needed in the 
intelligence community effort to prepare for asymmetric warfare that is 
needed in the overall interagency process, and to ensure that the 
analysis given to policymakers, planners, and operators fully presents 
the problems and challenges that must be dealt with in stabilization 
and armed nation building. There must never again be a case in which 
the Department of Defense filters or rejects community-wide analysis or 
priority is given to intelligence for military operations in ways that 
prevent adequate intelligence analysis and support being ready for the 
stabilization and nation-building phase.
    It is equally important that adequate tactical intelligence support 
be available from the beginning of combat operations to the end of 
security and nation building operations that provides adequate tactical 
human intelligence support, combined with the proper area expertise and 
linguistic skills. Technology can be a powerful tool, but it is an 
aid--not a substitute--for the human skills and talents necessary to 
support low intensity combat, expand the role of tactical human 
intelligence, and do so in the context of supporting aid efforts and 
civil military relations, as well as combat operations. At the same 
time, civilian intelligence agency efforts need to be recast to support 
nation building and security operations.
    Iraq and Afghanistan have also shown that tactical military 
intelligence must operate as part of a team effort with those involved 
in counterinsurgency operations, the political and economic phases of 
nation building, and security and military advisory teams.
    It is particularly critical that both intelligence and operations 
directly integrate combat activity with civil-military relations 
efforts, US military police and security efforts, the use of economic 
aid in direct support of low intensity combat and security operations, 
the training of local security forces and their integration into the 
HUMINT effort, and the creation of effective information campaigns. In 
the future, this may require a far better integration of military and 
civil efforts in both intelligence and operations than has occurred in 
either Iraq or Afghanistan.

                    THE NEAR TERM SITUATION IN IRAQ

    It may not be as apparent in the US as it is in the Arab world, but 
several weeks of travel in the region indicate that the course of the 
fighting in Fallujah and Najaf are perceived in much of Iraq and the 
Arab world as a serious US defeat. This is not simply a matter of 
shattering an aura of US military invincibility; it is a growing shift 
in political attitudes and in the prospects for political change in 
Iraq.
    It is also all too clear that any idea the US is engaging in 
``post-conflict operations'' is little more than a farce. The shock of 
Saddam's fall produced a brief period of near paralysis in the Iraqi 
opposition to the US and the Coalition. By August 2003, however, a 
state of low intensity conflict clearly existed in Iraq, and the level 
of this conflict has escalated ever since January of 2004.
    In fact, this follows a pattern that makes the very term ``post-
conflict operations'' a stupid and intellectually dishonest oxymoron. 
As we have seen in Afghanistan, Somalia, Lebanon, Cambodia, and many 
other cases, asymmetric wars do not really end. Nation building must 
take place on an armed basis without security and in the face of 
adaptive and innovative threats. The reality is that this is a far more 
difficult aspect of ``transformation'' than defeating organized 
military resistance, and one for which the US is not yet prepared.
    Senior US officials have been in a continuing state of denial about 
the depth of support for this conflict. They have misused public 
opinion polls like the Zogby and ABC polls and they have ignored the 
fact that the ABC poll conducted in February found that roughly two 
thirds of Sunnis and one third of Shi'ites opposed the US and British 
invasion and found it to be humiliating to Iraq. Senior US officials 
have ignored the fact that roughly one-third of Sunnis and two-thirds 
of Shi'ites support violence against the Coalition and want the 
Coalition forces to leave Iraq immediately. They talk about a small 
minority of Iraqis because only a small minority have so far been 
actively violent--a reality in virtually every insurgent campaign and 
one that in no way is a measure of support for violence.
    A year into the ``war after the war,'' far too many US officials 
are still in a state of denial as to the political realities in the 
Middle East. They do not see just how much the perceived US tilt 
towards Israel and Sharon alienates Iraqis and Arabs in general. They 
do not admit the near total failure of US information operations, and 
the fact that Iraqis watch hostile Arab satellite TV stations and rely 
on papers filled with misinformation and conspiracy theories.
    They talk about ``success'' in aid programs measured in terms of 
contracts signed, fiscal obligations, and gross measures of performance 
like megawatts; not about actual progress on the ground the kind that 
can really win hearts and minds. They cannot understand that US calls 
for ``liberty,'' ``democracy,'' and ``reform'' have become coupled to 
images of US interference in Arab regimes, the broad resentment of 
careless negative US references to Islam and Arab culture, and 
conspiracy theories about control of Iraqi oil, ``neoimperialism,'' and 
serving ``Zionist'' interests.
    The fact these perceptions are not fair is as irrelevant as US 
tactical military victories that are often political defeats. The 
present mix of armed nation building and low intensity conflict takes 
place in a region shaped by such perceptions. This is why the 
photographic evidence of US mistreatment of Iraqi prisoners is so 
devastating. For many in the region, it validates every criticism of 
the US, and vastly strengthens the hand of Islamic extremists, Sunni 
insurgents, Shi'ite insurgents, and hostile media and intellectuals in 
both the Arab world and Europe.
    The time has come to face this reality. There was never a time when 
neoconservative fantasies about the Middle East were anything but 
dangerous illusions. Those fantasies have killed and wounded thousands 
of American and Coalition allies, and now threaten the US with a 
serious strategic defeat. It may not be possible to avoid some form of 
defeat, but the US must make every effort to do so, and this means 
junking the neoconservatism within the Office of the Secretary of 
Defense, the Vice President's office, and the NSC and coming firmly to 
grips with reality.

WHY THE US HAS ALREADY ``LOST'' SOME ASPECTS OF ITS BATTLES IN FALLUJAH 
                             AND WITH SADR

    The US is scarcely defeated in either a military or a political 
sense, but it is suffering serious reversals. The Iraqi insurgents do 
not have to win battles in a tactical sense; they merely have to put up 
a determined enough resistance, with enough skill and courage, to show 
their fellow Iraqis and the Arab world that they are capable of a 
determined, strong and well-organized effort. Many of their fellow 
Iraqis will perceive any determined resistance as a ``victory'' against 
the world's only superpower.
    If the Sunnis in Fallujah, and Sadr in Najaf, continue to show they 
can survive a US military threat--and that they can force the US and 
Coalition into a posture of containment and compromise--they will be 
able to change the rules of the game in nation building as well as in 
the fighting. They will score a major victory at the political level 
while they effectively create ``no go'' areas and sanctuaries. They 
will do so even if they do have to end open confrontation and turnover 
some weapons and activists.
    Solutions like the ``Fallujah Brigade'' are de facto defeats for 
the US in both military and political terms. They signal a coming 
struggle for power in which hostile elements of both Arab Sunnis and 
Shi'ites will be much stronger than the US and its allies previously 
estimated. They also create a national political climate in which the 
Coalition is perceived as lacking any clear plan or goals, the Interim 
governing Council is divided and lacking in legitimacy, the Iraqi 
security forces are seen as ineffective, and the UN becomes both a tool 
for insurgent pressure and a potential target.

  LOSING A WAR OF ATTRITION IN A ``PERFECT STORM'' OF NEGATIVE IMAGES?

    The fighting during April 2004 has also created a climate in which 
the US and its allies are seen as being in the middle of a war of 
attrition that they are losing. The totals of US, allied, and friendly 
Iraqi killed and wounded have already reached the point where Iraqi 
insurgents and foreign extremists have every reason to perceive the 
Coalition as politically and strategically vulnerable--an image 
reinforced by the steady loss of support for the war and a continued 
effort in Iraq in US and allied public opinion polls.
    Hostile Iraqi losses to date can be sustained indefinitely. As a 
result, the mix of Coalition and friendly Iraqi casualties, sabotage 
and paralysis of the aid process, and growing political uncertainty at 
the edge of the transfer of sovereignty act as a virtual road map for 
future battles in Iraq and later battles against US military and nation 
building operations in the rest of the world. The end result is to show 
that an Arab asymmetric force can delay and possibly checkmate the 
strongest Western military power that Arabs are not weak or passive, 
and that Arabs can ``take back their homeland.''
    It will take a new public opinion poll to determine just how much 
the ``perfect storm'' of negative events since February has changed 
opinion inside Iraq, but it seems almost certain that events in 
Fallujah and dealing with Sadr have sharply cut support for the US 
among moderate Iraqi Arabs. (The fact the Kurds have nowhere else to 
go--and have to be friendly--means they should be largely excluded from 
polls analyzing how Iraqi attitudes are affecting the war.)
    It seems equally certain that this drop is compounded by the flood 
of Arab images of Iraqi civilians suffering in the fighting, the images 
of mistreatment of Iraqi POWs, and newscasts that claim every US use of 
a modern weapon is a careless use of excessive force. These images are 
clearly having a powerful impact throughout the Sunni world--strongly 
reinforced by Israeli military action and statements that make the 
constant Arab media linkage between the US and Israeli occupations 
steadily more damaging. Furthermore, similar images are being portrayed 
in Iran and it seems likely that Iranian opinion is turning away from 
the US.

           THE LACK OF COALITION AND IGC POLITICAL LEGITIMACY

    The last few weeks of resistance have sharply undercut the already 
low political legitimacy of the CPA, the US approach to nation 
building, and the Interim Governing Council. Iraqis and the region 
perceive the US as lacking any credible plan of action and as being 
``forced'' to turn to the UN.
    The ``pro-American'' Iraqis have been divided and weak, and have 
been unable to rally the Iraqi people. The end result is that the US 
ability to convey ``legitimacy'' has been sharply undercut at precisely 
the time the US needs legitimacy for its June 30 turnover. In addition, 
US ties to some members of the IGC are becoming steadily more 
damaging--particularly the image of US ties to ``losers'' like Chalabi.

             TURNING A NON-TERRORIST THREAT INTO A REAL ONE

    Iraq has become a natural battleground for Islamic insurgents and 
``volunteers'' of all persuasions. There is no meaningful evidence that 
Iraq was a focus of terrorism before the war, or a primary focus early 
in the fighting. Over the last few months, however, the outside 
presence and support for insurgents has increased.
    Over the last few weeks, it has become all too clear that such 
support is paying off well in terms of American and allied casualties, 
and in boosting the image of Islamic resistance as being able to take 
on the US. Iraq was never a magnet for terrorism before the war, and 
only a limited magnet before Fallujah and Sadr. It has become a major 
magnet now.

         PARALYZING MUCH OF THE EFFORT TO WIN HEARTS AND MINDS

    Much of the aid and economic development program has been 
paralyzed, and the economic security of the Shi'ite areas and oil 
exports is now far more at risk. The US reliance on contractors, rather 
than Iraqis, makes everyone involved in aid and reconstruction a 
natural target. The use of contract security has created the image of 
mercenary forces, and efforts to win hearts and minds in troubled areas 
have essentially collapsed, as they have in some formerly ``friendly 
areas'' as well.
    The flood of aid that should have helped win hearts and minds 
during a critical period of political transition is often little more 
than a trickle.

        A NEGOTIATED SOLUTION MEANS LIMITING THE SCALE OF DEFEAT

    The end result is close to a no win situation for the US: Any 
negotiated solution effectively legitimizes the Sunni and Shi'ite hard-
line opposition, while weakening the IGC--exposing the fact the US is 
now trying to turnover power to ``mystery men'' on June 30, who cannot 
have legitimacy because they have no identity.
    This compounds the problems inherent in the Ibrahimi approach, 
which effectively says that the government of June 30 will not have 
legitimacy until a popular council takes place, and that a real 
government and constitutional base must be voted on by the Iraqis and 
not from the legacy left by the CPA/IGC.
    In effect, the period of political illegitimacy or non-legitimacy 
is now extended long beyond June 30th, and the period in which Iraqis 
must compete for power by both political and violent means will now 
extend through all of 2004 and much of 2005.
    This political struggle has several key characteristics:

  <bullet> The game has no clear rules. There are ``maybe'' milestones 
        and objectives that are undefined.

  <bullet> Federalism and power sharing is up in the air, and even if 
        an interim allocation of power to a President, Prime Minister, 
        and Vice Premiers takes place, it is only for an interim period 
        and does not affect struggles over money, power, land, etc. The 
        ethnic divisions between Arab, Kurd, Turcoman, and other 
        minorities are not really resolved. The same is true of 
        divisions between Sunni and Shi'ite, and religious and secular.

  <bullet> There is no economic underpinning for political stability, 
        and far too many jobs are dependent on aid and paid security 
        positions. Iraq now has a ``bubble'' economy, not real 
        reconstruction, and Iraqis know this. Some 70% expressed fear 
        over their future job security in the ABC poll in February.

  <bullet> No Iraqi leaders now have broad popular political support in 
        public opinion polls, including Sistani. Most have powerful 
        negatives--often more negative than positive. There is usually 
        intense competition within given factions, and leaders have a 
        growing incentive to show their independence from the 
        Coalition. A near political vacuum exists where there are 
        strong incentives to seek support from ethnic or religious 
        factions and demagogue the way to victory.

  <bullet> No political party has significant popular support, and 
        nearly 70% of Iraqis opposed political parties in the ABC poll 
        in February, largely because of the heritage of the Baath.

  <bullet> More Iraqis support a strong leader as an interim solution 
        than ``democracy,'' although no one is clear on who such a 
        strong leader will be.

  <bullet> No Iraqi leader is as yet organizing for the series of 
        elections to come, aggressively trying to create popular 
        political parties, or making efforts to capture the media. The 
        peaceful political struggles necessary to create the groundwork 
        for democracy are being subordinated to political struggles 
        within the IGC, efforts to game Ibrahimi's political efforts, 
        and challenges from the outside.

  <bullet> Many potential Iraqi leaders have every reason to fear 
        losing in the coming struggle for power, and no clear plans 
        exist to coopt the Sunni insurgents and Shi'ite ``Sadrs'' into 
        the system. Hostile areas and factions are largely excluded 
        from the political process under the illusion they are too 
        small to really matter. The US still seems to be trying to 
        stage-manage the creation of a secular democracy of friendly 
        moderates, but true legitimacy is the government Iraqis want, 
        not the one the US and Western reformers want.

  <bullet> There is no meaningful chance of ``security first.'' The 
        political and nation building process will almost certainly 
        have to go on in the midst of terrorism and low intensity 
        conflict through 2006. Elections will be extremely difficult, 
        hostile areas will continue to exist, and governance will be 
        under continued attack.

  <bullet> The rush to create Iraqi armed forces and security forces 
        suitable for a post conflict Iraq has left tens of thousands of 
        untrained and poorly equipped men recruited locally on an 
        ethnic, religious, and tribal basis. No clear plan seems to 
        exist for giving them the training, equipment, and facilities 
        they need on a timely basis. The rule of law is erratic and 
        often local.

  <bullet> Politics may fascinate politicians, but Iraqis live with 
        governance. The creation of 25-27 functioning ministries, 
        governorates, and urban governments will affect every aspect of 
        daily life and security. The plans to create effective 
        governance will lag far behind the transfer of sovereignty on 
        June 30--and extend well into the winter of 2004 and beyond.

                A CLASSIC MILITARY SOLUTION CANNOT WORK

    In retrospect, the US might have been far better off to act 
decisively in hot pursuit in both Fallujah and in dealing with Sadr. 
Certainly, the military effort and the causalities would have been far 
smaller, the political momentum of support for the insurgents would not 
have had time to build, and any criticism would have been tempered with 
reluctance to challenge the US again. That was then, however, and this 
is now.
    The US can defeat any given group of Iraqi insurgents and largely 
secure any area it occupies with sufficient strength. However, any 
military solution that involves serious combat with a Sunni or Shi'ite 
faction is now likely to be the kind of ``victory'' that creates a new 
firestorm over excessive force, civilian casualties, and collateral 
damage. At the same time, the US cannot hope to use such combat to kill 
or arrest all of the Sunni, Shi'ite, and foreign insurgents that exist 
now and many tactical victories are likely to create more insurgents 
than they destroy. As the US learned in Vietnam, tactical military 
victory without political victory is large irrelevant.
    As in Vietnam, the US also cannot afford to loose the largest 
ethnic faction. In Vietnam, the US arguably lost the war when it lost 
the Buddhists. In Iraq, the key is to avoid losing the Shi'ites. Any US 
arrest or killing of Sadr at this point means creating an instant 
martyr that will have a powerful impact on many young Shi'ites in Iraq, 
and militant Shi'ites all over the world--pushing them towards some 
form of alignment with Sunni insurgents. A serious fight from a now 
cold start against a well-organized resistance in Najaf would be a 
disaster, triggering much broader Shi'ite alignments against the US.

                   WHAT THE US SHOULD DO NOW IN IRAQ

    At this point, the US lacks good options--although it probably 
never really had them in the sense the Bush Administration sought. The 
option of quickly turning Iraq into a successful, free market democracy 
was never practical, and was as absurd a neoconservative fantasy as the 
idea that success in this objective would magically make Iraq an 
example that would transform the Middle East.
    The key to the success the US can now hope to achieve is to set 
realistic objectives. In practice, these objectives are to create an 
Iraqi political structure that will minimize the risk of civil war, 
develop some degree of pluralism, and help the Iraqis take charge over 
their own economy.
    This, in turn, means a major shift from trying to maintain US 
influence and leverage in a post sovereignty period to a policy where 
the US makes every effort to turn as much of the political, aid, and 
security effort over to Iraqis as soon as possible, and focuses on 
supporting the UN in creating the best compromises possible in creating 
Iraqi political legitimacy.
    The US should not abandon Iraq, but rather abandon the effort to 
create an Iraq in its own image.
Other measures are:

  <bullet> Accept the fact that a universal, nation-wide ``security 
        first'' policy is stupid and impractical.
      The US needs to isolate and bypass islands of resistance, and 
        focus on creating a legitimate Iraqi government that can unify 
        Iraqis and allow nation building to work. This means relying on 
        containment in the case of truly troubled and high insurgent 
        areas, and focusing on security in friendly areas.

  <bullet> Accept the fact there is no way to ``drain the swamp.''
      At this point, there simply is no way to eliminate cadres of 
        insurgents or to disarm the most threatening areas. Fallujah 
        and similar areas have too much popular support for the 
        insurgents, there are too many arms that can be hidden, and too 
        many points of vulnerability. This does not mean the US should 
        give up fighting the insurgents or its efforts to disarm them. 
        It does mean the US must accept that it cannot win in the sense 
        of eliminating them or turning hostile areas into secure and 
        disarmed areas.

  <bullet> Rush aid to the Iraqi security forces and military seeking 
        more friendly Arab aid in training and support, and provide as 
        broad a base of Iraqi command as possible.
      Forget contract regulations on buying equipment. Deliver 
        everything necessary and worry about the details later.

  <bullet> Continue expanding the role of the Iraqi security forces.
      Understand that their loyalties will be divided, that putting 
        them in charge of hostile areas does not mean they can be 
        expected to do more than work out a modus vivendi with the 
        insurgents, and that the end result will often be to create 
        ``no go'' or limited access areas for Americans. The US cannot 
        afford to repeat the Israeli mistake of assuming that any Iraqi 
        authority in hostile areas can be counted on to provide 
        security for Americans.

  <bullet> Walk firmly and openly away from the losers in the IGC like 
        Chalabi.
      Open up the political structure and deal with Shi'ite 
        oppositionists, Sunni insurgents, ex-Ba'athists to the maximum 
        degree possible. Drag in as many non-IGC leaders as possible, 
        and give Ibrahimi's council idea the strongest possible 
        support. Lower the US profile in shaping the political future 
        of Iraq as much as possible and bring in as broad a UN 
        international team as possible.

  <bullet> Focus on all of the Shi'ites, not just the friendly ones.
      Make this a critical aspect of US diplomatic efforts. Let the 
        Iraqi Shi'ites deal with Sadr and stay out of internal Shi'ite 
        disputes, except to help insure security. Quietly reach out to 
        Iran to create whatever kind of dialogue is possible.

  <bullet> Push Sunni Arab states into helping Iraq's Sunnis and in 
        helping to deal with the political issues involved.
      Quietly make it clear that they will have to live with the 
        aftermath of failure and that the US presence and commitment is 
        not open-ended.

  <bullet> Zero-base the failed contracting effort for FY2004 US aid.
      Put Iraqi Ministries and officials in charge of the aid process 
        as soon as possible, with Iraqis going into the field and not 
        foreign contractors. Accept the fact that it is far better to 
        move more slowly and imperfectly on Iraqi terms, with some 
        degree of Iraqi corruption, than to waste billions more on 
        security, failed US projects, and immense overhead costs.

  <bullet> Reprogram funds for a massive new CERP program to enable US 
        military commanders to use dollars instead of bullets at every 
        opportunity.
      Make the focus of US control over aid whether Iraqis spend the 
        money honestly and effectively, and not on US control, plans, 
        and objectives.

  <bullet> Zero-base the US embassy plan to create the smallest staff 
        practical of proven area experts.
     Give the clear message to the Iraqis that not only are they going 
        to be in charge, but non-performance means no US money and no 
        continuation of US troops and support. End the image of a US 
        end of an occupation after the occupation.

  <bullet> Develop a long-term economic and military aid program as 
        leverage to try to influence Iraqi decision making over time.
      Have the ministries manage the process, not USAID or contractors. 
        Focus on whether the Iraqi efforts are honest and produce real 
        results. Do not try to use aid to force Iraq into US modes and 
        methods.

  <bullet> Accept the near total failure of US information operations.
      Stop giving all CPA/CJTF-7 press conferences, and put an Iraqi on 
        the stage with the US spokesmen. Stop all procounsel-like press 
        conferences where the US seems to be dictating. Make an Iraqi 
        spokesman part of all dialogue, and give them the lead as soon 
        as possible. Subordinate US and Coalition spokesmen as soon as 
        possible to Iraqis in press conferences and briefings that are 
        held in Arabic.

  <bullet> Look at the broader failures of US policy in the region.
      Revitalize the Road Map and the Quartet in the light of Sharon's 
        problems. Deal with the reality that there are two failed sets 
        of political elites in the Israeli-Palestinian conflict, and 
        that settlements should be unacceptable and not just terrorism.

  <bullet> Abandon the Greater Middle East Initiative in its present 
        form.
      Do not add another strategic and policy blunder to the present 
        situation by appearing to call for regime change and seeking to 
        dominate the region. Focus on a broad cooperative initiative 
        worked out with the EU and where the EU puts pressure on the 
        Arab League. Stop talking about region-wide democracy and 
        liberty before there are responsible political parties and the 
        other reforms necessary to make democracy work. Focus on a 
        country-by-country approach to reform that considers human 
        rights, economic welfare, and demographic issues to be at least 
        as important as elections. Stress cooperation in ``evolution;'' 
        not random efforts at ``revolution.''

    Prepare for the fact that nation building may still fail, and 
position the US to use the threat of withdrawal as leverage. Make it 
clear that the US can and will leave Iraq if the Iraqis do not reach 
agreement on an effective interim solution and if they do not proceed 
with reasonable unity to implement the UN plans.
    The US position should be that the US is ready to help an Iraq that 
will help itself, and that it supports a true transfer of sovereignty. 
It should make it clear to Iraq and the world, however, that the US has 
a clear exit strategy. It has no interest in bases or control over 
Iraqi oil. It has no reason to stay if Iraq become unstable, devolves 
into civil war, or ends up under a strong man. The US can live with a 
weak or unstable Iraq, and Iraq still will have to export oil at market 
prices and will still be far less of a threat than Saddam's Iraq.

                       AVOID STRATEGIC OVERREACH

    One final reality--the image of a quick and decisive victory is 
almost always a false one, but it is still the image many Americans 
want and expect. One thousand or more dead in Iraq is hardly Vietnam, 
but it must be justified and explained, and explained honestly--not in 
terms of the ephemeral slogans. The budget rises and supplements of the 
last few years are also likely to be the rule and not the exception 
America may well have to spend another one percent of its GNP on 
sustained combat and international intervention overseas than any 
American politician is willing to admit.
    America faces hard political choices, and they are going to take 
exceptional leadership and courage in both an election year and the 
decades to come. They require bipartisanship of a kind that has faded 
since the Cold War, and neither neo-conservative nor neo-liberal 
ideology can help. Moreover, America's think tanks and media are going 
to have to move beyond sound bites and simple solutions, just as will 
America's politicians and military planners. Put differently, it not 
only is going to be a very tough year, it is going to be a very tough 
decade.

    The Chairman. Well, thank you very much, Dr. Cordesman, 
for, first of all, the very comprehensive statement you have 
submitted to the committee. It is a remarkable document, and 
likewise we appreciate the very strong summary you have given 
this morning.
    I want to call now on General Joseph Hoar, the former 
Commander in Chief of the United States Central Command. It is 
a privilege to have you again, General Hoar. Would you please 
proceed.

   STATEMENT OF GENERAL JOSEPH P. HOAR, USMC (RET.), FORMER 
       COMMANDER IN CHIEF, UNITED STATES CENTRAL COMMAND

    General Hoar. Thank you, Mr. Chairman, Senator Biden, 
members of the committee. It is an honor once again to be here 
to testify before you today.
    If you will recall in August 2002, when I spoke to you 
last, I indicated that I was in favor of regime change in Iraq 
but not under the conditions or at the time suggested for the 
overthrow of the Saddam Hussein government. My view about the 
inadvisability of the war against Iraq remains unchanged. 
However, now that we find the facts on the ground as they are, 
I am convinced that we must stay, continue to take all 
necessary means, and turn this very serious situation around.
    My remarks this morning can be divided into three broad 
areas: first, a brief review of the events of the past year as 
a means of setting the stage for my second topic, which is what 
needs to be done, and finally, a discussion about the region, 
what is going on in the Arab and Muslim world and what are our 
options.
    In the past year, we have seen enormous successes and 
abysmal failures in Iraq. The offensive campaign conducted to 
overthrow Saddam Hussein was a brilliant military success 
carried out by the finest armed forces in the world. The young 
men and women who captured Baghdad did a masterful job. 
However, even as that superbly conducted operation was 
unfolding, it became apparent that there were not enough troops 
on the ground to perform all the necessary tasks. Not only were 
we not capable of adequately securing supply lines, but when we 
reached Baghdad, there were no reserves to exploit the great 
success that had been achieved by the 3rd Infantry Division and 
the 1st Marine Division. The resulting looting, the 
destruction, and the failure to protect property and to secure 
Iraqi weapons and ammunition have had profound consequences in 
the past year.
    This reconstruction phase that began after the seizure of 
Baghdad has been characterized by poor planning and frequently 
poor execution. Indicative of this is the amateurish way in 
which the CPA dealt with the Iraqi Army. First, we dismissed 
them. Then we hired them back and then sent them home. And now 
we have come full circle and are about to embark on hiring 
former members of the Iraqi Army to return and go to work.
    The progress on the development of the country has been 
poor. Political issues have been handled with characteristic 
lack of sensitivity, and we find continued reliance on people 
like Mr. Chalabi who, from the start, has been untrustworthy, 
who has continued to demonstrate his inability to contribute to 
our success. Until recently, we continued to pay him and his 
people over $300,000 a month. Incidentally, I read on the 
Internet this morning that there is a new group emerging in 
Baghdad today which has aligned Mr. Chalabi with the Iraqi 
Hezbollah representative. We have come that far.
    This month, unfortunately, has been capped by the tragedy 
of the Abu Ghraib prison. Faced with these difficulties, the 
questions we must deal with are how serious is this and what 
can be done. My answer to these questions is that it is gravely 
serious but not necessarily terminal. But we need a fast 
turnaround and we need to begin right away.
    My concerns are that the policy people in both Washington 
and Baghdad have demonstrated their inability to do the job on 
a day-to-day basis this past year. It seems to me that a year 
is more than enough to give people an opportunity to show how 
well they perform. I believe we are absolutely on the brink of 
failure. We are looking into the abyss. We cannot start soon 
enough to begin the turnaround.
    The first step is to designate the Department of State as 
the lead agency. Since the end of offensive combat, the 
emphasis should have shifted to political concerns in Iraq. 
What is required of the military is to support the political 
objectives. Success in a counter-insurgency operation is based 
on three elements: security, political activity, and 
development. Security and development support the overall 
political objective.
    We need a U.N. Security Council resolution which will 
provide legitimacy to our operations in Iraq under the 
provisions of chapter 7 of the U.N. Charter.
    We need the participation of NATO. It is fundamental to 
broaden the base of support and to give countries that might 
have joined us an opportunity to assist with troops, to assist 
politically and perhaps financially as well.
    Finally, we need the Iraqis to be involved and to be more 
visible. We need to turn the transition from CPA to the new 
government over to the U.N. We need to take special care that 
those members of the interim government authority who have not 
played a positive role in the government thus far be excluded 
from serving in the interim government.
    We need to give military commanders on the ground adequate 
troops to provide for the security throughout the country, even 
if it disrupts the current plans for rotation of troops in the 
future. Until we are able to demonstrate a credible ability to 
provide security to the country, it will be difficult to 
achieve our political objectives.
    Within Iraq, the NATO governing apparatus will assure that 
military operations are in keeping with our overall objectives. 
Offensive operations should be used sparingly. Those areas that 
are considered too dangerous or too politically sensitive to 
enter can be isolated and bypassed. As in all successful 
counter-insurgency operations, intelligence is key. Offensive 
operations not based on hard intelligence will cause excessive 
damage and will not further our interests. The kind of human 
intelligence that is necessary to act promptly and decisively 
must come from the Iraqis themselves and can only be developed 
with the formation of an Iraqi intelligence service.
    Today I am told that U.S. civilian government officials 
assigned to Iraq sometimes are there for 6 months or even, in 
some cases, for as little as 3-month periods. The lesson of 
Vietnam was that it is not practical to assign people to these 
kinds of duties for less than 18 months. If we are to gain some 
degree of continuity in the cities and towns around the 
country, we need to have political officers that are there for 
the long haul. And if they cannot be provided, from the 
civilian force, then they should be assigned out of the 
military. In this regard, we need to get contractors out of the 
development process and put together the rules that will allow 
the military to disburse money, to put people to work in the 
cities and in the countryside.
    Last June, shortly after the military victory and the 
overthrow of Saddam Hussein's government, I had dinner with an 
old friend, Nizar Hamdoon. Members of this committee perhaps 
remember Nizar. He had been the Iraqi Ambassador to the United 
States and during the 1990-1991 war was the Iraqi Ambassador to 
the United Nations. Nizar was ill and was in the United States 
undergoing medical treatment. He passed away on the 4th of July 
last year. When I asked him what the American forces needed to 
do in order to successfully complete the transition from Saddam 
Hussein's regime to democracy, he said three things: provide 
security, services, and jobs. And if we did those three things, 
we would have the support of the Iraqi people.
    I am convinced, more than ever, that Nizar Hamdoon was 
right. This is the yardstick. We need to take the time, the 
money, and the resources to make sure that in those three areas 
of endeavor, we are doing all that we need to do.
    Finally, with respect to the region, you will recall when I 
was here last, I spoke about our failure to define the nature 
of this war and that terrorism was a manifestation of a far 
more complex and potentially dangerous dynamic. In nearly 2 
years that have passed since that time, our government has done 
a reasonably good job against al-Qaeda. Had we not lost our 
focus and invaded Iraq, I suspect we would have done a better 
job, but as a result of the Iraq invasion, I believe the United 
States is even less secure than it was in August 2002. Today 
al-Qaeda is not only a threat, we now have home grown, 
independent mujahedin showing up in Iraq, in Europe, in Africa, 
Southeast Asia, and even North America. The threat is more 
diffuse and it is certainly every bit as dangerous.
    As we look to the future, we are now paying the price for 
not focusing our attention on the 1.2 billion Muslims around 
the world. We are, through our actions and our lack of 
sensitivity, turning good, hardworking Muslims around the world 
against us. As a government, we continue to be insensitive to 
the fact that what we say in Washington and what is being done 
in Baghdad, Gaza, and Kabul reverberates in Sibu, in Jakarta, 
Casablanca, yes, and in Marseilles and in Buffalo, New York as 
well. We are on the verge of losing the battle of public 
diplomacy for the fight for the hearts and minds is now in the 
last phase and it is getting worse by the day.
    The support of the President of the United States for the 
Israeli Prime Minister regarding withdrawal from Gaza, ending 
the right of return of Palestinians, and the status of 1967 
borders without input from the Palestinian people was 
considered an outrage by Muslims the world over. When coupled 
with the disclosures of our Abu Ghraib prison, it consisted of 
a one-two punch that has brought us to our knees. It is not al-
Jazeera or al-Arabiya's fault that we are badly portrayed in 
the Muslim world. It is our fault because our message has been 
inconsistent, legalistic, and Western in its orientation. We 
cannot win the war of ideas if our ideas are no good.
    Finally, we are fighting a counter-insurgency as if it were 
being conducted in Iowa. We are advised by opportunists, 
frauds, and the ill-informed. Until leaders, both civilian and 
military, are advised by the people that know Iraq and its 
culture, its history and that of its neighbors, we will repeat 
the same mistakes that we have made in the past year and those 
of the British who occupied Iraq after World War I.
    The eyes of the whole world have been on us for the past 
year and a half as we prepared for and went to war. Aside from 
the extraordinary success and coverage of the armed services 
men and women in battle, we have little we can be proud of. Is 
this what our Founding Fathers had in mind? Is this what the 
world has come to expect from the city on the hill? I hope not. 
I deeply believe that this country can do a better job.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, General Hoar.
    You mentioned the need of the committee and the public to 
heed voices that understand the culture and the politics of 
Iraq, and we have such a witness next in the batting order. Dr. 
Phebe Marr, author and former senior fellow at the National 
Defense University, has been with us on several occasions 
during these hearings. We appreciate your return and we would 
love to hear your testimony presently, Dr. Marr.

  STATEMENT OF DR. PHEBE MARR, FORMER SENIOR FELLOW, NATIONAL 
                       DEFENSE UNIVERSITY

    Dr. Marr. Senator Lugar, Senator Biden, thank you very much 
for having me again. I hope I can offer you at least something 
that is new. I have to say that in most respects I agree with 
my colleagues on the platform.
    I have submitted a longer statement. I will try to 
summarize some of the main points in it.
    Until April, the situation in Iraq seemed to be relatively 
evenly balanced between the bad news of insurgency and some 
good news on the political and economic front, but the events 
since then have delivered a crushing blow to our credibility. I 
believe we are in a crisis situation which needs rapid 
attention and strong nerves. Policymakers must put their heads 
together and address three broad questions.
    Are these setbacks decisive, a critical turning point which 
has so affected American credibility in Iraq and the world, 
that it can no longer take the lead in rebuilding Iraq? If so, 
how fast should it turn over to others, in what areas, and to 
whom?
    Second, as we turn over greater authority to the Iraqis, 
what are our minimal interests that must be satisfied?
    And third, as we view the scene in Iraq, what potential 
outcomes are likely over the medium to long term? What is the 
worst case and how do we prevent it? What is the most realistic 
best case and how do we encourage it?
    Of course, I cannot answer these questions definitively. I 
will make a few suggestions on the first two and then try to 
deal in a little more detail with the third, which is more in 
my area of expertise.
    What about the point of no return? I would caution three 
things. Do not panic. Take the long view. We should not be 
misled or sidetracked by all these instant polls which show the 
Iraqis want us out now. All indications are that Iraqis show 
intense and increasing dislike of occupation. What a surprise! 
But they also fear a precipitous pullout of our forces. Iraqis 
want better management of the transition, not a ``cut and run'' 
policy. We need to remember that the Iraqi project is a long 
distance race, not a spectacular high jump.
    Second, a piece of advice few will follow. Turn off the TV, 
listen to Iraqis on the ground in developing intelligence and 
assessments. There is nothing like hands-on, ground-level human 
intelligence. Iraqis may give you a different view.
    When I was in the gulf in April, admittedly before the 
downturn in events, I was surprised in talking to Iraqis 
quietly in my living room. They had come back from Iraq, they 
had children there. They were all more optimistic about their 
future than I was. Now, events have subsequently taken a 
downturn, but we need to remember these views.
    And third, something that I think will address one of 
Senator Biden's questions, the U.S. needs to remember that it 
faces a long historical and cultural pattern in Iraqi thinking. 
Most Iraqis are schizophrenic in their attitude to outside 
influences, and there is nothing new in that. They have always 
had a strong streak of nationalism, a desire for independence. 
Under Saddam they were isolated from the outside world and had 
little experience of cooperation with outside powers. But most 
Iraqis also want what America and the West have to offer: 
economic prosperity, openness to the outside, and a modern 
future. To move in this direction and rebuild their lives, they 
will need to cooperate with outsiders, especially the United 
States. And they will have to pay the price of taking more 
responsibility for their future and not just complaining and 
looking to others.
    The U.S. also has the problem of incompatible aims: turning 
an occupation into liberation. The U.S. claims it wants 
democracy in Iraq, but it also has some well-known interests 
and objectives. What if a freely elected Iraqi government does 
not agree? We need to think through now, publicly, what our 
minimal aims and interests are in Iraq. In broad terms, I would 
say they are three: a state free of terrorism, a state free of 
weapons of mass destruction, and a government, if not friendly, 
at least not hostile to the U.S. and Israel. And I would make 
it very clear we have no long-term designs on military bases or 
control of oil in Iraq.
    This does not preclude the U.S. trying for more maximalist 
aims. Such as working with Iraqis on building a more stable, 
prosperous, democratic regime, so long as this is done with a 
good dose of realism. And in doing so, we must lower our 
expectations and our rhetoric and theirs.
    Now, what are some realistic scenarios, worst case, best 
case? How do we prevent the former and encourage the latter?
    Iraq is now engaged in two profound and wrenching 
struggles. One is an identity crisis. The key question here is 
whether there is an overarching Iraqi identity, and if so, what 
is its basis? I believe there is but it has been badly battered 
and needs nurturing.
    The second more immediate question is a struggle for power, 
which is critical. This struggle encompasses ethnic and 
sectarian groups, but also political parties with differing 
outlooks and orientations and individuals with patronage 
networks. Right now these groups are focused on the United 
States and the Governing Council, but if our presence is 
removed, they are going to be focused on one another.
    These struggles will not be resolved easily. If they take 
place peaceably, we will have something like democracy. If not, 
we will have civil conflict. Civil conflict will erode the 
fragile authority of the central government and the state, 
creating my definition of the worst case scenario, a failed 
state.
    In my submitted statement, I have gone into some detail on 
ethnic and sectarian differences, political parties, and the 
nature of this power struggle which I cannot go into here. 
Suffice it to say, however, that none of these communities--
Kurds, Arab Sunnis or Shi'a--is homogeneous. The pattern in 
Iraq is of a mosaic of groups, not clear-cut ethic and 
sectarian fragmentation.
    Given these circumstances, what outcomes can we expect in 
Iraq over the next 5 years or so? Let me deal with the worst 
case scenario, the breakdown of the state to a point beyond 
which we could not reconstitute it. This process is underway, 
but it is by no means irreparable, and we want to prevent it 
from reaching such a point. A number of pundits and analysts 
have advanced the notion that Iraq might break up into three 
component parts: a Kurdish north, and Arab Sunni or mixed 
center, and a Shi'a south. They pose a potential civil war 
between and among these groups, Kurds versus Arabs, Shi'a 
versus Sunnis. Some are even asking whether the Iraqi state or 
Iraqi identity has already disappeared and we should be 
thinking about managing a separation as in the former 
Yugoslavia.
    The answer to this question should be a resounding no. Our 
government is officially on record as supporting the 
territorial integrity of Iraq. The overwhelming majority of 
Iraqis do not want their state divided. Moreover, Iraq is not 
likely to break up into three distinct ethnic and sectarian 
parts with clear boundaries between them. There are too many 
demographic frontiers which would be very difficult to 
separate. Unscrambling these areas in any divide would be a 
nightmare.
    Nor is there any evidence yet of ethnic and sectarian 
warfare on the ground. Kurds are not fighting Arabs. Shi'a are 
not fighting Sunnis. On the contrary, in the face of increasing 
violence and extraordinary provocation, including attempts to 
incite civil war, Iraq's communal leaders have shown a clear 
awareness of the threat, a firm commitment to avoid it, and so 
far considerable discipline in reining in their constituents.
    The more plausible scenario we face for a failed state is 
the breakdown of a weak and fragile central government unable 
to exercise control over the country, with something of a 
vacuum at the center. Without a cohesive Iraqi Army or police 
force, local militias are taking root. This is not yet 
warlordism, but it could begin to resemble it. In any ensuing 
struggle for power, it is these groups led by extremists who 
may engage in fighting several different civil wars. These 
could destroy the potential for a buildup of the new government 
at the center. That is the bad scenario.
    What would be a good scenario that is realistic and 
achievable? That is more difficult to predict. It depends on 
Iraqi desires and a willingness to compromise and their ability 
to surmount the zero sum political game. Any such scenario will 
take 5 to 10 years to produce. It will not be achieved on June 
30 or even next year.
    But one can speculate on the outlines. It would provide a 
mechanism--a constitution, elections--to create and strengthen 
a central government that would be representative of most, but 
not all Iraqis; and second, and most important in my opinion, 
be able to govern. This is going to involve wrenching 
compromises between Kurds and Arabs and among those who want 
more and those who want less religion in their lives.
    To reach this state, we should be encouraging negotiations 
and alliances between and among various factions and an open 
political process which is already underway. Who will dominate 
this government and how power will be distributed is up to the 
Iraqis to decide, but it is not impossible that something 
better will eventually come out of this process. We just cannot 
predict exactly what it will be.
    How do we make this happen? Our ability to change Iraq is 
limited, but we can encourage a positive outcome. I have six 
steps I would suggest.
    I think we need to change the subject and stop talking 
about civil war, division of Iraq, Shi'a, Sunnis, Kurds. These 
identities are realities, but it would be best to downplay 
them. The same is true for tribalism. In the short term, to 
achieve security, we may need to work with these groups, but 
over the long term, we need to hold out a vision for a more 
modern Iraq which I believe has broad appeal in Iraq.
    Second, I believe there is an Iraqi identity espoused by 
the majority--the silent majority--of Iraqis. We need to begin 
to work with groups who are committed to this identity. We 
should identify areas where pluralism is working and expand 
these zones of peace and cooperation. And there are a number of 
them in Iraq: Hilla, Mosul, Basra, and the north.
    Third--and this is the most important point I want to 
make--the U.S. and the coalition should be focusing on economic 
development and the prosperity of Iraqis. To quote a phrase 
used in a previous campaign, ``It's the economy, stupid.'' This 
includes the development of a small and medium-sized business 
class, jobs for the lower classes and the poor, and protection 
for workers. At the middle level, things have improved for 
educated professionals who are working and have more money. 
Every single Iraqi I talked to reminded me of this. The middle 
class is out spending this money, helping merchants at the 
lower level. We need to strengthen this trend. Rather than 
concentrating so much on elections and representation, we ought 
to be concentrating on delivering services because that is what 
Iraqis are used to, that is what they expect. It's the economy, 
jobs.
    Fourth, our strategy should be to strengthen, support, and 
rebuild Iraq's middle class. While this class has been greatly 
weakened, it is still present in Iraq. It should be the 
backbone of the new Iraqi state. The middle class can be 
nourished by the Iraqi-American community from outside, by 
funds which help businessmen, and by contacts which strengthen 
educated professionals. The middle class in Iraq has always 
been the repository of modernism, secularism, and national 
identity. If this class is strengthened, in time it will 
mitigate the tendencies toward ethnic and sectarian separatism, 
tribalism, and Islamic fundamentalism. It is, of course, also 
the mainstay of democratic society.
    Fifth, the United States should continue to open Iraqi 
society to the outside, encouraging professionals, businessmen, 
and others to participate in the international economy and 
society.
    Last, the United States should be encouraging civic and 
political groups in Iraq which cut across, rather than 
reinforce, ethnic, sectarian, and tribal lines. Iraq has a long 
tradition among its urban, educated community of doing this. We 
need to strengthen this trend. The middle class has lost its 
voice. We need to help them regain it.
    Thank you.
    [The prepared statement of Dr. Marr follows:]

                  Prepared Statement of Dr. Phebe Marr

    Up until April, the situation in Iraq seemed evenly balanced 
between the bad news of the insurgency and some good news on the 
political and economic fronts. But the events since then have delivered 
a crushing blow to our credibility. I believe we are a crisis situation 
which needs rapid attention and strong nerves. Policy makers must 
seriously address three broad future-oriented questions.

          1. Are these set-backs decisive--a critical turning point 
        which has so affected US credibility in Iraq--and the world--
        that it can no longer take the lead in rebuilding Iraq? If so, 
        how fast should it turn over to others? In what areas? And to 
        whom?

          2. As we turn over greater authority to Iraqis, what are the 
        minimal US interests that must be satisfied?

          3. What potential outcomes are likely in Iraq--over the 
        medium to long term? What is the worst case and how do we 
        prevent it? What is the most realistic best case and how do we 
        encourage it?

    I cannot answer these questions definitely, but will try to make a 
few suggestions on the first two and deal in more detail on the third 
question which is more in my area of expertise.

                         A POINT OF NO RETURN?

    On the first question: Does the current crisis represent a point of 
no return? I would caution the following.

  <bullet> Don't panic. Take the long view. We should not be misled or 
        sidetracked by all these instant polls which show that Iraqis 
        want us out now. All indications are that Iraqis show intense 
        and increasing dislike of occupation--entirely predictable--but 
        also fear a precipitous pull out of our forces. Iraqis want 
        better management of the transition--not a ``cut and run'' 
        policy. The Iraq project is a long distance race; not a 
        spectacular high jump.

  <bullet> Turn off the TV. Listen to Iraqis on the ground in Iraq in 
        developing intelligence and assessments. They may give you a 
        different view. A number of private conversations I have 
        recently had with Iraqis living in the Gulf--admittedly in 
        April--greatly surprised me. They were more optimistic about 
        Iraq's future than I was.

  <bullet> The US should remember it faces a long historical and 
        cultural pattern in Iraqi thinking. Many, indeed most Iraqis 
        are almost schizophrenic in their attitude to outside 
        influences. On the one hand, they have a strong streak of 
        nationalism and a desire for independence. Under Saddam, most 
        Iraqis were isolated from the outside and had little experience 
        of cooperation with outside powers. But, most Iraqis also want 
        what America and the West have to offer--economic prosperity; 
        openness to the outside and a modern future. To move in this 
        direction, to rebuild their lives and their futures, they will 
        need to cooperate with outsiders, especially the US. They will 
        also have to pay the price of taking more responsibility for 
        their future and not just complaining and looking to others.

                        U.S. AIMS AND INTERESTS

    The US also has a problem of incompatible aims: turning an 
occupation into liberation. The US claims it wants democracy in Iraq. 
At the same time, the US has some well known interests and objectives 
it wants in the region. But what if a freely elected Iraqi government 
does not agree? We need to think through, publicly, what our minimal 
aims and interests are in Iraq. In broad terms, my list would include 
three:

          A state free of terrorism

          A state free of weapons of mass destruction

          A government, if not friendly, at least not hostile to the US 
        and Israel

I would make clear we have no long term designs on:

          Military bases

          Control over oil

    This does not preclude trying for more maximalist aims, working 
with Iraqis on the building blocks for a stable, prosperous, democratic 
regime--with a heavy dose of realism. In doing so, we need to lower our 
expectations--and theirs.

                            FUTURE SCENARIOS

    What are some realistic scenarios? Worst case? Best case? How do we 
prevent the former; encourage the latter:
    Iraq is now engaged in two profound and wrenching struggles. One is 
an identity crisis. The Ba'th defined what it meant to be an Iraqi for 
over three decades. That definition has been destroyed. A new one is 
now in gestation. The key question here is whether there is an 
overarching Iraqi identity, and if so, what is its basis? I believe 
there is, but it has been badly battered and needs to be nurtured.
    Iraq is also engaged in a divisive but critical power struggle. 
This struggle encompasses ethnic and sectarian groups, but also 
political parties with differing outlooks and orientations and 
individuals with patronage networks. Right now these groups are focused 
on the US and the IGC which it has selected. But if our presence is 
removed, they will focus on one another.
    These struggles will not be resolved easily. If they take place 
peaceably, we will have democracy. But if not, we will have civil 
conflict. These will erode the fragile authority of the central 
government--and the state, creating my definition of the worst case 
scenario--a failed state.
    In my written testimony I have looked at the three main ethnic and 
sectarian communities in Iraq--Arab sunnis, Arab shi'ah and Kurds and 
the multiple divisions within their communities and well as political 
groupings within them. I can only touch on these briefly here. Suffice 
it to say, that none of these communities is homogeneous . . . This 
pattern shows a mosaic of groups, not clear cut ethnic and sectarian 
fragmentation.
    The Arab sunnis have never identified on a sectarian basis; they 
are best understood as the WASPs of Iraq, a political elite. As is well 
known, they are the main losers in the change of regime, mainly because 
of the extent to which they have been Ba'thized. But the community has 
many differences which shape their views.
    Many of the sunnis in the so-called triangle come from small towns; 
they have strong tribal and clan ties; are generally more traditional 
and conservative and many have imbibed strong Arab nationalist 
sentiments. These groups will be the most difficult to integrate into 
the new Iraq.
    In recent years a new spirit of fundamentalist Islam has grown 
among sunnis in Iraq, coming from elements of the Muslim Brotherhood 
and from the Salifi movement (often called Wahhabis). This has added a 
fundamentalist Islamic identity to the mix.
    However there is another broad category of Arab sunnis who are 
urban and inhabit large, mixed cities like Baghdad, Mosul and Basra. 
They form the backbone of Iraq's educated middle class; most are 
secular and many were educated abroad. Some may be nationalist in 
orientation but others are sitting on the fence and need to be 
integrated into the new order.
    The main problem of the sunnis is Bathism and a pattern of 
political entitlement, not a sectarian identity.
    The Kurds will be the most difficult to reintegrate into a new Iraq 
for well known reasons, including self-rule for the past 13 years. But 
it is far from impossible. Kurds have played an important role in Iraq 
in the past and they can again. Indeed, they are doing so today. 
However the Kurds themselves are far less homogeneous than they appear. 
The two Kurdish parties have deep historical divisions between them. 
Although both are now cooperating, neither has dissolved their separate 
governments. There are other limits to Kurdish demands for semi-
independence. Iraq's neighbors will not tolerate it and will meddle in 
domestic politics in the north. The Kurdish militias cannot control 
their borders; they will need US forces to protect them--permanently. 
The PKK is nested all along the northern border with Turkey. Worse, in 
PUK territory the PUK lost control of its border with Iraq near Haibja 
which came under the control of a radical Islamic group, Ansar al-
Islam, an affiliate of al-Qa'ida which is now causing us so much 
trouble. The Kurds cannot create a flourishing, independent economy 
without control over oil resources. And the Kurds have their own ethnic 
minorities--Turkman, Christians--who do not want to be absorbed into a 
truncated mini-state in the north. Lastly there are Kurdish tribal 
groups, some of whom have been working closely with us, who offer a 
more flexible approach to integration in the new Iraq.
    The shi'ah population is not homogeneous either. At least a third 
is thoroughly secular, and has lost much of its sectarian identity. 
Many of these joined secular parties, especially the Communist and even 
the Ba'th Party. Another portion of the community is moderately 
religious. This group would follow shi'ah religious clerics on 
religious matters but not necessarily on politics. Only a minority of 
shi'ah favor more radical shi'ah leadership, like Muqtada al-Sadr, who 
espouses a clerically led state. Two political groups represent 
portions of the shi'ah community and both are currently cooperating 
with the US in the IGC. One is the Da'wah Party, whose representative, 
Ibrahim al-Ja'fari is said to be one of the most popular leaders in 
Iraq. The second is SCIRI, which had, and probably still has, strong 
influence from Iran. Both parties have disavowed the Iranian policy of 
clerical rule and espoused democracy, but it is not clear how firm that 
commitment is; both will push for more, rather than less, Islamic law 
in Iraq. More important than the parties is shi'ah clerical leadership, 
but this is far from uniform. Competition among such families, 
including the Sadrs, the Hakims and the Khuis, has been acute, 
including violence. Clerics also differ on interpretations of scripture 
and the role of clerics in the state. Lastly, shi'ah, especially in 
rural areas, have strong tribal affiliations which undercuts shi'ah 
identity. In any future government of Iraq in which shi'ah gain a 
majority, it is not clear which of the shi'ah elements will 
predominate. Nor is there any indication of separatism among either the 
shi'ah or the Arab sunnis. The shi'ah consider themselves Iraqi and 
Arab, as well as shi'ah and want to dominate government in all of Iraq.

                                OUTCOMES

    Under these circumstances, what outcomes can be expected in Iraq 
over the next five years or so? Let me deal first with the worst-case 
scenario--a break down of the Iraqi state and its national institutions 
to a point beyond which they could not be reconstituted. This process 
is underway, but it is by no means irreparable; we want to prevent it 
from reaching such a point. A number of pundits and analysts have 
recently advanced the notion that Iraqi might break-up into three 
component parts--a Kurdish north, an Arab sunni or mixed center, and a 
shi'ah south; they pose a potential ``civil war'' among these groups--
Kurds vs. Arabs; shi'ah versus sunnis. Some are even asking whether the 
Iraqi state--or Iraqi identity--has already disappeared and we should 
be thinking about managing a separation--as in the former Yugoslavia.
    The answer to this question should be a resounding ``no''. Our 
government is officially on record as supporting the territorial 
integrity of Iraq. The overwhelming majority of Iraqis do not want 
their state divided. Moreover, Iraq is not likely to ``break-up'' into 
three distinct ethnic and sectarian parts with clear boundaries between 
them. As indicated above, too many areas in Iraq, particularly in the 
geographic frontiers between these communities, are mixed; the most 
mixed sector of Iraq is the Baghdad province which contains a third of 
Iraq's population. Unscrambling these areas in any divide would be a 
nightmare. Nor is there yet any evidence of ethnic and sectarian 
warfare on the ground in Iraq. Kurds are not fighting Arabs; shi'ah are 
not fighting sunnis. On the contrary. In the face of increasing 
violence and extraordinary provocation--including alleged attempts to 
incite civil war--Iraq's communal leaders have shown clear awareness of 
this threat; a firm commitment to avoid it; and considerable discipline 
in reining in their constituents.
    The more plausible scenario for a ``failed state'' is a ``break-
down'', with a weak and fragile central government, unable to exercise 
control over the country. Developing indigenous national leadership 
with some degree of legitimacy in the aftermath of Saddam's 
dictatorship has been a major problem of the transition, not likely to 
be easily solved. The result has been something of a vacuum at the 
center. Without an Iraqi Army or police force, local militias are 
taking root. This is not yet ``warlordism'' but it could begin to 
resemble it. In any ensuing struggle for power, it is these groups, led 
by extremists, who may engage in fighting several difference ``civil 
wars'' which would destroy the potential for building up a new 
government at the center.
    What would be a good scenario that is realistic and achievable? 
That is more difficult to predict because it depends on Iraqi desires; 
their willingness to compromise, and their ability to get beyond a 
zero-sum game. Any such scenario will undoubtedly take 5 to 10 years to 
produce, but one can speculate on its outlines. It would provide the 
mechanism (a constitution; an election) to create and strengthen a 
central government that would be 1) representative of most Iraqis and 
2) able to govern. This will involve wrenching compromises between 
Kurds and Arabs and among those who want more and those who want less 
religion in daily life. To reach this state, we should be encouraging 
negotiations and alliances between and among the various factions and 
groups and an open political process which is underway. Who will 
dominate this government and how power will be distributed is up to the 
Iraqis to decide. But it is not impossible that something better will, 
eventually come out of this process.We just cannot predict exactly what 
it will be.
    How do we make this happen? Our ability to ``change'' Iraq is 
limited But we can encourage this outcome.

          1. We need to change the subject, and stop talking about 
        civil war; division of Iraq, and shi'ah, sunnis, and Kurds. 
        These identities are realities but it would be best to downplay 
        them . The same is true for tribalism. For the moment, we may 
        need to work with these groups to achieve security, but over 
        the long term we should hold out a vision of a more modern Iraq 
        which I believe has broad appeal in Iraq.

          2. I believe there is an Iraqi identity, espoused by a silent 
        majority of Iraqis. We can begin by working with groups who are 
        committed to this identity and a new Iraq. We should identify 
        areas where pluralism is working and expand these areas of 
        peace and cooperation.

          3. The US and the coalition should be focusing on economic 
        development and prosperity among Iraqis--including the 
        development of a small and medium sized business class; jobs 
        for the lower classes and the poor and protection for workers. 
        At the middle level, things have improved for educated 
        professionals who are working and have more money. We need to 
        strengthen this trend.

          4. Our strategy should be to support, strengthen and rebuild 
        Iraq's middle class. While this class has been greatly 
        weakened, it is still present in Iraq. It should be the 
        backbone of the new Iraqi state. This middle class can be 
        nourished by outside the Iraqi-American community from outside; 
        by funds which help businessmen, and by contacts which 
        strengthen educated professionals. The middle class in Iraq has 
        always been the repository of modernism; secularism; and 
        national identity. If this class is strengthened, in time it 
        will mitigate tendencies toward ethnic and sectarian 
        separatism; tribalism; and Islamic traditionalism .It is also 
        the mainstay of democratic society.

          5. The US should continue opening Iraqi society to the 
        outside, encouraging professionals, businessmen and others to 
        participate in the international economy and society..

          6. Lastly, the US should be encouraging civic and political 
        groups in Iraq which cut across--rather than reinforce--ethnic, 
        sectarian and tribal lines. Iraq has a long tradition, in its 
        urban, educated community of doing this. We need to strengthen 
        it. The middle class has lost its voice. We need to help them 
        regain it.

    The Chairman. Well, thank you very much, Dr. Marr, for your 
paper and your presentation.
    It is our privilege now to have as a witness Dr. Larry 
Diamond, senior fellow of the Hoover Institute. Dr. Diamond.

     STATEMENT OF DR. LARRY DIAMOND, SENIOR FELLOW, HOOVER 
                          INSTITUTION

    Dr. Diamond. Chairman Lugar, Senator Biden, distinguished 
members, ladies and gentlemen, I appreciate the honor you have 
bestowed on me by asking me to testify before you today 
particularly in the presence of these three very distinguished 
experts who have preceded me who I think have given very 
powerful statements, much of which I strongly agree with.
    I think it is clear that the United States now faces a 
perilous situation in Iraq. We have failed to come anywhere 
near meeting the post-war expectations of Iraqis for security 
and post-war reconstruction. Although we have done many good 
things to eliminate tyranny, to rebuild infrastructure, and to 
help construct a free and democratic political system, the 
overall ineptitude of our mission to date leaves us and Iraq in 
a terrible bind. If we withdraw our military forces 
precipitously in this security vacuum, we will leave the 
country at the mercy of a variety of power-hungry militias and 
criminal gangs, and Iraq will risk a rapid decent into one or 
another form of civil war. I think Dr. Marr has spoken and 
written very insightfully about this. If the current situation 
persists, we will continue fighting one form of Iraqi 
insurgency after another with too little legitimacy, too little 
will, and too few resources. There is only one word for a 
situation in which you cannot win and you cannot withdraw: 
quagmire. We are not there yet but we are close.
    The only way out of this mess is a combination of robust, 
precise, and determined military action to defeat the most 
threatening anti-democratic insurgency led by Muqtada al-Sadr 
and his al-Mahdi army--unfortunately, we are close to doing 
that--combined with the political strategy to fill the 
legitimacy vacuum as rapidly as possible.
    The Bush administration has taken two vital steps in the 
latter regard.
    First, it has sought to improve the international 
legitimacy of our mission and our ability to find a 
transitional solution that will be credible and acceptable to 
most Iraqis by giving the U.N. Special Envoy, Lakhdar Brahimi, 
a leading role in the process. Ambassador Brahimi is an 
extraordinarily able, imaginative, and fair-minded mediator. I 
could not imagine a better candidate for this arduous task.
    The second essential correct decision of the administration 
is to hold to the June 30 deadline for transferring power to an 
Iraqi Interim Government. One of the few positive things that 
has been suppressing Iraqi frustration and even rage over the 
occupation has been the prospect of a return to Iraqi 
sovereignty on June 30 and the promise of elections for a 
transitional government within 7 months after that. It is vital 
that we adhere to the June 30 deadline. There is no solution to 
the dilemma we face that does not put Iraqis forward to take 
political leadership responsibility for the enormous challenges 
of governance in that country.
    We need to embrace a number of other steps that will 
advance three key principles: building legitimacy for the 
transitional program, increasing the efficacy of emergent Iraqi 
control, and improving the security situation in a more lasting 
way. I would actually say, first and foremost, ``It's security, 
stupid,'' because you cannot get economic development unless 
you have security. All three of these goals require an 
intensive effort at rebuilding the now decimated, fragmented, 
and demoralized Iraqi state.
    Here briefly are my recommendations.
    First, disavow any long-term military aspirations in Iraq. 
We should declare unambiguously that we will not seek permanent 
military bases in Iraq. We are not going to get a treaty from 
the Iraqis to approve them anyway.
    Second, establish a clear date for the end to military 
occupation. We should set a target date for the full withdrawal 
of American forces. This may be 3 or 4 years in the future, but 
setting such a date will convince Iraqis that we are serious 
about leaving once the country is secure.
    Third, respond to the concerns about Iraqi detainees which 
we have been hearing for months and months now. This is not 
new. We need an independent investigation of the treatment of 
Iraqi detainees with international participation. And we should 
release as many detainees as possible for whom we do not have 
specific evidence or a strong and credible suspicion of 
involvement in insurgent or criminal activity.
    Fourth, reorganize and accelerate recruitment and training 
of the new Iraqi police and armed forces. Police training in 
particular has been an astonishing disaster. There is no hope 
of avoiding renewed oppression and/or civil war in Iraq unless 
we can stand up Iraqi police and armed forces that are 
independent of party and religious militias and answerable to 
the new and ultimately democratically elected Iraqi government.
    Fifth, proceed vigorously with our plan for disarmament, 
demobilization, and reintegration of the principal militias 
into the police and armed forces. The most radical and anti-
democratic militias, al-Sadr's Mahdi army, but others as well, 
have to be isolated, confronted, defeated, disarmed by force or 
the credible threat of force. With the militias of the Kurdish 
Peshmerga, SCIRI, Da'wa, and other political parties, that have 
indicated their willingness to play in the political game, we 
need to complete negotiations which have been underway for 
months to achieve this DDR effort. Outside of Kurdistan, which 
is a special case, militia fighters should be merged into the 
new police and armed forces as individuals, not as organized 
units with their command structures intact.
    Sixth, get more money flowing to our Iraqi allies. We 
should, in particular, increase the pay of the Iraqi Army and 
police to encourage them to sign up and stick with us.
    Seventh, make the new Iraqi Interim Government dependent on 
some expression of popular consent. Once the consultative 
assembly is chosen by a large national conference, which is to 
be indirectly chosen after June 30, that consultative assembly 
should have the ability to interpolate the Prime Minister and 
cabinet ministers, and even to remove them in the interim 
government at least through a constructive vote of no 
confidence.
    Eighth, aim as much as possible for instruments of 
democratic control, even in the interim government. I could not 
agree more with Dr. Cordesman's judgment about the Governing 
Council. If its members want a place in the interim body, they 
can seek election to the consultative assembly.
    Ninth, provide for the appointment of an Iraqi Supreme 
Court according to the Transitional Administrative Law as soon 
as there is a consultative assembly that could confirm the 
appointments which are initially to be generated by a higher 
judicial council, which is already in place. This is a vital 
step that we need to take in order to begin to generate a rule 
of law.
    Tenth, codify the domestic and international arrangements 
for Iraq in a new U.N. Security Council resolution, which 
should recognize the Iraqi Interim Government and whatever 
temporary status of forces agreement is reached between the 
U.S. and that interim government, hopefully with U.N. mediation 
or participation. I think if we do this, we can get the kind of 
international participation, including NATO participation, that 
my colleagues have spoken of.
    Eleventh, we should do something in this period to 
acknowledge the grievances over the Transitional Administrative 
Law. I helped to advise on it. It is an extraordinarily 
impressive, deeply liberal document, but there are serious 
grievances over some of the compromises that were reached. We 
should emphatically acknowledge at a minimum that this is only 
a temporary document and that Iraqis will be fully free and 
sovereign to write a new permanent constitution. Even more 
negotiations may be necessary over the annex.
    Twelfth, we should invest in supporting moderate secular 
Shi'a who draw support from parties, movements, and 
associations that do not have muscular militias. Hopefully, a 
fair process of selection of national conference participants 
will put many of these new faces forward.
    Finally, we urgently need to level the political playing 
field with respect to political party funding. More independent 
and democratic political parties, again that do not have 
militias, that are not getting massive funding from Iran and 
Saudi Arabia, are begging us for support. As soon as an Iraqi 
independent electoral administration is established, we should 
help it create a transparent fund for the support in equal 
amounts of all political parties that pass a certain threshold 
of demonstrated popular support.
    In conclusion, for a long time now, it has been clear that 
the three great challenges of restoring security, 
reconstructing the economy, and rebuilding the system of 
government are intricately intertwined. We cannot revive the 
economy, generate jobs and electricity, and get a new Iraqi 
government up and functioning unless we dramatically improve 
security. But we cannot improve security unless we have a more 
credible and legitimate framework for Iraqi governance. The 
U.N. mission, working with the CPA, holds out some promise of 
progress in the latter regard. But we have a lot of hard work 
to do on the security front as well, and we are not going to 
get there unless we put some of the worst thugs and spoilers 
out of business, beginning with the Mahdi army. On both the 
security and political fronts, the choices we make and the 
actions we take between now and June 30 will have diffuse and 
lasting consequences for the future political order in Iraq.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Diamond follows:]

                Prepared Statement of Dr. Larry Diamond

    Chairman Lugar, Senator Biden, Distinguished Members, Ladies and 
Gentlemen:
    As you all well understand, the United States now faces a perilous 
situation in Iraq today. Because of a long catalogue of strategic and 
tactical blunders, we have failed to come anywhere near meeting the 
post-war expectations of Iraqis for security and post-conflict 
reconstruction. Although we have done many good things to eliminate 
tyranny, to rebuild infrastructure, and to help construct a free 
society and democratic political system, the overall ineptitude of our 
mission to date leaves us--and Iraq--in a terrible bind. If we withdraw 
our military forces precipitously in this security vacuum, we will 
leave the country at the mercy of a variety of power-hungry militias 
and criminal gangs, and Iraq will risk a rapid descent into one or 
another form of civil war. If the current situation persists, we will 
continue fighting one form of Iraqi insurgency after another with too 
little legitimacy, too little will, and too few resources. There is 
only one word for a situation in which you cannot win and you cannot 
withdraw: quagmire. We are not there yet, but we are close.
    The scope for a good outcome has been greatly reduced as a result 
of the two insurgencies that we now confront in Iraq. One of these, in 
the Sunni heartland, has been festering since the end of the war, but 
has picked up deadly momentum in recent months and then took on a new 
ferocity with the grisly murder of the four American contractors in 
Fallujah on March 31. The other, in the Shiite heartland, broke out 
shortly thereafter when the radical young Shiite cleric, Muqtada al-
Sadr, launched a violent uprising after the Americans badly bungled the 
long-delayed imperative of confronting his violent network. Add to this 
the awful news of grotesque humiliation of Iraqi prisoners by our own 
forces, and you have a profoundly deteriorating and potentially 
disastrous situation for the United States.
    I will not dwell long on how we got to this perilous point, but a 
few observations are necessary. In any situation of occupation or 
imperial dominion, there is always a tension between control and 
legitimacy. The less control you have or can impose as an occupying 
power, the more you need legitimacy and voluntary cooperation. In many 
parts of its colonial empire, Britain addressed this challenge through 
the system of ``indirect rule,'' which used local rulers to maintain 
control and gradually devolved more power through elections and local 
self-rule. As a result of this, Britain needed less troops relative to 
population than other colonial powers. United Nations peace 
implementation missions have addressed this problem in part through the 
mobilization of international legitimacy, via UN Security Council 
resolutions, and in part by developing explicit and transparent 
timetables for the transfer of power back to the people through 
elections. But even in these UN or other international trustee 
missions, success has depended in part on the presence of a 
sufficiently large and robust international force to keep (and in some 
instances impose) peace.
    In Iraq, we have had too little legitimacy, but also in some ways 
to little control as well. We insisted on maintaining full political 
control from the start, but we did not have sufficient control on the 
ground, through adequate military force, to make our political and 
administrative control effective. Thus we could not meet popular 
expectations for the restoration of security and basic services like 
water and electricity (though progress we did make on all of those 
fronts). Because we did not deliver rapidly enough (and it could never 
truly have been rapidly enough to meet the inflated public 
expectations), because it was always an American administrator out in 
front decreeing and explaining, and because the Iraqi people did not 
see new Iraqi political leaders exercising much effective 
responsibility, the American-led occupation quickly developed a serious 
and growing legitimacy deficit.
    Many things could have relieved this deficit. For example, if we 
had pushed more reconstruction funding out to local military 
commanders, through the rather effective CERP (Commanders' Emergency 
Reconstruction Program) channel, and if we had given some real 
authority and funding to the local and provincial councils we were 
establishing around the country, Iraqis might have seen more progress 
and found emerging new forms of Iraqi authority with which they could 
identify. We might have also made more progress by organizing actual 
elections, however imperfect, at the local level where the people were 
ready for it and the ration-card system provided a crude system for 
identifying voters. In the few places where this mechanism was 
employed, it worked acceptably well--before CPA ordered that no more 
direct elections be held (for fear of giving the impression that it 
would be possible to hold national elections soon--which it would not 
have been). Even so, the local governance teams did a pretty good job 
in many cases of finding ways to choose, and then later ``refresh'', 
the provincial and local councils. Sadly, the CERP funding was 
terminated prematurely, and the Local Government Order, defining the 
powers of provincial and local governments, sat around at CPA for 
months in various states of development and imminent release, while the 
local councils dawdled and dithered without much of anything to do, and 
ominously in some cases, without getting paid for months at a time. 
Within the CPA itself, I think historians will find that there was an 
obsession with centralized control, at the cost of the flexibility and 
devolution that might have gotten things done more quickly and built up 
more legitimacy.
    So we had serious problems of security, reconstruction delivery, 
and legitimacy. We failed to ameliorate these by putting enough 
resources in (particularly enough troops) and by giving Iraqis early on 
more control over their own affairs. Now we are transferring control 
soon to Iraqis, and that is truly the, only hope for rescuing a rapidly 
deteriorating situation. But in transitional politics, as in all other 
politics, timing is crucial, and what could be achieved by a certain 
initiative at one moment in time may no longer be possible months or 
years later, when the parameters have shifted and the scope for 
building a moderate center may have been lost.
    One June 30, governing authority will be transferred to an Iraqi 
Interim Government, terminating the occupation authority, the CPA (or 
Coalition Provisional Authority). Despite all the violence and 
turmoil--which the Baathist spoilers, external jihadists, and Islamist 
extremists have always intended to escalate in the run-up to the 
transition--that transfer is going to happen on schedule. A United 
Nations team, led by special envoy Lakhdar Brahimi, is in Iraq now for 
a third visit, completing work to select the members of the Iraqi 
Interim Government. As the interim constitution (called the 
Transitional Administrative Law) provides for, the government will be 
led by a prime minister and cabinet, with some oversight and symbolic 
authority being exercised by a presidency council of a president and 
two vice-presidents. But there will be no law-making parliament until 
elections are held, by the end of next January, for a transitional 
government. Rather, Mr. Brahimi plans to return again to help mediate 
the selection after June 30, through indirect means, of a widely 
representative national conference of some 1000 to 1500 delegates, 
which will discuss national problems and select a smaller consultative 
assembly to advise the cabinet.
    This plan is not without some serious problems. It is easy for 
Iraqis to agree in principle on elections to choose a transitional 
government, even if many parties plan to try to rig or mutilate those 
elections in practice. But having the United Nations select the interim 
government, even a so-called ``technocratic'' government of non-
partisan officials, risks a whole new set of legitimacy problems. 
Everyone who loses out in the bid for interim power will complain 
bitterly that the selections were illegitimate. The problem is that the 
method that some of us within CPA preferred--having Iraqis select the 
national conference delegates before June 30, and having that body then 
choose an assembly which would choose the prime minister and presidency 
council--is just not feasible given the pressure of time and the 
deterioration in the security situation since the end of March. Thus, 
many key members of the twenty-five-member Iraqi Governing Council 
(IGC), which has exercised some advisory authority alongside the CPA 
Administrator, Ambassador L. Paul Bremer III, since last July, are 
denouncing the plan and calling for the IGC to continue, perhaps in 
expanded form, as a kind of senate or consultative body with some 
authority. Some of the political parties on the IGC that are pushing 
this line are powerful players because, independent of whatever popular 
support they command, they have large, armed militias whose 
cooperation, or at least forbearance, the Coalition needs now more than 
ever if it is to survive this treacherous period.
    The next step in the timetable will be the organization of 
elections by January 31 of 2005. To do this, Iraq will need an 
independent electoral commission, a law to define and structure that 
body's authority, and a law to define the electoral system for choosing 
members of parliament. A separate UN team, led by the head of the UN 
electoral assistance division, Carina Perelli, has been in Iraq working 
on all these issues. Its work has been slowed by the upsurge in 
violence, and by the group's decision to invite any and all Iraqis to 
apply in writing for one of the seven Iraqi slots on the commission. In 
the current chaos, it is going to be a real challenge to appoint and 
train an electoral commission with sufficient credibility, 
independence, and competence to organize decent elections by the 
January deadline. Fortunately, they will have considerable assistance 
from the UN. But if the violence is not brought under control, they 
will not even be able to move around the country to set up local and 
regional offices, much less prepare for the crucial tasks of 
registering voters and parties. Even if the violence subsides to a 
degree that permits the administrative work to proceed, the Electoral 
Commission will need to tackle the question of how to level the 
political playing field, which will otherwise be dominated by political 
parties that are already ruling (in Kurdistan) or that have been 
receiving huge amounts of money and other assistance from Iran.
    The Interim Government's structure, powers, and functions are to be 
spelled out in an Annex to the Transitional Law. This Annex will be 
written through negotiations this month. During my final weeks in Iraq, 
I encountered in speeches and meetings around the country some vigorous 
and frequent objections to specific provisions of the Law, particularly 
article 61 C, which gives any three provinces (and there are three 
predominantly Kurdish provinces) the ability to veto the final 
constitution in the referendum. Many Arab Iraqis are in fact quite 
upset about this and other provisions, which they feel give too much 
veto power to the Kurds. These Iraqis object as well to other features 
of the Law, and to the lack of public discussion over its final 
provisions before it was adopted (unanimously) by the Governing 
Council. If we did not have the crisis of mounting violence in the 
country, and now the new crisis over the treatment of Iraqi prisoners 
at Abu Ghraib, we would probably be dealing with a crisis over the 
Transitional Law. Ayatollah Ali Al-Sistani, the most important Shiite 
religious and moral leader in the country, and some of his key 
followers have been quite outspoken in rejecting the Law and demanding 
changes. Indeed, Muqtada Sadr's remarkable success in mobilizing many 
thousands of supporters in March-April-May is the direct result of the 
crisis between the CPA and the Governing Council on the one hand and 
Sistani (and the Hawzah, or senior Shiite clergy) on the other. At long 
last the isolated Muqtada could claim, as he indeed did, that he was 
``Sistani's Striking Arm.'' This way one crisis led directly to the 
other.
    Here is another manifestation, in sharp relief, of the legitimacy 
problem. The negotiations over the Annex provide a new opportunity to 
address this problem, and given the high threshold for amending the Law 
once it comes into effect, perhaps the last realistic opportunity in 
the transitional period. We should seize this opportunity as part of a 
broader strategy of building up the more moderate Shiite political and 
religious establishment as a counterweight to Muqtada al-Sadr.
    All counter-insurgency efforts ultimately depend on winning the 
larger political and symbolic struggle for ``hearts and minds.'' Though 
he has gained in popular support in recent weeks, Muqtada Sadr--a 
fascist thug with only the thinnest Islamist religious credentials, who 
is reviled by much of the Shiite population and religious 
establishment--cannot win the broad bulk of Iraqi ``hearts and minds,'' 
even in the Shiite south. Neither can the diehard Baathist remnants of 
Saddam's regime, who, in connivance with external jihadists such as Al-
Qaeda, have been driving the insurgency in the Sunni center of the 
country. Indeed, one of the fascinating, potentially destructive, but 
also potentially positive elements in the fluid political situation we 
confront is that there is no coherent political and military force in 
Iraq that is capable of rallying, and for any meaningful period of 
time, sustaining, broad popular support.
    No single force can win in Iraq, but the United States could lose, 
and very soon. Even before the outbreak of the scandal over US forces' 
degrading, disgraceful abuse of Iraqi prisoners at the Abu Ghraib 
prison, Iraqi patience with the American occupation was dwindling 
rapidly. More and more Iraqis have been coming around to the view that 
if we cannot give them security, jobs, and electricity, why should they 
continue to suffer the general humiliation and countless specific 
indignities of American forces occupying their land?
    What seemed possible six weeks ago, and certainly three months ago, 
is not necessarily feasible today. Clearly, the option of sending in 
significantly more troops to combat the insurgency and defeat the 
diehard and spoiler elements is dead. It is now clear that the Bush 
Administration--which has never been honest with itself or the American 
people about what would be needed to succeed in Iraq--is not going to 
up the ante for the United States in that kind of way in an election 
year. Moreover, even introducing two more divisions--which would still 
leave our overall troop strength far below the 250,000 or so that many 
military experts believed was the minimum necessary to bring and 
maintain order in post-war Iraq--would so strain the capacity of our 
armed forces that it would require drastic measures.
    So we are stuck in Iraq for the moment with too few troops to 
defeat the insurgency and way too many for a growing segment of deeply 
disaffected Iraqi public opinion. Thus we have basically opted to live 
with the city of Fallujah under the control of insurgents, hoping the 
Iraqi force we have quickly stood up there will at least contain and 
dampen down the problem. And we are slowly trying to take back some of 
the facilities and installations that Muqtada Sadr's al-Mahdi Army has 
seized in the past few weeks and months, while so far avoiding a 
decisive confrontation with Muqtada himself (so as not to inflict 
civilian casualties or damage the religious shrines). If there is any 
chance of decent governance emerging in Iraq in the near to medium 
term, I believe we are going to have to defeat the insurgency of the 
Mahdi army. But we can only do so if we work with Iraqi Shiites of at 
least somewhat more moderate and pragmatic political orientations, and 
most of all with Ayatollah Sistani. No Iraqi commands a wider following 
of respect and consideration, and has more capacity to steer political 
developments away from violence and extremism, than Sistani, who 
insists on free elections as the basis of political legitimacy.
    In fact, there are many Iraqi forces with whom we can work. But the 
tragedy is that the most democratic among them do not have sizable 
armed militias at their command, and for the most part, have not had 
the money, time, training, and skill to build up broad bases of 
support. At least four political parties represented on the Governing 
Council do have some basis of support in the country. The problem is 
that two of these are the ruling parties of the semiautonomous 
Kurdistan region, the PUK (Patriotic Union of Kurdistan) and the KDP 
(the Democratic Party of Kurdistan), and their influence largely ends 
at the borders of that region, while the other two forces, SCIRI and 
Da'wa, are backed in various ways by the Iranian regime and, despite 
the moderation they have evinced in Baghdad, appear to favor one or 
another form of Islamic fundamentalist regime. Each of these four 
parties has its own militia with probably at least 10,000 fighters, and 
in the case of the two Kurdish Peshmerga forces, maybe each several 
times that number.
    If Iraq has elections with these forces, and many other private 
armed forces, controlling various strongholds, and without a superior 
neutral force on the ground to rein them in, the elections are not 
going to be free and fair. There will be a war for dominance along the 
margins of different strongholds, opposing candidates will be 
assassinated, electoral officials will be intimidated, ballot boxes 
will be stolen--it will be a nasty business. Beyond this, there is the 
danger that if the militias are not demobilized before the Americans 
withdraw, other political forces would arm in self-defense, or more 
precisely--if you consider that in many parts of rural Iraq, every male 
over 14 already has a Kalishnikov (or at least older) rifle--they will 
acquire heavy weapons, in preparation for the coming war for Iraq. Then 
you would have a truly awful mess, in which different parties, tribes, 
and alliances would have their own armies contesting violently for 
local, regional, and perhaps ultimately national dominance, with every 
neighboring country in the region intervening on behalf of its favored 
group or groups. This would be what Thomas Friedman calls ``Lebanon on 
steroids''--a hellish (and possibly like Lebanon, protracted) civil war 
in which no central government could exert coherent authority.
    Such a scenario could spawn disastrous humanitarian and political 
consequences. There would be thousands, possibly tens or even hundreds 
of thousands, of Iraqi casualties. In the chaos, terrorism and 
organized crime would thrive. Anti-Americanism, which is already 
gaining momentum in Iraq, would take on an entirely new breadth and 
intensity. We would be blamed for this, even if the instigators were 
more properly located in Syria, Saudi Arabia, and most of all Iran.
    The only alternative to civil war or another truly brutal and total 
dictatorship is a political system based on some kind of 
constitutional, consensual power-sharing bargain. Any plan to break up 
the country, explicitly or implicitly, into its constituent ethnic or 
religious pieces will inevitably bring massive bloodshed, much of it 
regionally driven. And any effort to simply hand power over to a 
reconstructed Baathist dictatorship would be violently, and I am sure 
successfully, resisted by both the Kurds and the Shia. Any scenario 
that is even vaguely positive--that avoids the disaster of total war or 
total dictatorship--must involve key elements of democracy: 
negotiations, mutual concessions and compromise, delineation of 
individual and group rights, sharing and limiting of power, and 
elections in which different political parties and independents contest 
to determine who will exercise power.
    However, elements of democracy do not necessarily add up to 
democracy, and the situation has deteriorated to the point that we need 
a strong dose of realism about what is possible. The two best-organized 
parties in the Shiite South, SCIRI and Da'wa, are not democratic 
political parties. That is why they have heavily armed militias that 
are already flexing their muscles. That is why they are being backed by 
hardline conservative elements in the Iranian regimes. And doubts are 
even raised about whether the two Kurdish parties, who fought a war for 
political control in Kurdistan during the 1990s, will tolerate 
electoral competitors. In the last few months, their militia forces 
have been involved in acts of ethnic cleansing to push out from Kirkuk 
Arabs who were settled there by Saddam Hussein in his campaign of 
``Arabization.'' This violent preemption of the intended process of 
peaceful, judicial dispute resolution is hardly a reassuring sign.
    Much of the country's politics remains, literally, tribal. 
Particularly in the rural areas, loyalties are mobilized and delivered 
by tribal sheikhs, and alliances are built on these foundations. So can 
blood debts be incurred and avenged deep into the future as a result of 
violence against a member of the tribe. Inevitably in emergent 
democratic politics, important political formations will be constituted 
from among Iraq's many tribes. In fact, one of the potentially more 
moderate and democratic political party formations--the Iraqi 
Democratic Gathering, based largely in the Shiite south--has its base 
among a vast network of tribes that do not want to see Iraq or any part 
of it dominated by Iran or forces loyal to the Iranian regime. If other 
parties play by the rules of the democratic game, so will this one. If 
elections are to be fought by more violent methods, I do not expect 
that these tribes, which are already heavily armed, will sit on their 
hands and wait to be bullied and shot.
    The establishment of the Fallujah Brigade as a solution to the 
insurgency there was probably the least bad option, but it comes at a 
price. In effect, we created (or fully legitimized) a new sectarian 
militia, small for now, but probably the best trained of them all. 
Similarly, by encouraging SCIRI's militia, the Badr Brigade, and the 
Da'wa militia to attack Muqtada's Mahdi Army in Najaf and Karbala 
(again, probably a necessarily evil), we will also pay a heavy price. 
To the extent they do our bidding, we will owe them something.
    I am suggesting, then, two points. First, the chance for any kind 
of decent, peaceful, constitutional order heavily depends on what 
happens to the militias. Unless they are to some considerable extent 
demobilized and replaced by the armed forces of a new and legitimate 
Iraqi state, the near-term political future will be very rough. But the 
militias that would need to be demobilized for this to happen have in 
fact been strengthened enormously in their bargaining leverage vis-a-
vis the United States as a result of the disintegration of recent 
weeks. Now, we need them, and their cooperation and assistance, more 
than ever. So we are in less of a position to ask of them painful 
concessions--not to mention compelling those concessions by force.
    Since the beginning of the year, we have been negotiating with the 
principal militias a comprehensive DDR plan for ``disarmament, 
demobilization and reintegration'' of their fighters into the new Iraqi 
police and armed forces and the civilian economy. To succeed, any DDR 
plan has to rely heavily on positive incentives (jobs, pensions, status 
in the new armed forces) for those militias that agree to cooperate, 
and force to demobilize those militias that will never cooperate. The 
Mahdi Army clearly falls into the latter category, which is why it is 
so important that it be defeated now. But it was always questionable 
whether the other four largest militias would really fully demobilize 
and disarm, rather than warehouse their heavy weapons while taking up 
positions, temporarily, in the new armed forces. With the country in 
the state it is and our leverage so much reduced, demobilization--if it 
happens at all--is likely to be much more superficial, and even to 
concede to the integration of whole militia units into the police and 
armed forces, with their command structures more or less intact. In 
that case, the new and truly independent Iraqi state that is so 
desperately needed will not emerge. Rather, it will parceled out among 
and become a captive of these preexisting armed groups. Probably the 
big winner then, at least initially, will be Iran, which has seeded the 
whole Shiite south with arms, weapons, propaganda, and thousands (by 
one estimate, 14,000) intelligence agents.
    I am not sure, at this point, that there is any way to prevent a 
scenario something like this. To do so would require a sizable and 
credible international--which is to say, largely American--force on the 
ground in Iraq for some time to come. And the way things are going, we 
are likely to find ourselves in something of a race to see who demands 
the withdrawal of American forces first, the Iraqi public or the 
American public. Even if American troops are able to stay in large 
numbers for another year or two to help provide security, I doubt they 
are going to be given the authority, or that they would be able to 
muster the legitimacy within Iraq, to really confront these other 
militias--even assuming that the Sadr insurgency is somehow defeated, 
and that the Fallujah insurgency is at least contained.
    We are in an utterly Hobbesian situation, as we always are in such 
post-conflict settings, in which the balance of force will shape all 
the other political parameters. If we do not succeed in standing up 
Iraqi police and military forces that are loyal to the state of Iraq, 
and not to this or that party, militia, or warlord, there will be no 
hope for even a semi-democratic political system. But creating any kind 
of coherent Iraqi armed forces will take years (by some estimates, two 
to five years), and the prospect is rising that an Iraqi government 
will demand (possibly under popular pressure) that American forces be 
withdrawn well before that. Then (absent a new international force that 
is nowhere on the horizon), the only force that Iraq could fall back on 
to maintain order would be the major party militias, and the only 
question would be whether they could work out among themselves some 
modus vivendi that gives each a relative monopoly of power within some 
region or locality, while sharing power at the center. That would be 
better than all-out civil war, but lacking any roots or constraints in 
a rule of law, it would be highly susceptible to descent into civil war 
if the elite bargains were to shatter. And it would still be very bad 
for most of the Iraqi democrats we have sought to help in politics and 
civil society--decent people, with ideas and ideals, who placed their 
faith in our own professed commitment to stay the course to help build 
a democracy in Iraq.
    One silver lining is that the overall national situation is highly 
unlikely to revert to the kind of coherent, total dictatorship that the 
country has suffered under the Baathists in particular. There will be a 
profusion of power centers. Even if these are not democratic in 
themselves, the interaction among them will provide some pluralism, 
some space for democratic discourse and action--if the country does not 
drown in bloodshed, and if some kind of self-sustaining constitutional 
bargain can be struck among them. That is risky, but not impossible.
                          what is to be done?
    The only way out of this mess is a combination of robust, precise, 
and determined military action to defeat the most threatening, anti-
democratic insurgency--led by Muqtada Sadr and his Mahdi Army--combined 
with a political strategy to fill the legitimacy vacuum as rapidly as 
possible.
    The Bush Administration has taken two vital steps in the latter 
regard. First, it has sought to improve the international legitimacy of 
our mission, and our ability to find a transitional solution that will 
be credible and acceptable to the largest possible number of Iraqis--by 
giving the United Nations and its special envoy, Lakhdar Brahimi, a 
leading role in the process. Ambassador Brahimi is an extraordinarily 
able, imaginative, and fair-minded mediator; I could not imagine a 
better candidate for this arduous task. One reason why he is the right 
person for the job is that he has a habit of doing something elementary 
that our own CPA has not done often and well enough: listening to 
Iraqis themselves, and as wide a range of Iraqi opinion as possible.
    The second essential, correct decision of the Administration is to 
hold to the June 30 deadline for transferring power to an Iraqi interim 
government. One of the few positive things that has been suppressing 
Iraqi frustration and even rage over the occupation has been the 
prospect of a return to Iraqi sovereignty on June 30, and the promise 
of elections for a transitional government within seven months after 
that. It is vital that we adhere to the June 30 deadline. There is no 
solution to the dilemma we are in that does not put Iraqis forward to 
take political leadership responsibility for the enormous challenges of 
governance the country confronts. They cannot do it alone, but they 
must take the lead, and Iraqis must see that Iraqis are taking the 
lead. We should stop talking about ``limited sovereignty.'' Iraqis have 
suffered enough humiliation. They need the dignity of knowing that they 
will be able to assert control over their own future after June 30, 
even if this will obviously be limited on the security side by the 
presence of some 150,000 international troops.
    We need to embrace a number of other steps that will advance three 
key principles or goals: building legitimacy for the transitional 
program, increasing the efficacy of emergent Iraqi control, and 
improving the security situation in a more lasting way. All three of 
these goals require an intensive effort at rebuilding the now 
decimated, fragmented, and demoralized Iraqi state.
    Here, briefly, are my recommendations:

          1. Disavow any long-term military aspirations in Iraq. We 
        should declare unambiguously that we will not seek any 
        permanent American military bases in Iraq. (No Iraqi parliament 
        in the near term is going to approve such a treaty, anyway). 
        Iraqis fear that we harbor long-term imperial intentions toward 
        their country. This would help to allay this fear.

          2. Establish a clear date for an end to the military 
        occupation. We should declare that when Iraq is at peace and 
        capable of fully providing for its own security, we intend to 
        withdraw all American forces from Iraq. We should set a target 
        date for the full withdrawal of American forces. This may be 
        three or four years in the future, but setting such a date will 
        convince Iraqis that we are serious about leaving once the 
        country is secure--that the occupation, in every respect, will 
        come to a definite end.

          3. Respond to the concerns about Iraqi detainees. We need an 
        independent investigation of the treatment of Iraqi detainees, 
        with international participation, and we should release as many 
        detainees as possible for whom we do not have specific evidence 
        or a strong and credible suspicion of involvement in insurgent 
        or criminal activity. This has been a profound grievance of 
        Iraqis virtually since the end of the war, and it has been a 
        major factor feeding the Sunni insurgency.

          4. Reorganize and accelerate recruitment and training of the 
        new Iraqi police and armed forces. Police training in 
        particular has been an astonishing disaster. There is no hope 
        of avoiding renewed oppression and/or civil war in Iraq unless 
        we can stand up Iraqi police and armed forces that are 
        independent of party and religious militias and answerable to 
        the new, and ultimately democratically elected, Iraqi 
        government. We can no longer allow ourselves to be hampered by 
        divided responsibilities, bureaucratic face-saving, and 
        resource constraints. We must find the best, most experienced 
        experts and give them all the resources they need to get the 
        job done.

          5. Proceed vigorously with our plan for disarmament, 
        demobilization, and reintegration (DDR) of the principal armed 
        militias into the police and armed forces. There cannot be free 
        and fair elections in Iraq--or even sustainable peace--if the 
        most powerful forces in the country are a variety of competing 
        and antidemocratic religious and political party militias. The 
        most radical and antidemocratic militias, particularly Muqtada 
        Sadr's Mahdi Army, must be isolated, confronted, and defeated--
        disarmed by force, or the credible threat of force. With the 
        militias of the Kurdish Peshmerga, SCIRI, Dawa, and other 
        political parties that have indicated their willingness to play 
        in the political game, we need to complete negotiations that 
        have now been underway for several months. We will have a much 
        stronger hand in these negotiations if we compel the Mahdi Army 
        to disarm, rather than offering to merge it into the new police 
        and armed forces. Outside of Kurdistan, which is a special 
        case, militia fighters should be merged into the new police and 
        armed forces as individuals, not as organized units with their 
        command structures intact.

          6. Get more money flowing to our Iraqi allies. In particular, 
        we should increase the pay of the Iraqi Army and police, giving 
        them a stronger incentive to risk their lives to join up and 
        stick with us. We might also want to increase the pay of the 
        provincial and local councils, and most of all, we should make 
        sure that all of these Iraqis who are part of the newly 
        reemerging Iraqi state get paid in a timely fashion.

There are several other steps we can take to address our debilitating 
deficits of legitimacy with the Iraqi people and the international 
community:

          7. Make the new Iraqi Interim Government dependent on some 
        expression of popular consent. It is a pity that time did not 
        permit the proposed Iraqi national conference and consultative 
        assembly to be chosen well before June 30, so that one of these 
        two more representative bodies could have elected the 
        presidency council, the prime minister, and the cabinet. 
        However, it is vital that the plans for indirect election of 
        these bodies proceed after June 30. Once the consultative 
        assembly is chosen by a large national conference, it should 
        have the ability to interpellate the prime minister and cabinet 
        ministers, and even to remove them, at least through a 
        ``constructive vote of no confidence'' (which brings down the 
        government only if there is a simultaneous majority vote for a 
        new government).

          8. Aim as much as possible for instruments of democratic 
        control, even in the interim period. I do not think the 
        Governing Council should continue in its current form. It has 
        its own severe legitimacy problems, due to widespread Iraqi 
        perceptions of its inefficacy and corruption. If some members 
        of this Council have real bases of popular support, they should 
        be able to demonstrate this within the national conference, to 
        win election to the consultative assembly, and to exercise 
        influence through that more democratic means. And one or 
        members of the GC may wind up being appointed to positions in 
        the presidency council or the new government.

          9. Provide for the appointment of an Iraqi Supreme Court, 
        according to the Transitional Administrative Law, as soon as 
        there is a consultative assembly that could confirm the 
        appointments. If the spirit and practice of constitutionalism 
        is to develop in Iraq, it must do so from the beginning of the 
        reemergence of Iraqi self-rule. The Prime Minister, Cabinet, or 
        Presidency Council should not each decide for itself what is 
        constitutional. There must be a neutral arbiter, and it should 
        no longer be the US or the UN. The TAL provides for the Iraqi 
        Higher Judicial Council to propose three nominees for each of 
        the nine vacancies on the Supreme Court, with the Presidency 
        Council then nominating and the transitional parliament 
        confirming. This new method would involve only a minor 
        modification to be codified in the TAL Annex.

          10. Codify the domestic and international arrangements for 
        Iraq in a new UN Security Council Resolution. This resolution 
        should recognize the Iraqi Interim Government and its right to 
        name its own representation at the UN. Beyond this, however, a 
        UN Security Council resolution should also recognize whatever 
        temporary ``status of forces agreement'' is reached between the 
        US and the Interim Government, hopefully with UN mediation or 
        participation. UN involvement and recognition of this element 
        might then make it possible for a number of other countries to 
        contribute troops to help maintain peace and security in Iraq 
        until the country can fully manage its own security.

          11. We should do something in this period to acknowledge the 
        grievances over the Transitional Administrative Law. The TAL is 
        the most liberal and progressive basic governance document 
        anywhere in the Arab world. Iraqis can take great pride in many 
        of its features, such as the bill of rights. However, there is 
        intense controversy over a number of its provisions, including 
        the degree of minority rights and the balance of power between 
        the center and the provinces and regions. At a minimum, we 
        should emphatically acknowledge that the TAL is only a 
        temporary document, that Iraqis will be fully free and 
        sovereign to write a new permanent constitution (and this 
        declaration could also be incorporated into a new UN Security 
        Council Resolution). It might be possible, however, to go 
        further, and encourage the key parties to negotiate soon, in 
        the Annex to the TAL, some modest amendments that might address 
        some of the most serious objections that have been raised.

Finally, we need to continue to think and act more innovatively in the 
quest to build as democratic a political system as possible.

          12. We should invest in supporting moderate, secular Shi'a 
        who draw support from parties, movements, and associations that 
        don't have muscular militias. Hopefully, a fair process of 
        selection of national conference participants will put many of 
        these new faces forward.

          13. We urgently need to level the playing field with respect 
        to political party funding. The big parties either sit on huge 
        resources, or are getting lavish funding from neighboring 
        states, particularly Iran. More independent and democratic 
        political parties are begging us for support. As soon as an 
        Independent Iraqi Electoral Administration is established, we 
        should help it create a transparent fund for the support (in 
        equal amounts) of all political parties that pass a certain 
        threshold of demonstrated popular support, and we should fund 
        it generously (perhaps with an initial infusion of $10 to $20 
        million). Unless the gross imbalance in access to funding is 
        established, there will not be anything approaching free and 
        fair elections.

    Senators, we should in fact do much more. As I have said, we should 
have had significantly more troops in Iraq--perhaps twice as many more 
as we now have there. We should apologize explicitly for our scandalous 
treatment of Iraqi detainees, and we should hold accountable everyone 
in the chain of command who was in a position to prevent it and stop 
it, and did not.
    I have tried to recommend here steps that are achievable within our 
resources, timetable, and overall strategy. These steps largely 
comprise a political strategy for improving the legitimacy of the 
transitional program in Iraq, and the legitimacy and efficacy of the 
new Iraqi Interim Government. But none of these steps will amount to 
much if we do not make much more progress in securing the country.
    For a long time now, it has been clear that the three great 
challenges of restoring security, reconstructing the economy, and 
rebuilding the system of government are intricately intertwined. We 
cannot revive and rebuild the economy, generate jobs and electricity, 
and get a new Iraqi government up and functioning unless we 
dramatically improve security on the ground. But we cannot improve 
security unless we have a more credible and legitimate framework for 
governance. The initiative of the UN mission, working with the CPA, 
holds out some promise of progress in the latter regard. But we have a 
lot of hard work to do on the security front as well, and we are not 
going to get there unless we put some of the worst thugs and spoilers 
out of business, beginning with the Mahdi Army. On both the security 
and political fronts, the choices we make and the actions we take 
between now and June 30 will have diffuse and lasting consequences for 
the future political order in Iraq.

    The Chairman. Thank you very much, Dr. Diamond.
    We will have a 10-minute question round first and then an 
additional round, if necessary. We have good attendance. So let 
me ask all Senators to try to stay within their 10 minutes on 
the first try so that we can all be heard, and then we will try 
again. Let me start the clock running with these first 
questions.
    Dr. Cordesman, you make a very tough comment in your 
initial written testimony. You say, ``At this point, the U.S. 
lacks good options in Iraq, although it probably never really 
had them in the sense the Bush administration sought. The 
option of quickly turning Iraq into a successful free-market 
democracy was never practical and was as absurd a neo-
conservative fantasy as the idea that success in this objective 
would magically make Iraq an example that would transform the 
Middle East.''
    And then you have gone on in oral testimony today to point 
out the dangers of the Middle East democracy idea at this 
point, suggesting that we have Iraq and Afghanistan to solve 
prior to greater ambitions that have antagonized others.
    You finally say, ``The key to success the U.S. can now hope 
to achieve is to set realistic objectives. In practice these 
objectives are to create an Iraqi political structure that will 
minimize the risk of civil war, develop some degree of 
pluralism, and help the Iraqis take charge of their own 
economy.''
    Now, as a followup, Dr. Marr points out that the worst case 
scenario, as you have pointed out, Dr. Cordesman, is a failed 
state. She counsels that by this she does not mean simply three 
elements that do or do not get together. She talked about a 
mosaic of groups, an extraordinarily complex situation, which 
she described prior to the war as well as after the war. 
Nevertheless, bravely you both sort of trudge on. You see 
possibilities here.
    And likewise, Dr. Diamond, I noted your comment, which is 
supportive of this general thesis, although very bleak. You 
said, ``We are in an utterly Hobbesian situation, as we always 
are in such post-conflict settings, in which the balance of 
force will shape all the other political parameters. If we do 
not succeed in standing up Iraqi police and military forces 
that are loyal to the state of Iraq, and not to this or that 
party, militia, or warlord, there will be no hope for even a 
semi-democratic political system.''
    Now, without getting into the post-war conflict and whether 
the neo-conservatives are right or wrong or what have you, this 
does raise basic questions with regard to our foreign policy 
and how we get into these situations. You are contending, Dr. 
Cordesman, in the broadest sense, that the objective was to 
have a shining light of democracy that would have, hopefully, 
heralded a large change of thought in other states in the 
Middle East, and that this was a practical objective in the war 
against terrorism, and that that is a reason for the war to be 
fought. At the time, there were discussions of weapons of mass 
destruction and so forth, but essentially the argument has 
drifted from that to the thought that this was going to be a 
change. To have 1.2 billion people in hostile circumstances 
with madrassas schools, with all the rest of this, is to have a 
fate for the United States after 9/11 which is not only 
uncomfortable but potentially disastrous.
    So, as a result, you try to change a state. In this case, 
Iraq was selected for a good number of reasons, including the 
fact that the Saddam regime had ignored U.N. sanctions, invaded 
it's neighbors, and so forth, but also that Iraq could be 
transformed, over time, into a democracy, and an example in the 
regfion. However, as Dr. Marr describes the terrain and the 
population and the prospects, that looked fairly bleak from the 
beginning, and now you are all suggesting that this prospect 
still does, except that there is, Dr. Marr contends, a sense of 
Iraqi nationalism.
    This seems to me to be the heart of the question. In this 
group of people thrown together by Europeans or others after 
World War I, and suppressed by monarchs, the last of whom was 
Saddam Hussein, is there a sense here of nationhood, an 
integrity of a nation that will not become a failed state? It 
will not be a source of civil war, an incubator for terrorism, 
and all the rest?
    I ask you, first of all, Dr. Cordesman, do you sense that 
there is a sense of being Iraqi, that there is something here 
with which to work even at this point?
    Dr. Cordesman. Yes, Senator, I do. I was in Iraq repeatedly 
during the Iran-Iraq war and I saw tensions between ethnic 
factions there, between Shi'ite and Sunni, and I certainly saw 
the problems the Kurds encountered. But I also saw many 
elements of nationhood, and I saw those long before the Iran-
Iraq war.
    As Dr. Marr has said, I think the problem we face is to 
help bring those people together. As Dr. Diamond and others 
have said, it is to ensure that the more violent minorities and 
elements are not going to take over or displace things, but it 
is to also accept the fact that we cannot, after 35 years of 
tyranny, after 35 years of an economy which is a command 
kleptocracy where no sector works or has functioned on our 
level, where the infrastructure is sized more for 16 million 
people than the 25 million people who live there, see instant 
solutions.
    Here I would just make one quick comment. A sense of 
nationhood does not prepare people for instant democracy. There 
are no political parties that are real as yet. There are no 
leaders which have had the chance to emerge. There is no sense 
of compromise. There is no actual experience in being a 
politician, and that, I think you know all too well, can be an 
extraordinarily difficult job even for the experienced.
    I think what this says is not that we should give up but 
that it is going to take time. We have to look beyond 2005. Dr. 
Marr said 5 to 10 years. I think that is realistic. We do not 
have to be there that long, but we have to see that as the 
timeframe to act.
    Finally, just one comment. I have seen a lot of concern 
within the Congress over the cost of the military operation 
there. Last year a promise was made by the Bush administration 
it would not come back to you for foreign aid in 2005. To deal 
with the economic problem that Dr. Marr has raised, if you are 
not prepared to see an aid program going on through 2008, you 
are as much a factor in our eventual defeat as the neo-
conservatives have been in the past.
    The Chairman. Dr. Diamond, on the security situation 
specifically, because you have described this Hobbesian effect, 
let us take for granted that the security has to be obtained. 
Our troops now are attempting to do that in Najaf and 
elsewhere. But on the 30th of June sovereignty passes to the 
Iraqi people. Our committee has been questioned, what does this 
mean for security? Secretary Powell was asked this at the Dead 
Sea Conference. What if this new government says to us, we want 
you to leave? And Powell said, well, then we would leave. He 
doesn't think we will be asked to do that.
    But what are the practical effects, as we count down from 
now May the 19th to June 30? And we have all described the army 
coming and going, coming back in parts and so forth. How is 
this to occur with the United States cooperation, with Iraqi 
training and an Iraqi security presence?
    Dr. Diamond. Well, first of all, you have got the right 
answer from Secretary Powell, independent of what anybody else 
in the administration has said, because I can tell you if an 
Iraqi Interim Government asks us to leave and we do not, our 
situation there is going to become utterly unviable. And I feel 
very sorry for every American officer and soldier who has to 
serve in that circumstance. So I do not think that is going to 
be tenable.
    But as Dr. Marr has indicated, there is a very dualistic 
feeling about this, and I do not think they are going to ask us 
to leave unless there is some new disaster or scandal.
    I think that the reason why it is so important to complete 
the DDR effort--disarmament, demobilization and reintegration--
of the militias between now and June 30 is that after June 30 
we will still have command of all American forces there. I do 
not think that is going to be diluted. But we are not going to 
have the purity of freedom of action that we have now, 
particularly the ability, the political space to take offensive 
action against certain militias in the way we are now doing to 
essentially and correctly demobilize and destroy the Mahdi 
Army.
    The Badr Brigade, which is the militia of SCIRI, I worry 
about a lot. Some of its figures are frankly not any more 
committed to democracy than Muqtada al-Sadr and Da'wa's army. 
They have to know that we want them to negotiate peaceful 
integration and demobilization, but that we have a different 
way of dealing with them if they do not cooperate through 
peaceful negotiation.
    The Chairman. So one signal from this hearing you are 
pointing out is that we have got 42 days during which we still 
have some freedom of operation to demobilize these militias, 
and to do so with strength. And absent that, if they are still 
around, security for everybody may be imperiled in the 
thereafter.
    Dr. Diamond. That is my essential point.
    The Chairman. Thank you.
    Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman. I realize 
I am not going to get to all I want to get to in this first 
round. So I just want to give you a sense where I think the 
consensus points are, and maybe some of you can take issue if I 
have got it wrong.
    Let me start by saying that the one thing I get from all of 
you and, quite frankly, from everyone for whom I have any 
respect on this issue--and there are scores of people, left, 
right, center, conservative, neo-conservative, liberal, 
moderate--is that there is a greater need for sense of urgency 
here.
    And one of the things we have to kind of cut through here--
as a matter of fact, we are going to be debating a resolution 
on the floor today or tomorrow by Senator Byrd that is going to 
attempt to lay out a new authorization for the presence of 
American forces, arguing that the one that was passed last year 
no longer has any relevance because it says, take down Saddam. 
Saddam is gone, so the rationale for continued presence has to 
be validated by Congress. It is a confusing moment.
    Here are the areas where I think we need some clarity. One 
is how to deal with the militias, and I am going to get back to 
Dr. Diamond on that.
    Two is the role of elections, when they should take place; 
the role of this consultative assembly, what role it should 
pay.
    Three, this notion that Iraqis should set the priorities 
for their reconstruction.
    Four, NATO. I have been a broken record on NATO for the 
last year and a half. Now serious newspapers, serious 
columnists believe, cynically in my view, that we cannot get 
anybody else involved in this process. Why do we keep talking 
about it? It is really a dodge to be talking about it.
    This notion of Iraqi visibility, that is, when you turn on 
the TV, Dr. Marr, you said turn it off. I hope when they turn 
it on in Iraq sometime in the near term, they only see Iraqis; 
they do not see Americans, that is, American spokespersons.
    And jobs and this notion of the definition of civil war.
    Partially what has to be done here--and I do fault the 
administration on this--is, to put it in very simple terms, 
they have not told the story. They have not laid out for people 
in Iraq or America what the plan is. I do not mean in terms of 
foreign policy speak, but just what are we talking about here. 
What is our objective?
    As General Hoar said, there is this idea that the only way 
we can continue to get support from the American people in Iraq 
is if we say this is the war on terror, that absent saying 
``terror''--we take the word ``terror'' out of it, ``meaning 
bin Laden and the international terrorist organizations''--that 
the bottom will fall out. That is what I think our neo-
conservative friends think. Therefore, I think they make this 
tenuous connection. There is a connection, but that is not the 
rationale for keeping 150,000 troops or 140,000.
    So let me begin this way. First of all, General Hoar, as 
succinctly as you can, I have spoken to seven of you guys, 
four-star generals, CENTCOM commanders, NATO commanders, among 
the most respected military leaders in a generation. Everyone I 
have spoken to says it is totally, completely practical with 
the right leadership to get NATO to sign on with relatively 
small forces to leading the coalition, leading the 
multinational force post June 30. You were a CENTCOM commander. 
You were one of the most respected generals of the last decade. 
Tell me straight up. What do you say to the Washington Post 
when they say this is fanciful?
    General Hoar. I think it is possible. The difficulty is 
that there have been people in the administration, Senator, 
that have continued to disparage old Europe and some of the 
members of NATO who are really key to going forward. Germany 
and France are good examples. Germany and France have a stake 
in Iraq just as we do, and I know that there are many people in 
government today that are behind the scenes attempting to 
encourage more dialog between the leadership of the NATO 
countries and the United States. But it is going to require 
leadership on the part of this administration to put on their 
industrial strength knee pads and go on over there and talk to 
these people and say we need you to come on board. This is your 
fight as well as ours.
    Senator Biden. Any of the questions I ask you all directly, 
if you would rather defer, I understand.
    But if the President of the United States literally called 
a summit of our major allies, literally asked for a principals 
meeting in Brussels and said I need a resolution saying that 
NATO will take over the operative control, which means America, 
I am not asking you, France, for troops, I am not asking you, 
Germany, for troops, I am asking for your vote, and I realize I 
am only talking about 3,000 to 7,000 forces over the next 3 or 
4 months, what do you think the response would be?
    General Hoar. Senator, if the question is asked 
appropriately, we will get a yes answer. There is a tendency to 
forget that NATO is in Afghanistan and these very same people 
are supporting.
    Senator Biden. I can tell you my own experience. Speaking 
with everyone from Chirac to military commanders in a number of 
different uniforms, including German uniforms, I believe the 
answer is yes, if asked--if asked--and if they are in on the 
political deal, they are in on what the role of that NATO-led 
multinational force would be.
    The second question I have. Dr. Diamond, I think the stuff 
you have written has been absolutely brilliant, as I say for 
all four of you. But in my opportunity to importune you 
privately I asked you about militias. There was talk yesterday 
of us employing--and it was not confirmed--the Badr Brigade and 
other militias in taking on the militia of Mr. al-Sadr. Tell me 
whether that is a good idea, a bad idea, and tell me what your 
concern is, if you have one, as to the sort of mutation of 
these militias if we do not grab hold of it relatively soon.
    Dr. Diamond. Well, Senator, my answer would be in two 
parts.
    First of all, if we ask the Badr Corps and the militia--
they are really fragmented into pieces, SCIRI and Da'wa's 
militias, but if we asked them to do the hard work of defeating 
the Mahdi army, which by the way is largely defeated in terms 
of most of the territory that it initially took, so I am not 
even sure that it is so urgent as it might have been 2 weeks 
ago, but if we were to ask them to do that, we would owe them a 
blood debt. They would be stronger militarily and politically. 
They would have more leverage in their negotiations with us.
    Our ability to do DDR, disarmament, demobilization, and 
reintegration, in the way that it needs to be done, which is, 
to the extent that fighters from these militias are 
reintegrated into the Iraqi army, civil defense corps, and 
police, it happens as individuals and not as units with their 
command and control structure intact. Our ability to get that 
kind of deal would be significantly diminished.
    Senator Biden. Is the reason that is important is that 
whatever this emerging Iraqi government is, there has to be, in 
effect, a neutral army that it controls in the sense that it 
can absorb these groups, but it cannot absorb them in a 
balkanized way where they, in effect, are each wholly 
integrated in as whole pieces? Is that the idea?
    Dr. Diamond. That is correct. I think each of my co-
panelists would agree with me that we have a shattered state in 
Iraq now. The imperative is to rebuild it as a coherent state 
as democratic as possible, but coherent, effective, and as Dr. 
Marr said, not a threat to the United States or a source of 
terrorism. You cannot have a state if it does not have its own 
coherent control of its security apparatus, and there has to be 
neutral political leadership of that that is loyal to the 
leadership of the new Iraqi state, not loyal to the head of 
SCIRI, not loyal to the head of Da'wa, Hezbollah, Fadallah, 
whatever militia it might be. They have to be loyal to the top 
leaders of the state.
    Senator Biden. Well, I will come back. Dr. Marr, I will 
warn you. When I come back with you, I would like to hear you 
expand on this notion of the willingness of any emerging 
government to deal with an occupation army which is going to be 
necessary--there is going to be some occupation force there for 
some time--and this notion of the consultative assembly and 
what legitimacy it can provide, if any, to the process. But I 
will wait until the second round. I thank you.
    The Chairman. Thank you, Senator Biden.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Thanks to each of 
you for your time and talent and effort and experience. You 
each have presented a very lucid, disturbing, but I think 
accurate assessment of where we are in Iraq, and we continue to 
reach out to you for your sense of this. I note in particular 
that each of you has provided a set of recommendations, of 
priorities, of realistic assessments as to how we go forward. 
And that is not always the case, easy to criticize, easy to 
look back on, failed policy, failed decisions, but each of you 
provided some sense of a future, and it is in that universe 
that I would delve.
    I will begin with quoting your opening statement, Dr. 
Cordesman. If I may repeat, you say, ``The current situation in 
Iraq and Afghanistan has exposed the fact that there is a 
serious danger in the very term `post conflict.' '' But here is 
the point I want to get to. ``It reflects critical failures in 
American understanding of the world it faces in the 21st 
century, and in the nature of asymmetric warfare and defense 
transformation.''
    General Hoar, then you state in your testimony, ``We must 
define the nature of the war.''
    I assume each of you and the other two panelists have in 
other ways addressed this issue that you are talking about a 
wider-lens understanding of what we are up against. You cannot 
deal with Iraq in a vacuum. Certainly the Israeli-Palestinian 
issue is very clear, at least in my mind, not because I think 
it or I say it, but the Arab world, the 1.2 billion Muslims, as 
well believe it.
    So, therefore, I would like very much for each of our four 
panelists to take that piece and talk about that. I realize it 
may be a little more theoretical than the dynamic of what do we 
do about Iraq now, but I do not think we can have these 
conversations nor a committee exercise oversight without 
getting into this point because we will continue to spin and 
spin and spin in Iraq. We can put two or three more divisions 
in, but if we lose the Iraqi people--in your testimony, the 
four of you, saying such things as we are dangerously close, 
close to a quagmire, perilous situation, crisis situation--and 
I do not believe you overstate it--I think addresses the more 
fundamental, larger point here. It is not just Iraq. This 
challenge, this great threat of the 21st century is going to be 
with us for a while, and I think we have failed miserably, all 
of us, the Congress, the administration, in coming to grips 
with a larger understanding of what we are up against.
    So with that, may I start with you, Dr. Cordesman? Thank 
you.
    Dr. Cordesman. Thank you, Senator. Very briefly, we face a 
series of ideological challenges from Islamist extremists, 
economic problems in the Arab and Islamic world, demographic 
pressures in terms of vast increases in the need for jobs, 
education, and services that is going to go on for at least 20 
and probably 30 more years. Some countries will deal with those 
well, some will muddle through, and some will reach a stage of 
crisis.
    Whatever we do in Iraq can only be a first step in a 
process of global engagement that may well be as long as the 
cold war. If we face that, if we work on that basis, rather 
than instant transformation or simple quick solutions, I think 
we can deal with the problem. Part of it is to engage when we 
must use force realistically and objectively knowing we are not 
going to transform or end the problem, that there will be one 
challenge after another, although hopefully at a low level.
    Another I think is the issue of reform. Dr. Marr said, 
``It's the economy, stupid.'' And Dr. Diamond said, ``It's the 
security, stupid.'' And they are both right. We have to help 
countries find a way of providing security, but security 
involves human rights and the rule of law, not simply 
strengthening counter-terrorism.
    We also need to focus on economic and on demographics, the 
kinds of reforms that meet the fundamental expectations of the 
people, talking about democracy and liberty is fine if you can 
create the conditions for democracy and political parties. And 
what that means is working on an evolutionary basis with these 
countries, with the individual reformers in these countries, 
not dictating to them, not with simplistic, pointless, new 
initiatives like a Greater Middle East Initiative, but with 
greatly strengthened country teams, with strengthened military 
advisory efforts through our NATO and CENTCOM efforts and 
knowing that these are decade-long efforts, not something that 
will go away in 2 or 3 years or with bin Laden or al-Qaeda.
    Senator Hagel. Dr. Cordesman, thank you.
    General Hoar.
    General Hoar. Sir, I first of all endorse Tony's comments, 
but the problems that we have today did not occur yesterday or 
the day before. They began certainly and have their roots in 
colonialism and came to the fore after the Second World War and 
the end of colonialism. And we did not pay an awful lot of 
attention as a country to these issues. We were locked in the 
cold war. We saw this bipolar world. We were concerned about 
the Soviet Union. And our interests in this part of the world--
and I speak of the Muslim world--often were seen through the 
prism of the cold war, and as a result, we frequently used 
these countries as pawns.
    Perhaps the best example is the ability to defeat the 
Soviet Union in Afghanistan with the help of Saudi Arabia and 
Pakistan. When we defeated the Soviet Union and they withdrew, 
which I believe was the beginning of the end of the cold war, 
we turned our backs on those countries and the result was 
virulent anti-U.S. feelings in Pakistan and a failed state in 
Afghanistan.
    So our solutions will not come to fruition overnight. It is 
just going to be a long road to turn around the belief in the 
Muslim community that when we speak about peace and justice and 
freedom and democracy, we are talking about our peace, freedom, 
justice, and democracy, not everybody's, sir.
    Senator Hagel. Thank you, general.
    Dr. Marr.
    Dr. Marr. Yes. I am going to be very practical in my 
remarks and try to make three points on this subject.
    First of all, the Arab-Israeli issue is critical. We are 
fighting a three-front war in the Middle East: the war on 
terrorism, the Iraq struggle, and the Arab-Israeli issue. I can 
not remember a time when the Arab-Israeli issue looked worse.
    I am not going to present some platitudes about we need to 
get the peace process going. You all know that, but I think 
Congress has played an incredible role in this issue--with 
respect to settlements. We have watched for years as the 
Israelis built settlements in places where they should not 
have. That is something that Congress itself can do something 
about; so far, it has not. Maybe you can do something about it 
now.
    Senator Hagel. May I clarify? When you say Congress has 
done an incredible job, you mean we failed.
    Dr. Marr. Failed, that is correct, in putting pressure on 
our Israeli allies to stop settlements. On some of the other 
issues I am not nearly so sympathetic to the Palestinians, but 
on this particular issue I am. We should be seen to not condone 
it or be seen to be doing something to reverse these policies. 
On this, I think the buck stops, to a certain extent, in 
Congress. That is one practical suggestion I have. It goes 
without saying that the Arab-Israeli issue is a running sore 
that is perfectly awful in the area.
    I want to be a little more optimistic about my next two 
points. As you know, I have been spending a good bit of my time 
in Qatar. That is a very important country for us right now, 
and it is also a metaphor for much that is going on in the gulf 
and the Arab world including some things I would like to call 
your attention to.
    Qatar is not going to implement a constitution that erodes 
the amir's authority, but on every other front, they are doing 
remarkable reform work. They are instituting an American 
education system from K through 12, and establishing branches 
of American universities. They have given women the vote. They 
have allowed women to run for office. They are going to put in 
a new constitution. And in various and sundry ways, most of the 
smaller gulf states are either ahead of them or doing similar 
things. Elsewhere there are reforms going on in the area 
indigenously. This presents us with another reform model. It is 
evolutionary. Rather than invading a state and trying to make 
it some kind of a model for the rest of the region, we ought to 
pay attention to what is going on here, see what there is, and 
encourage it.
    When I went out to the region, I was asked to give some 
lectures in Kuwait. I was surprised when I was asked to talk 
about the Greater Middle East Initiative. To be honest with 
you, it got so little play here that I had to call around and 
ask what it was. But when I got to the area, the subject was 
all over the press, much of it negative. I discovered I had to 
change some of my remarks because of the interest in the 
subject. There are some liberals there. There are not very many 
but they are very interested in getting support.
    My last point is that in a practical way, we need to be 
more ``hands on'' in the area, find out where our friends are, 
that is, people who are interested in reform, who are pushing 
ahead with the kinds of things that we would like to see, and 
find ways to help them. We should not impose some Middle East 
initiative on them without even announcing it. We need to get a 
presence on the ground and identify such people. And they are 
there. If anybody wants some names, I will be happy to provide 
them. They are there working on these things. Let us find them 
and support them and not give up on reform.
    Senator Hagel. Mr. Chairman, may I ask that Dr. Diamond 
maybe in the next round could respond? I do not want to impose 
on any of my colleagues here. Maybe we could do that.
    The Chairman. Thank you very much, Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    The Chairman. Senator Boxer.
    Senator Boxer. Could I just say--and I said this to Senator 
Biden--this panel is just incredibly wonderful and clear and 
straight from the shoulder, and I really appreciate that. It 
means a lot to us.
    I also want to say you are looking at the committee, I 
think, that has been saying all along across party lines, 
whether or not we voted to go it alone in this war or not, that 
we needed a plan. I think what I am hearing you say is, yes, we 
need that plan and we better get it done now. And as Senator 
Biden and Senator Lugar have said for a long time, it should 
have been done yesterday. It is still not being done today, and 
we say that again, all of us together.
    Dr. Marr says do not panic about it, and you are right. You 
never panic. As a lawmaker you cannot panic about anything, but 
you can be honest and say it just might be too late. I am not 
saying that, but I am thinking I am not sure. And I am ready 
and willing and able to take the steps that I think we need to 
take, but it may be that there have been so many mistakes made 
here and so many opportunities lost. And I can think of three, 
four, five opportunities that this administration had to say, 
OK, let us bring the world in.
    It started when he landed on the carrier. Every country in 
the world wanted in with us. No. You cannot have the spoils of 
war. You did not fight. In retrospect--well, and a lot of us 
said it at the time--this is ridiculous.
    And then when the U.N. was attacked and the whole world 
say, oh, my gosh, terrorism has moved in here. Now it is really 
a world concern. We had another chance. Alone.
    I think that even this prison scandal is a chance for 
America to show that as the greatest country in the world and 
the strongest, maybe we lost our way just a little bit and can 
the world come together with us and we will move in a different 
direction.
    But it just seems like nothing has changed. Yesterday, we 
had Secretary Wolfowitz here and Secretary Armitage. They had 
an opportunity in their opening statements to basically say, 
look, we have made some mistakes here and this is a new day. I 
did not hear that. I heard in the questioning a little bit of 
admission of problems, but not the kind of things you are 
talking about from Dr. Cordesman and everyone of you had some 
very specific, clearly thought-out views.
    I want to take a little time to say, general, you are just 
a hero to me in terms of what you said when very few people 
were saying it. I am going to put it in the record, Mr. 
Chairman. This is what the general said before a shot was 
fired, 6 months before a shot was fired, and 1 month before 
Congress voted to give the President the go-it-alone authority. 
He said, ``I am reminded of the statement of Shimon Peres who 
said military victories do not bring peace. You have to work 
twice as hard to achieve a peaceful settlement.'' I mean, there 
you were putting it out there.
    And then you said, ``The term `regime change' does not 
adequately describe the concept of what we expect to achieve as 
a result of a military campaign in Iraq. One would ask the 
question, are we willing to spend the time and treasure to 
rebuild Iraq and its institutions after fighting? If we go it 
alone during a military campaign, who will provide the troops, 
the policemen, the economists, the politicians, the judicial 
advisors to start Iraq on the road to democracy, or are we 
going to turn the country over to another thug who swears 
fealty to the United States?'' Then you go into what is going 
to happen to the price of oil.
    I mean, you are just prescient on the point. You said the 
costs of the war may be between $100 billion and $200 billion. 
You are on the nose. It is headed to $200 billion. And the oil 
will rise to something above $30 a barrel for some unknown 
period of time, and this will have a downward spiraling effect 
on our economy. ``In summary,'' you say, ``I urge you to 
continue the dialog to encourage the administration to do the 
hard diplomatic work to gain broad support for a joint solution 
to the Iraqi problem.''
    I stand in awe of your comments, and therefore, it seems to 
me a lot of what you are saying today we have to look at very 
carefully. And all of this panel.
    I want to followup on something, and I do not know how much 
time I have left.
    The Chairman. You have some.
    Senator Boxer. A little bit, OK.
    When Chairman Lugar talked about the history of Iraq, 
sometimes I wonder if anyone in the administration read the 
history books. I read a book by Sandra Mackey. It is not the 
only book in the world on Iraq, but it is really clear. The 
thing about that book and her point that she was making--and I 
wanted to ask Dr. Marr about this--is that she said, in 
essence, the country was thrown together with people who hate 
each other inside the borders. I am making it very simple here. 
Essentially England wanted the oil and they put a prince on the 
throne there from Saudi Arabia, and then while they were taking 
the oil and doing their thing and doing some good things, 
people were hating each other and fighting each other and so on 
and so forth until they all decided they hated the English more 
than they hated each other and they got rid of the English.
    And now here we come, the great liberators. It just seems 
to me if you just read a couple of books, you would have a 
sense.
    So I want to press you on something you said that is 
important to me in looking at a solution here. You said do not 
think about separation. You were really lecturing and very 
strong on the point. There are some people like former 
Ambassador Peter Galbraith who is talking about how to avoid a 
civil war, maybe have federations. I am wondering if you have 
thought about that because, as I look at the Iraqi situation 
now and where we are--and I have been saying all along, along 
with several of my colleagues from the beginning--we heard in 
the beginning, well, 90 percent of the country is secure. So I 
said, OK, if 90 percent of the country is secure, why not move 
toward sovereignty in that 90 percent, focus our troops on the 
Sunni Triangle, and move? Now I do not know what the percentage 
of the country is safe. So maybe someone here who knows could 
tell me that.
    Would any of you consider the fact if you had a 
federation--you know, I represent the State of California. It 
has a Governor, a very strong one. It has a legislature. It has 
local councils. It has got all the things you need, 
supervisors, et cetera. We do not have a military. Arnold has 
not suggested that, and that is good.
    But the point is we function very well as a unit. Can any 
of you see in your mind's eye a situation where you might do 
that gradually in areas that are more peaceful, get these 
federations up and running?
    Dr. Cordesman. Senator, I think that in some ways we are 
doing this when we isolate Fallujah effectively and the 
Fallujah Brigade. When we go on with nation-building while we 
deal with al-Sadr, as Dr. Diamond has said, trying to get rid 
of his militia and get him out of key cities, you go on with 
the process of governance and you can do this at the local 
level and in the governance you do not need to wait. I think 
this perfect security solution is never going to be feasible.
    Senator Boxer. I agree with that.
    Dr. Cordesman. One thing that really I wish people would do 
in the U.S. command there is show you how many incidents of 
violence take place outside the Sunni Triangle and outside the 
places where al-Sadr is. There were 1,700 incidents I think 
yesterday. There were 2,000 the day before. Most of these are 
minor, but many of them are in Baghdad, in the north, in Kirkuk 
and Mosul. So violence will go on even in the supposedly more 
secure areas.
    But we have to do this and we also have to recognize that 
even if we disarm the militias and coopt them, as Dr. Diamond 
says, disarmament means most of their best arms will be buried. 
Almost everybody will still have an AK-47. Until this country 
is truly secure, we will never really disarm the factions, and 
it will take half a decade or more to make these people loyal 
to the central government rather than the tribe or the clan or 
whoever they were loyal to before. So if we do not begin on the 
basis you are suggesting, we are almost dooming ourselves to 
failure.
    Dr. Marr. I would like to address some of this. I can only 
say, Senator Boxer, that if you are concerned about what you 
see in Iraq now, growing instability, and the emergence of more 
ethnic and sectarian and tribal factionalism, just wait until 
you try to separate Iraq into three parts. I have addressed 
this----
    Senator Boxer. I did not say separate countries. I said 
federations like states like we have in the United States.
    Dr. Marr. Well, Iraq is divided into 18 states now and that 
is fine. The Kurds are going to have a problem with that 
because they want a specific entity in the north, and that is 
where Peter Galbraith is speaking from. He and I have always 
had some differences of opinion on this. Maybe the Kurds can 
have a more moderated entity up there. But 18 provinces is just 
fine. I think that is a very good way to run Iraq.
    Most people who criticize this arrangement actually talk 
about dividing Iraq up on ethnic and sectarian or tribal lines. 
This is just the wrong way to go and doing it is going to 
create tremendous problems.
    Everybody has the idea that Iraq was thrown together in 
1920. So was Syria. Israel was put together even later. Iraq 
has been around for 83 years. In the course of that time, there 
has been not only a central government, but services. People 
join an army, they go to school, they get trained, and they 
live in a country which has lots of oil. They do not get up 
every day of the morning and say I am an Iraqi, but they feel 
Iraqi. I have never heard an Iraqi, except for some Kurds, say 
they want their state divided. They do not think like Shi'a or 
Sunnis first. So this idea of having to put Iraq back together; 
that there is not sense of loyalty to Iraq, I think is 
something that we have to get beyond.
    I would like to make one comment on the militias. I 
thoroughly agree that moving toward a modern state means 
disbanding them and establishing a central army and police 
force. Being a realist and looking at Iraq on the ground, I 
think that is going to be much more difficult to achieve than 
has been indicated here. I would not bet that it is going to 
happen by June 30.
    We have talked about the Mahdi army and others. In my view, 
we have just established a new militia in Fallujah, a Sunni 
militia composed of who knows what--a former general, which is 
fine--but who knows who he has got in that militia, former 
Republican Guards, former military. We have the Kurdish 
Peshmerga which is not going to be easy to reintegrate totally.
    We have had a couple of weeks of quiet in Fallujah. I have 
many questions about that whole Fallujah settlement, but it has 
been quiet. One of the reasons is that we are drawing on the 
local population, the local power structure, whatever it is. 
One of the reasons that Petraeus had success up in Mosul was 
because he did that. So I think we are going to have to rely on 
what we find in existence now to begin to quiet these areas. 
Then we can begin to integrate those militias and local forces, 
break down their loyalty to sub-national or sub-whatever 
groups, and begin to integrate them into a national military. 
It is going to take a long time and it is not going to be easy.
    The Chairman. Thank you very much, Senator Boxer.
    Dr. Marr, I would just interject it sounds much like our 
hearing on Afghanistan in which you are discussing warlords, 
local hegemony, lack of central government, and what have you. 
But then I think each of you will be very good on that subject 
too. That is a very important thing for us to be keeping our 
eye on.
    Senator Chafee.
    Senator Chafee. Well, thank you, Senator Lugar, and I will 
echo the comments of my colleagues. Thank you for your time and 
good testimony today.
    Senator Hagel was talking about our success in Iraq and how 
we have to look at this effort in a regional way, look at 
everything in the entire region if we are going to be 
successful in Iraq. And, Dr. Marr, you said we are fighting a 
three-front war: first of all, in Iraq; second, on terrorism; 
and third, with the Israeli-Palestinian issue. Obviously, they 
are all together and the stakes are so high. If we fail on any 
of these three fronts, we are facing tremendous difficulties 
ahead.
    My question is on one of those fronts, we seem to be making 
mistake after mistake. The President on April 14, sent a letter 
to Prime Minister Sharon in which he said, ``In light of new 
realities on the ground, including already existing major 
Israeli population centers, it is unrealistic to expect that 
the outcome of final status negotiations will be a full and 
complete return to the armistice lines of 1949.''
    Now, he cannot be that unrealistic to know that--we are all 
going to funerals--this is going to lead to an upsurge in 
violence, and it means more funerals we will be going to. Why 
would he take this course of a change that no previous 
President of the last six or seven has taken? Any thoughts as 
to what the President was thinking as he changes American 
foreign policy? I will start with Dr. Diamond because you had 
not answered Senator Hagel's question. I think it is related to 
what Senator Hagel was asking.
    Dr. Diamond. Well, Senator Chafee, I do not know what is in 
the President's mind, but I would like to make a couple of 
points, if I may. I think some things need just to be said in 
the current era of crisis we are in.
    One is, first of all, I strongly agree with what Dr. Marr 
said. We are basically with the $2 billion, $3 billion we are 
giving annually to Israel--and I am a Jewish American. I am a 
very strong supporter of the State of Israel, feel strong 
empathy for what it has lived through, the constant terrorism, 
the struggle for existence. But we have basically been funding 
Israeli theft of Palestinian land for--I do not know what--30 
or more years now. And we are paying for the expansion of these 
settlements. I think it should be American policy that we will 
no longer pay for it and that the relationship between the 
United States and Israel will deteriorate if Israel does not 
immediately halt the expansion of settlements.
    Now, that leaves an awful lot of territory that they still 
control, but the first thing you can do is to stop doing 
additional harm. And the expansion of settlements is doing 
terrible harm to Israel's prospects in the region--many 
Israelis understand that--and to America's standing in the 
Middle East. And add to that a lot of the other things that 
many of my panelists have referred to, most recently the prison 
scandal, the sense that America is arrogant and has no respect 
for the Arab world, and it is very deeply damaging.
    To come back to the Greater Middle East Initiative, I have 
a somewhat different view than Dr. Cordesman, although I 
greatly respect what he has said. I think the problem is not 
the message, it is the messenger, if I may say it this way. The 
administration has had a very imperious and arrogant attitude 
toward the world in its unilateralism and toward many of the 
states of the region. Arabs know that, on the one hand, we are 
saying--and President Bush has given a series of absolutely 
eloquent, historic speeches on this subject beginning with the 
one on November 6 to the National Endowment for Democracy about 
transforming our policy in the region. But when the Arab civil 
society leaders, political leaders, and state leaders see us 
continuing to embrace Arab authoritarian regimes and state 
security apparatuses, I must add, in extremely intimate ways 
that the American people do not know about, and then call for 
greater democracy and human rights, when the President gives 
this speech on November 6 and shortly after that welcomes to 
the White House in an honored role the President of one of the 
most repressive states in the region, reforming though it is, 
President Ben Ali of Tunisia, what message does this send about 
our consistency of purpose and principle? When we locate a 
headquarters of the Middle East Partnership Initiative in 
Tunisia, which is an extremely repressive state, what message 
does it send?
    So I think that it is not that we cannot do this. I think 
we can do this. But we need to have a greater degree of 
humility. We need to have a greater degree of consultation with 
the people of the region and with our allies in Europe. That is 
why the Sea Island Summit could be very important in this 
regard if we can craft this multilateral initiative. The NATO 
summit in Istanbul at the end of June could be very important 
in this regard if we could move toward more of a collective 
effort. We just cannot do this unilaterally any longer, and if 
we are going to go down this road, we have to have more 
consistency of purpose.
    Senator Chafee. Thank you, Dr. Diamond.
    Does any other panelist want to take a shot at this? I 
guess the question is what is the President thinking. Is this a 
100-year war and that is the only way to address our 
challenges? Yes, Dr. Cordesman.
    Dr. Cordesman. Senator, I think that I would not have made 
that choice. The President was confronted with the reality 
where there was at least the offer of withdrawing from Gaza, of 
taking some tangible step on the ground, and possibly actually 
moving forward toward creating the first step in a Palestinian 
state. And given the dilemma between having new peace 
initiatives, which might simply end in more talk, and some kind 
of apparent step forward, he may have chosen the latter.
    I think it is also important for all of us to remember that 
1949 and 1967 were not borders. They were boundaries and that 
in negotiating the U.N. resolutions on this issue, we always 
stated that there was the prospect of adjustment to these 
boundaries and the wording of 242 and all subsequent 
resolutions reflects that fact, although many people in the 
Arab world deny it.
    I say this because if we are to move forward on any 
negotiation at this point, the road map does not address this 
issue. The President brought out something which quite frankly 
was one of the key principles of the Camp David negotiations 
under Clinton and of the conference at Taba that followed. They 
were not publicly announced as U.S. policy, but they did call 
for adjustments in the 1967 boundaries and they did set limits 
on the Palestinian right of return.
    I think this just highlights the problem of not having a 
constant and consistent effort at the highest level to reach a 
peace, of being seen always as being biased in one direction 
rather than as balanced because if there had been a broader 
context for a peace process, we would not have been seen in the 
way you correctly point out, as having favored Israel without 
regard to the Palestinians or the future peace process.
    Senator Chafee. You are suggesting that there is dissension 
as to the direction we are taking even within the 
administration.
    General Hoar, do you want to comment?
    General Hoar. I would like to just make a couple of points. 
One is several months ago it was reported that the President 
was surprised at the strength of anti-American feelings in 
Indonesia. I can tell you that throughout the Muslim world this 
feeling is enormously strong with respect to the perception of 
our relationship with Israel.
    Monday of this week, while I was in Kuwait, I attended a 
Palestinian film festival in Kuwait City. A number of people 
there that were former Palestinian citizens who are now 
citizens of Kuwait, but a large number of others as well that 
feel a bond through their Arabness with the Palestinians. This 
is not going to change, and it seems to me that there is a lack 
of sensitivity about the timing and the way in which these 
things are expressed publicly that we can speak about our 
support appropriately for the State of Israel but in a way that 
just makes so many other people angry at us.
    Senator Chafee. Well, thank you. I know some of the 
previous witnesses have said, ``It's the economy, stupid,'' and 
``It's the security, stupid.'' You might add, ``It's the 
Palestinians, stupid.''
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Chafee.
    Senator Corzine.
    Senator Corzine. Thank you, Mr. Chairman. I thank the 
panel. I have been listening in my office to the testimony of 
all of you today and it is really refreshing to hear straight 
talk with regard to these issues. It is very troubling where we 
are and we are going.
    I heard, I believe it was, Dr. Cordesman suggesting that we 
do not have room for another mistake in the Middle East and 
that we need to be very cautious. Unlike some of my colleagues, 
I am very worried that this transition on June 30 is just one 
of those events, at least from the perspective of what I have 
been able to derive. I do not understand what it is that is 
going to be transferred on June 30 and I have a hard time 
understanding how the Iraqi people are going to understand what 
that sovereignty means, and if there is a disconnect between 
what is said to be happening and what the Iraqi people feel, I 
think we almost bake into the cake a failure.
    So I would love to hear your perspectives. We heard 
``audible'' yesterday as part of the necessary ingredient of 
how we have to deal with occupation and reconstruction. Is it 
time for an audible to be called with regard to June 30 or do 
we just not know enough or has there been enough thoughtful 
planning with regard to this to actually accomplish those 
things?
    I have no doubt that all of us believe that elections 
sooner rather than later are a good thing, if we could organize 
them, but does this artificially or at least arbitrary date of 
June 30 stand in the way of that? I would like to hear your 
opinions about how we are dealing with this 42-day deadline and 
what are the down sides if it does not accomplish what the 
Iraqi people think.
    Dr. Cordesman. Senator, let me begin. I think 42 days is a 
day to a legal transfer of sovereignty. That is all it is. It 
is a legal moment in time.
    Now, we have already begun to transfer ministries. In 
theory, 11 of them are transferred to the Iraqis. In practice, 
that simply is not happening. Eleven are under Iraqi control, 
but they do not have any effective staffs, they are not working 
with the governance, they cannot yet control the money. It is 
going to be, I think, talking to people in Kuwait a few days 
ago, some 60 to 90 days after June 30 before many of these 
ministries are really up, functioning, staffed, and working 
with the governance and localities at the level of efficiency 
they need.
    There is no clear plan for handling the aid process. Now, 
people talk about appropriations and obligations here, and with 
all deference, there is only one thing that counts, that is, 
how much money is actually building or accomplishing anything 
on the ground. What we have is a contracting nightmare where a 
lot of the money is now going to areas outside Iraq, outside 
security, where a lot of fiction is being said about 
improvements in things like electric power, which simply is not 
true.
    Now, we do not know at this point in time, nobody knows how 
fast this process is going to work in a government that is 
coming into it. You are looking at police, and we have just 
sent one of the best commanders in the U.S. forces to help with 
the security forces in the military training. But let us be 
honest. The uniforms are not there. The communications 
equipment is not there. The facilities are not there. The 
weapons are not there, and we do not know when they are coming. 
And we desperately need those elements. And it is this whole 
issue. June 30 is fine, but we need facts on the ground at 
every level, and at this point in time what we have is a lot of 
announcements.
    Senator Corzine. Just a quick followup. Do I understand you 
to say that presentation of the facts that we think we are 
hearing with regard to electric power production does not match 
the real facts on the ground?
    Dr. Cordesman. Well, first, if you look at the actual 
report in depth, you will find there are serious problems in 
Baghdad and Basra which are not discussed in the testimony, but 
more than that, net power generation, regardless of 
requirement, regardless of distribution, regardless of who 
actually is getting what in given hours, is a meaningless 
statistic. It is like the Russians under the Communist rule who 
used to count the number of starts on buildings but never 
counted the finish. And every statistic I see coming out of the 
CPA is tainted with that character.
    Senator Corzine. Thank you.
    General.
    General Hoar. Senator, I remind you again that we are 
dealing with the gang that cannot shoot straight. These people 
have a year of bad performance and I do not think there is 
anything that I have seen that would indicate that they are 
prepared to go forward with a coherent plan that hangs 
together. I just have not seen it and I work hard at trying to 
find out the information. Perhaps this panel has more 
information, but I do not see it. I am not confident.
    Senator Corzine. Well, we cannot get answers to who is 
going to run the prisons, who is going to negotiate with the 
Iranians with regard to what foreign policy is about. We are 
told that these people who will be in charge are responsible. 
So I totally agree.
    Dr. Marr. I would say something that I have said before. 
Perhaps it is a little bit counter-intuitive. I think the main 
problem, as Tony said, is to buildup a central government that 
is effective. We are talking about deadlines such as June 30 
and what is going to happen then. These are just way stations 
in a very long process of developing real political leadership 
in a central government which is not going to take place soon. 
What we need to concentrate on is getting a government that can 
deliver the mail, create security, do these various things. As 
Tony said, we need to build up the staffs, and of course, turn 
authority as fast as we can over to them.
    My gut reaction on listening to this discourse and in my 
talking to Iraqis is that we are all focused on elections and 
legitimacy. We keep thinking that after we have elections, 
somehow this is miraculously going to create legitimacy for a 
government which comes to power. It may help. I am not against 
elections, but if elections are done poorly and you cannot get 
into certain areas and do them--I know exactly what Iraqis are 
going to say the day after--particularly the ones who lose. 
They are going to say it was not legitimate. Iraqis are not 
used to these kinds of elections. They are used to services. 
They are used to security. Effective governments deliver 
services. That will confer a great deal of legitimacy on 
whatever government can do that.
    So a little bit less focus on the elections and all these 
turning points, which are not going to be real turning points, 
and a little more on effective delivery of services will help. 
It will also help get rid of the bureaucracy placed between the 
money and the recipients in Iraq. I have not got any clue on 
how to do it but we must get rid of the red tape. All of the 
Iraqis want to get going. They want to develop businesses and 
they cannot go through this contracting procedure. It is a 
nightmare.
    Dr. Diamond. Senator Corzine, let me first speak to the 
political element. I think that we need to solve the legitimacy 
problem in terms of the origins and accountability of 
government if this is going to be sustainable. I completely 
agree with Dr. Marr. That is not nearly enough, but that is one 
precondition.
    It is just inconceivable to me that we could postpone the 
June 30 deadline and not have this country blow up. It is just 
not an alternative. One thing that has been keeping a lid on 
things is that Iraqis have been knowing that they are going to 
get their government back on June 30.
    Now, to my mind, there are many tragedies in this. One 
tragedy in this is that the plan that we developed inside the 
CPA, some of us, which is to pull together a national 
conference of maybe as many as 1,000 or more people, 
representative of all the great diversity of the country that 
you, having studied it so long, know so well and bring them 
together in one place. And it can be done. You have tribal 
groups, women's groups, professional associations, local and 
provincial councils. They all elect some members. They come to 
Baghdad. They caucus. Then those people who have been elected 
to the national conference and to the broad debate that goes on 
elect a consultative assembly, maybe between 100 and 200 
people.
    I think once you have that, it may not have legislative 
power, but it will have greater political legitimacy than any 
body of Iraqis that has been constituted since the end of the 
war, and we might say since, what, 1958? I mean, who knows. 
Then that body can begin to hold the interim government 
responsible, take responsibility for some of the future of the 
country.
    The plan had been, but we ran out of time, that that 
consultative assembly would have elected the presidency 
council, would have elected the prime minister, who would then 
have chosen a cabinet. So you would not have Lakhdar Brahimi 
having to choose these people. Now I think, given the time 
situation, we really have no choice. But the new officials can 
still be held accountable to the consultative assembly which, 
as I said earlier, can then confirm nominees for the supreme 
court and begin to get the politics of this on a sounder 
footing.
    One more point I would like to make very briefly builds on 
what Dr. Cordesman said. There is no reason why all of this 
reconstruction money has to go through, as it largely has been 
going through, American corporations. I can tell you our 
regional coordinator in the south central region, which is in 
the Shi'ite heartland, has gotten more done with a very small 
amount of money in terms of getting buildings built and 
services going and schools up and running just by going out 
there and finding Iraqi companies and getting them to do it. 
And we have got to get over our obsession with pouring money 
into American companies with all of the layers it goes through 
and with all of the loss that we suffer and getting money out 
to small Iraqi contractors, even if they cannot perfectly 
account for it, pumping money into the local economy and 
getting stuff done.
    The Chairman. Thank you very much, Senator Corzine.
    Let me just follow on in this round with a question for Dr. 
Diamond regarding the consultative group that you talked about, 
the 1,000 people. How could they be constituted and when? How 
does that fit into the scheme of things at this particular 
moment?
    Dr. Diamond. What I think can happen, but we are going to 
need some improvement of security in order for this to move 
forward, is that you say a certain number of members of a 
national conference, which could be again a total body of 1,000 
people or more.
    The Chairman. Who selects them? How do they physically get 
anywhere?
    Dr. Diamond. Develop a structure for their selection, a 
plan that is mutually negotiated among key Iraqis. Ambassador 
Brahimi is well capable of doing this in his consultations. So 
we develop a mutually agreed plan whereby, for example, 150 to 
200 members will be elected from the various provincial and 
regional councils around the country, which already exist. As 
Dr. Marr indicated, those are the constituent elements for 
emergent Iraqi federalism. A couple hundred people will be 
elected from the different professional associations of 
lawyers, educators, engineers, so on and so forth. Tribal 
bodies might elect a certain number. The Iraqi women's 
associations, which I might add, you talked about the need for 
cross-cutting affiliations to come together in new ways. 
Nowhere does it happen more impressively than in the Iraqi 
Higher Women's Council. So you designate them to select some 
members and you go to the constituent elements that are 
identifiable and existing, political and social, of the 
different pieces of Iraqi society. They each elect from among 
their members some delegates to go to Baghdad to a big national 
conference.
    It debates national issues and then from among its members, 
elects a smaller consultative assembly. That assembly might not 
have legislative authority because it is not directly elected, 
but again it could sit alongside the interim government, hold 
it accountable in a variety of ways and be a forum for 
directing Iraq's future in some respects and expressing its 
frustrations. It could be an outlet for some of the rage and 
frustration that Iraqis feel and a way of engaging both the 
Iraqi executive branch, helping to shape the Iraqi judicial 
branch, and beginning to have a serious dialog about the 
country's future.
    The Chairman. Let me press that for more detail, especially 
this time line. Physically, when do these people meet, the 
women or the business people or whatever?
    Dr. Diamond. It cannot happen before June 30.
    The Chairman. OK. It is post June 30.
    Dr. Diamond. It had been our hope that it might happen soon 
enough to actually choose the interim government. That is no 
longer possible, but I think Ambassador Brahimi is thinking 
that it could happen perhaps by the latter part of July. At 
least the selection process for the national conference could 
get going in July.
    The Chairman. So Brahimi has appointed his people by the 
1st of July, at least this initial group.
    Dr. Diamond. Right.
    The Chairman. Then this group supervises, in essence, the 
rest of these elections by the end of July or thereabouts so 
that the people then come to Baghdad.
    Dr. Diamond. Maybe in August you could have an actual 
national----
    The Chairman. Sometime in the July August period, 
supervised by the new Iraqi government.
    Dr. Diamond. Well, I think it should not be supervised only 
by the new Iraqi government because you have to keep in mind, 
Senator, a principle, that any government you have that sits in 
Baghdad is going to have its own interests, even if it is 
``technocratic'' and that is, to some extent, I think----
    The Chairman. Who else supervises it? Brahimi?
    Dr. Diamond. There is going to be an Iraqi independent 
electoral administration. Carina Perelli, who is the head of 
the U.N. electoral unit, has been in and out Iraq repeatedly 
with her team to stand up--and it will and must be stood up 
before June 30--an independent Iraqi electoral administration.
    The Chairman. These are still all Iraqis. In other words, 
when you say somebody other, you are not saying the United 
Nations, the United States, NATO.
    Dr. Diamond. The U.N. should have a role. The United 
States, it seems to me, does not need to have a role. By the 
way, there will be one international participant on the Iraqi 
electoral administration, but the U.N. with the electoral 
administration I think could achieve this.
    The Chairman. So there is a possible plan.
    Now, Dr. Cordesman.
    Dr. Cordesman. Senator, I just want to make one point. I 
agree with everything Dr. Diamond said. I am concerned that 
early on I got the impression the committee was talking about 
rushing forward in the politics. That is not what needs to be 
done. The politics should play out at the pace that is 
necessary, and I think Dr. Diamond pointed that out. But 
remember, even in his calendar, it is going to be the middle of 
summer in Iraq. That is not always, even in Iraq, the best time 
to do it.
    If I was going to say anything, it is give the politics all 
the support they need, but rush in the money and the 
assistance. Make sure the money on democratization aid is 
actually going in. Make sure the Iraqis can really see the 
security forces develop. Make sure there is aid money on the 
ground, that you are watching something supporting governance.
    And remember, of all of the figures you have seen that 
really do not mean very much, the most dangerous one is jobs. 
Where do those numbers come from? The 200,000 people in the 
security forces, subsidies to people who have left government, 
subsidies to the ex-military, artificial jobs which are one-
time, temporary jobs being created through the use of the aid 
process on American-designed projects which have no job future 
once completed. That is critical for this political process to 
work.
    I think Dr. Diamond has given you the right plan. The 
question is are we going to provide the resources to allow it 
to work.
    The Chairman. That is a very good point. But I was trying 
to press Dr. Diamond to tease out a plan here for July and 
August, and he has furnished that.
    My next set of questions gets to the point that several of 
you are making, and that is, first of all, we have appropriated 
a lot of money here, but not much has hit the street, as I said 
in my opening statement.
    And second, you are suggesting that probably this may not 
be the way for the money to be best spent anyway; that is, to 
go through endless weeks, maybe months of contractor bidding at 
the Pentagon, or wherever this is happening, to ensure that 
finally some contractors get there. We raised the question 
yesterday with the administration, what happens in July if the 
Iraqis say, we do not want your American contractors? What 
then? Well, we really have not thought about that, and we will 
go back to headquarters and think through that one.
    Now, our dilemma here is, I think as you presented it, an 
economy that is in very bad shape. It has been that way for 
quite a while. What I am trying to find out from you is, where 
are our potential sources of revenue for Iraq, in addition to 
assistance we might give, albeit to local people who then hire 
local people, because even that may run out in due course? We 
have some desire in the country to help out Iraq, and we will 
probably do so. But at some point there has to be some 
indigenous business that takes hold. Is there that possibility 
in Iraq, that given a jump start, or some stimulus, or some 
money on the ground, that Iraqis begin to employ each other and 
that there is then some basis for this democracy as it evolves? 
Does anyone have a thought about that? Yes, doctor.
    Dr. Cordesman. I think I would ask urgently from the CPA 
and from the embassy that they take a hard look at this. Dr. 
Marr and I think Dr. Diamond both pointed out there is a lot of 
small business, service industries, things developing in Iraq 
that I have not seen there in over 30 years. But there are some 
very important ``buts.''
    Some 250-odd state corporations, almost none of which are 
viable, being funded today basically and kept alive but they do 
not fit the market, and we do not have an Iraqi effort to 
transform them.
    An agricultural sector, which for the first time, is 
actually probably going to have to buy crops on a market basis 
which means for the first time in some 20-odd years, nobody is 
going to pay for things that are inedible simply because they 
get produced.
    You have over 100,000 people who used to be employed in 
defense industries that do not exist. At most you will have a 
military, which is a small fraction of the former military, and 
all that money that went by way of subsidies will go.
    So your question is absolutely critical, but the answer is, 
it is going to take a minimum of 2 to 3 years to turn around 
those job statistics, and if anybody can show me on a 
spreadsheet how it is going to take less time and not require 
massive additional amounts of U.S. aid, I want to hear an 
explanation because if you have not got a job plan that is 
convincing, you have not got a plan for Iraq.
    The Chairman. So let us take for granted the U.S. aid 
comes, but then the question is, how is it to be administered?
    Dr. Marr.
    Dr. Marr. Yes. I would like to address that. My impression 
is that there has been a great deal of improvement at two 
levels. The paid middle class, accountants, teachers, 
professors, and so on are getting three times their former 
salary and they are happy. As I said, they are going out and 
buying refrigerators and air conditioners and cell phones and 
improving their houses. And the merchants at the retail level 
are doing a land office business because there is no tax and 
they are importing. They are happy.
    Now for the business communities--and I am going to be 
personal about it, specific. There are businessmen there that 
would like nothing more than to get their hands on some seed 
money from the U.S. to do whatever is necessary. You want some 
generators, you want something done, they want to do it. But 
the hurdle between getting the money and actually starting the 
business--not just taking the money and performing services for 
the U.S. Government or the company involved, but starting the 
business and doing what you are suggesting, employing people--
is huge. These people cannot bridge the gap.
    I know people in Iraq, somebody who is an engineer who 
builds sewers, construction at the real grassroots level. He 
has almost given up because he does not understand the 
contracting procedure. He does not know how to do it. He wants 
to build his own business. We need to find a way to get past 
this contractual nightmare, get the money not just to people 
who perform services, but to business people who want to 
capitalize on it. Incidentally, I think in the gulf and 
elsewhere, among Iraqi Americans for example, there are lots of 
people who want to go in and invest and do this sort of thing, 
but of course, they cannot because of the security problem.
    The Chairman. Dr. Marr, as an interlocutor between these 
Iraqis and our government, who in our government--that is, what 
Department, what person--might get it in this respect? In other 
words, how do we move the policy to one in which this aid comes 
through a clearly identified entity and our government 
understands what you are talking about, and the money gets to 
these people, and they have seed money and they begin to build? 
Do you have any suggestions, any nominees? Or where physically 
should we look?
    Dr. Marr. Well, I would rely on Dr. Diamond for this 
because I have not worked in the bureaucracy and the CPA. The 
only thing I know is that we are supposed to have $18 billion 
to spend.
    The Chairman. I understand. Well, the money is there but I 
am trying to find out what the mechanism is right now.
    Dr. Marr. What is the mechanism? We have a big worry about 
accounting here. I read in the press the other day that we need 
an oversight committee to make sure that corruption does not 
occur. It sounds like the $2,400 toilet seat again. Maybe there 
is too much accounting. Maybe there is too much of this 
accountability and bureaucracy for the moment. Obviously, some 
accounting is necessary and is a good thing. But we have an 
emergency there over the next year or so in which we have got 
to get the pump primed and get started on this. Maybe we need 
to let some of this bureaucratic worry slip to make sure that 
the money is getting in there so these things can get started.
    Dr. Diamond. I completely agree with what Dr. Marr said, 
and Senator, I would say look at what has worked. One thing 
that we know that has worked reasonably well is the CERP 
program, the Commanders Emergency Reconstruction Program. These 
local military commanders were getting a lot done before their 
money ran out. There has been a tendency, let me put it this 
way, within CPA toward centralization of control. I think this 
has been one of the pervasive problems with CPA as an 
institution, and we need to just get money out the door to 
local commanders, local civilian officials, tell them to spend 
it. If you cannot account for it carefully, just get it done. 
As Dr. Marr said, we are in an emergency and Iraqis have to 
begin to see that their physical lives and their communities 
are being transformed. So I would just push the money out into 
the renewed CERP program into the control of local military 
commanders.
    In each province, we have had up through June 30 provincial 
officials of CPA, six regional coordinators. I do not know what 
is going to replace them in terms of the embassy, but in 
effect, we need to have local civilian officials who are 
continuing to do that as much as possible through local Iraqi 
contracts.
    The Chairman. And that is a good point because that is the 
post July 1 thing.
    Yes, doctor.
    Dr. Cordesman. Senator, the grim reality is that USAID was 
not particularly effective even before it was cut back and 
folded into the State Department. It was a project-oriented 
structure and that is all we have got.
    I agree with what both Dr. Marr and Dr. Diamond said, but 
it does not handle infrastructure. It does not handle long-term 
institutions. If you are really going to deal with major aid 
projects, somebody has to manage them on a national level. 
Frankly, I think you have to add to the CERP program and 
provide an immediate transfer of money to those ministries that 
are up and functioning, let the Iraqis make the decisions, let 
them make the plan. There may be some corruption. There may be 
accounting problems, but if you focus on the fact that the 
ministries actually perform something, that you can see 
material benefits and you monitor progress, then they are a 
vital addition to having CERP type aid or field type aid.
    You cannot fix a power system or an oil company or deal 
with any other critical infrastructure or national project on a 
local level. You have got to have a national level as well, and 
the U.S. Government and U.S. contractors are incapable of 
managing and implementing such an effort. The Iraqis at some 
level are.
    The Chairman. Well, I thank the panel. I think that my 
colleagues would agree that the value of this hearing is the 
quality of your thinking. We are attempting to get some 
thoughts here today that have not really come into play, and it 
is very important they do with just 42 days to go. I am 
grateful to all of you, and I yield to my colleague, Senator 
Biden.
    Senator Biden. I yield to Senator Boxer.
    Senator Boxer. I am not going to ask questions because it 
is not fair to my colleagues. I have somewhere I have to be in 
10 minutes, and so very quickly I just wanted to again thank 
you very much and thank the chairman and the ranking member.
    I will say, yes, I mean, we all know we do not have great 
choices and before we say get the money out there and give it 
to the military and let the--oh, wait. Just take a deep breath. 
I think Dr. Cordesman is right on this point. Let us get the 
funding to the ministries and have some rules for them because 
I am the one who actually publicized the coffee pot and the 
toilet seat. The toilet seat actually was only $600 in those 
years. This is not a good thing for American taxpayers to 
believe. They are already upset. So we have to be a little 
careful before we just say get the money out the door, do not 
have rules. But you are right, get it to the Iraqis.
    Two other points I would make are this. I was offended by 
some of the comments about Israel, and I just want to say 
something here. Nobody said, any of you who made your comments, 
that when Barak was the Prime Minister he offered the 
Palestinians 95 percent of what they wanted. Nobody said that. 
You have to put this all in context. What happened then was 
they walked away. They walked away. And what did Israel get for 
being willing to give up 95 percent? They get terrorism, worse 
than ever, intifadas, suicide bombers, women suicide bombers. 
You cannot take your daughter to have a talk with her about her 
wedding day because you get blown up in a cafe. That is what 
they got.
    Now, the fact that the Palestinians are saying, you see, 
all this happening here is all about Israel is so much baloney. 
It is two separate problems, and it is just an excuse to tie 
this Palestinian-Israeli conflict, which is so sad and so 
horrifying, into this Iraqi deal, which is just a separate 
matter.
    I would just say as experts when you say things like you 
say, ``theft of land'' and words like this, please be careful 
to put things in context. And now you have Sharon saying he 
will give up the Gaza. So I just feel it was very one-sided on 
that point. Outside of that point, I thought everything you had 
to say was very balanced.
    The last point I would make is about Afghanistan. If you 
really sit down and write the history of this thing, the 
biggest loser in all this Iraq mess is Afghanistan. We sat here 
saying we cannot afford to lose Afghanistan. We cannot afford 
to fail the Afghani people, and look at what is happening. We 
have turned our attention away again and despite the pleas of 
Senators Lugar and Biden and many of us following their lead, 
they are not extending the security in that country. You want 
to talk about a model that we could have turned to in the 
region, there it was staring us in the face, and plus, we would 
have been able to use our considerable attention and focus and 
genius to get al-Qaeda. So there are so many pieces of this 
puzzle.
    And I just thank you all very much, despite my one 
critique, for just really giving us your best advice. And I 
thank my friend, Joe Biden, for his generosity in yielding to 
me.
    The Chairman. Thank you, Senator Boxer.
    Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman.
    I really appreciate your taking all this time. You have 
been sitting there a long time. As you could tell, we would 
keep you another 8 hours if we could because there are so many 
specific things that could, should, and need to be done that 
could produce some product relatively quickly.
    For example, an old colleague of yours, General Hoar, 
General Zinni and I were talking, and he proposed a conference 
in Amman to get Iraqi business people together with 
international parties to identify needs and opportunities and 
get money to them quickly. I mean, we do these business fairs 
every day in Washington, DC and Wilmington, Delaware and 
Indianapolis, Indiana.
    One of the things that I think is a problem here is the 
need for everything to go through American businesses.
    But let me ask you. I apologize for going back from the 
specific to the general, but all of you said this ultimately 
rests on--and the Iraqis I have spoken with--security, rests on 
that businessman who wants to go out and build a sewer or run 
the water pipes to the homes that are being built. That guy, 
including the American contractor or other contractor who may 
be dealing with them, is getting shot. They are not going out.
    So my first question is--if you can be explicit and 
specific, it would be useful, if it is appropriate--how do we 
get more security now? How do we make it safer for the Iraqi 
mother to give the change to her daughter, who is 14 years old, 
to run down to the market and pick up some vegetables? They are 
not doing that now in many places, so I am told. Now, maybe I 
am wrong. You have been there, Dr. Marr, in the region talking 
to a lot more people than I have. Dr. Diamond, you were 
consulting the CPA. Maybe I am wrong.
    First of all, am I right that ``in the neighborhood,'' for 
lack of a better phrase, in the neighborhoods, in the villages, 
in the countryside, people are, if I can make an American 
analogy, worried about sending their kid out the door in the 
same way that people here are worried about sending their kid 
out the door in some bad neighborhoods because of drug dealers? 
Is it really that way? Yes, Dr. Cordesman.
    Dr. Cordesman. Senator, we now have something like five 
sets of surveys. All of them show, to various degrees, security 
is almost the first concern if not the second. It is a 
nationwide problem with the exception of part of the Kurdish 
area. It is not simply a matter of what happens in the west or 
the areas where al-Sadr is. And you are absolutely right.
    Now, security, however, is always going to be relative. Dr. 
Marr pointed out that better is often OK as distinguished from 
having the kind of security we would like in the U.S.
    Senator Biden. I got that. So what do we do to get 
security, whatever the level? And you all may have a different 
version or view of what the minimal security level is required 
for the ``average'' Iraqi to feel a sense of security.
    Dr. Cordesman. May I offer you a suggestion, sir?
    Senator Biden. Of course. I am looking for suggestions.
    Dr. Cordesman. You have got probably one of the best 
commanders we have working this issue right now, but I do not 
see that he is getting the money or all the manpower he needs. 
You have got to get around the contracting process and get 
those assets in to create the kind of security forces that are 
needed.
    Senator Biden. Translate that for me. You are at a town 
meeting with me and Johnny says, hey, Doc, stop all the crap 
here. Just tell me what do we need to do. More troops?
    Dr. Cordesman. Forget about Armitage, forget about 
Wolfowitz, bring that commander back every month, ask him 
directly what is it he needs, is he getting it, and who is in 
the way.
    Senator Biden. Do you think he is going to tell us?
    Dr. Cordesman. Yes, I think frankly this one will. And if 
you ask him for tangible measures of how security is improving 
by government and by district and by town, not a bunch of 
nonsense about how everybody feels better nationally, he will 
give you the statistics because they are compiled every day and 
they are simply not being transmitted to you.
    Senator Biden. Do you agree with that, General Hoar?
    General Hoar. Absolutely, sir.
    Senator Biden. Are we talking about Abizaid or are we 
talking about Sanchez? Who are we talking about?
    General Hoar. No. The guy that commanded the 101st 
Airborne.
    Dr. Marr. Petraeus.
    Senator Biden. OK, got you. And he is not worried he is not 
going to be on vacation with General Shinseki in Hawaii once he 
does that?
    General Hoar. That is a real problem.
    Senator Biden. It sure the hell is. Look, seriously. 
General, I am not going to mention names. You have been on some 
conference calls with me when I have asked your opinion and 
others of your rank and former rank, and several have said to 
me--I am just going to say it straight up, not in the 
conversation that I had with you on the phone. One significant 
general said to me, look, I cannot come testify. They will ruin 
me. I cannot do it.
    I think we should try to get the commander here, but my 
experience so far is--Dr. Cordesman, here is what I was told by 
two people a month ago. I said, are these guys genuinely not in 
need of more force? Because that is what we heard yesterday. We 
heard that whatever they want, whatever they ask for, they got 
it. I said, so these are men you guys all admire. You admire 
Abizaid. You admire Sanchez. You admire these guys. What is the 
deal? And he said the following. He said, look at their face 
when they answer and listen to precisely what they say in 
response to the question, do you need more forces. And he said, 
they will be stone-faced and they will look in the camera and 
say, I have all the force I need for my mission. But no one 
ever asks them what is their mission.
    I asked yesterday Mr. Wolfowitz. What is the mission that 
General Abizaid has? What is his mission? What is General 
Sanchez' mission beyond force protection? I have yet to get an 
answer. I then asked specifically, is the mission to disarm and 
integrate the militias? Well, I do not know. Is the mission to 
provide security at the market in the village? Is the mission 
to provide security so people can feel safe to travel from 
Basra to the capital? Is that the mission? Does anybody know? 
Where do I go? Whom do I ask?
    General, you were a CENTCOM commander. Is there a piece of 
paper somewhere? Is there a set of orders that says, this is 
your mission? As CENTCOM commander, did you have a mission 
statement?
    General Hoar. Yes, sir.
    Senator Biden. Does Abizaid have a mission statement?
    General Hoar. Yes, sir, he does.
    Senator Biden. How do I get it? I am not being a wise guy 
now. I am being deadly earnest.
    General Hoar. I think that you could ask John Abizaid and 
he would give you one.
    I am frankly very disappointed in how this situation that 
you have described has evolved. I think the atmosphere is 
poisonous. I think the public berating of Eric Shinseki is an 
example of what happens to somebody that speaks his mind.
    Senator Biden. All he did was answer a question.
    General Hoar. Serious stuff apparently.
    I think that a lot of these people are buffaloed and I am 
disappointed that they cannot speak out more frankly. I asked 
the same question you did of a very senior Army officer who has 
a dog in this fight. Do you have enough troops? He said, I do 
not have enough foreign troops. I said, give me a break. What 
is the difference between foreign troops and U.S. troops? Well, 
we need people to guard pipelines, to stand around on the road 
and so forth. We do not want to use U.S. troops for that. But 
when we cannot get foreign troops, it does not negate the 
requirement for having troops on the ground.
    Senator Biden. The bottom line is the pipeline still gets 
blown up. The bottom line is the road cannot be ridden. The 
bottom line is convoys cannot go from one place to another. The 
bottom line is we end up with--if the Times is right--I am not 
sure it is because we have heard conflicting numbers--somewhere 
between 10,000 and 20,000 paid former military private defense 
forces.
    It is amazing to me, after all these years, that I cannot 
get an answer. And I was here during Vietnam. When I got here 
as a 29-year-old kid, Vietnam was still raging. I got 
straighter answers then than I am getting now about need. But 
again, we get back to the security deal.
    And by the way, you know what my colleagues say to me?
    I must tell you on the record, one of the things that I 
really resent--and I know you know this. You, general, know 
this because I think I have mentioned it. I am angry that a 
guy--this is purely personal--that for someone who argued not 
retrospectively, not after the fact, not Monday morning 
quarterbacking, but on the record clearly well before all these 
mistakes were made and as they were being made that we were 
going in the wrong direction, we are going about it the wrong 
way, we are making a fundamental mistake, that I am the guy, 
among others--but there are not many of us--calling for greater 
sacrifice on the part of the United States military in the 
short term to be able to get this right while the guys who 
screwed this up to a fare-thee-well are saying, well, if the 
generals ask us, we will go ahead and do it.
    Because it raises the question in European capitals, it 
raises the question in Arab capitals--I know this part for a 
fact. It is read as there is an exit strategy, that the exit 
strategy is we are going to turn over as quickly as we can to 
whomever we can find, incompetent or otherwise, capable or 
otherwise, ready or otherwise, and say, we completed our 
mission and we are getting the heck out of there.
    Every European I have met with--I should not say that--85 
percent say, are you getting ready to leave? Now here, we are 
hearing, stay the course. There they are translating these 
things. They look on the ground and say, hey, you need more 
force, and you say, well, why do you not get in the game? And 
they look and say, well, I do not want to get in there now. It 
is like they have screwed it up so bad, no one can fix it, no 
one can play it. So I am not sure I want to get in.
    I realize I have run over my time, but if I can end going 
back to you, Dr. Marr. Tell me about how you envision this, to 
use a trite American phrase used in electoral politics--not 
trite, but an overused phrase--empowering, if you do, through 
this sort of--as Brahimi explains it to me--and I speak to 
him--his version of a loya jirga. There is no such 
institutional structure, but the 1,000 to 1,500 people who are 
going to be sometime after the 30th chosen, hopefully with some 
rational basis, although they are chosen and not elected, that 
brings together a truly not cohesive but representative group 
of people who are going to, in effect, play the role, as 
Brahimi describes it to me, as--they will not have any 
legislative power, but they may have some moral force of 
authority but if they conclude that the interim government that 
is going to be named and take over June 30 is not moving the 
way they should, they will be a counterweight. They will at 
least keep it somewhere in the area of legitimacy because if 
this 1,500 people who are gathered together in some fora and 
form were to overwhelmingly say, whoa, the new President, the 
new Prime Minister, the new Vice President is off the 
reservation, then that person or that group would have no 
legitimacy.
    So the way I kind of understand it is that it is going to 
be official in that people will be named, but in a sense 
unofficial in that it does not any articulated, written, 
specific responsibility. And I am trying to figure it out. I am 
trying to figure out, A, does the thing have any utility, 
whatever it is; and what does it have to sort of be, not who is 
on it, but what does it have to be. How does it have to be 
constructed for it to play any positive role? That is a very 
inarticulate way of phrasing the question, but it is a very 
inarticulate science right now as to what the devil it is 
supposed to do and mean.
    Dr. Marr. Well, I think it is inarticulate because it is 
inarticulate. I cannot spend a lot of time answering. Forgive 
me, Senator Biden, because I am not focusing my time and 
attention on these constitutional and short-term issues, as for 
example, Dr. Diamond is.
    My view is that everybody wants a representative 
government, but basically we have a long transitional period. 
The only thing that is going to matter is some kind of an 
election, a constitution, and then finally a government. The 
Iraqis have profound, difficult decisions to make, and these 
have to involve compromises. For example: for the Kurds and the 
Kurdish parties, how much separatism in the north? How much 
religion? How many Shi'a are going to be represented and what 
kind of Shi'a? What are we going to do about Sunnis? Which 
Sunnis? Iraqis are going to have to sit in a room over a 
considerable period of time and compromise.
    Incidentally, the folks that we chose and who have been 
generally excoriated by the press did go through that process, 
and they did come up with a compromise. So we know that it is 
possible.
    I can only say again this is going to be a longer-term 
process than June 30. I do not really know how it is going to 
work out. I do not really think, as I have said, that June 30 
is going to confer all that much legitimacy on what happens. 
While they are going through this process, Iraq is going to 
have to govern. Somebody there is going to have to do the 
governing and deliver the services and if they can, this will 
help to calm the situation in the short term, 6 months, a year, 
a year and a half while this political process is going on.
    I just want to say again there are a lot of bad guys in 
Iraq. Not everybody, by bringing them under this tent, is going 
to go along with the process. We have an entrenched sub-elite 
among the Sunnis that we are all familiar with in Fallujah and 
elsewhere. We have radical Shi'a. We may have a lot of other 
radicals who are going to accept nothing that we put forward, 
and we are going to have to deal with this. So I expect more 
trouble, frankly, before we get through this process.
    Senator Biden. Look, one of the reasons why you find 
Senator Lugar and I still sitting here--I speak for myself, but 
I know him well enough to know why he is sitting here--is in a 
sense we are the kind of people who do not write about this in 
a small fashion in our localities at home. We have to govern. 
We know there are certain pieces of this. One of the things you 
have got to do is you have got to, whether or not it is a flood 
that wipes out a community and people are upset, and you know 
cannot deliver, you cannot rebuild their homes for a year, you 
have got to say to them basically, hey, look, there is a plan. 
Here are the steps. This is going to go forward. Here is the 
way it is going to happen.
    Now, look, somebody has got to govern. We just got finished 
saying they are not going to be able to govern if they do not 
have security. They are not going to have security unless they 
are able to cooperate with whatever the force is. They are not 
real crazy about cooperating with us after Abu Ghraib and all 
the mistakes we have made because they do not want to be 
associated with us. They want to end up ultimately having the 
power to govern. And they also know we have got to get services 
out there. We have to get them out quickly because guess what.
    I remember Jennings Randolph. I said, Jennings, you got 
elected in 1932. You got defeated in 1948. Why? He said I knew 
the moment, Joe. Swear to God. I am telling you a true story. 
He said I was in a holler in western West Virginia. He said I 
got a call from Derrick at a country store. He said, Jennings, 
I think we are going to lose. I said, why is that, Derrick? He 
said, just met with Mrs. Jones, said she ain't got no lard. Not 
a joke. We politicians understand that stuff. He lost the 
election. Mrs. Jones ain't got no lard, nothing to cook with.
    Now, you are saying all the same things to me. Ms. Jones 
ain't got no lard. Ms. Jones ain't got no lard in Fallujah or 
Basra, whatever. The services are not there. There is no job 
there. There is no place to send their kids every day. There is 
no way to make money other than this emerging middle class that 
we were able to get engaged.
    So all of these things have to fit together and all I am 
trying to figure out is in the short term we are going to get 
this outfit named by Brahimi. We are going to bless it somehow. 
We have got to get security in there that that outfit will say 
I will cooperate with. So we do not get more kids flying back 
to the Dover Air Force Base where they all end up when they get 
shot dead.
    I am not angry at anybody. I am frustrated here because 
what ends up happening is we have got to come up with very 
basic little things, and we have got to keep our folks in the 
game, the American people. I am out there saying, send your 
kid. My kid is in the National Guard. He is saying, Dad, I want 
to volunteer to go to Iraq. I am going, whoa, whoa. I know we 
have got to go. I hope his mother just did not hear that.
    So all kidding aside, it comes down to how do you keep 
people in the game here in the near term.
    I will conclude. It seems to me that we have got to make 
this about the Iraqis and not about us. Where are you going? 
Well, I just got picked for that deal that is going to go on. I 
do not know. They are taking 2,000 of us to whatever. We are 
going to talk. Well what are they doing? Well, at least they 
called you. That is how people in neighborhoods--that is how 
the local councilmen think. That is how it works. That is how 
people organize. I do not care what country they are in.
    Oh, you have a stake in it. My next door neighbor, Dick, 
got a call. How the hell did he get picked? OK. What are you 
going to do when you go to talk to all those people down there? 
What is going to happen here?
    And so we can have this big picture thing, but I want to 
tell you something. I was going to suggest to you all--and I am 
not being a wise guy and you may not want to do it. If I were 
President of the United States, God forbid, and each of you 
were individually my national security adviser or chief of 
staff and I said to you, I have got to make a speech, I have to 
go on national television, and I have got to make a speech to 
the American people, it cannot be longer than 10 minutes, and I 
want to explain--I am not joking--to them what we have got to 
do in the near term, what we have to do in the next 2 months, 
and what pieces have to fall in place for us to succeed in 
Iraq, what would I tell them? How would I, in plain English, 
speak to the American people? And you all speak very good 
English. I am not implying that. How would I speak to the 
American people honestly if you are going to be as unvarnished 
and honest as you could be?
    Because I think you and I, Tony, agree on one important 
thing--I think we agree on almost everything--and that is no 
foreign policy, no matter how brilliantly conceived, can be 
sustained in America without the informed consent of the 
American people. And for the consent to be informed, they have 
to understand what specifically you are going to ask them to 
do.
    I am always very careful about attribution to everything I 
say and do, more than any other Senator probably. There is a 
line I have in a speech. I had to bring it over so you would 
hear it so you did not think I got it here. It is already typed 
and written. It is a speech I am delivering to Rutgers 
University Law School Friday. It says, ``Just as the Kennedy 
administration's best and the brightest made decisions that 
escalated our involvement in Vietnam, and were wrong, so today 
the neo-conservatives are the best and the brightest of this 
administration who have made equally and compelling wrong 
decisions.'' I happen to agree with you. You should worry about 
it. We actually think alike in terms of this.
    But all kidding aside, folks, this has been great for you 
to do this. That was a long explanation of why we keep 
battering you for specifics because ultimately this gets down 
to the details and how from the day this gets turned over, this 
works and what our purpose here is because we batter, we 
importune, we plead with this administration to try to get its 
act together. Unless we can show a path to the Iraqi people--
and all of you know more about Iraq than I do, although I have 
worked a hell of a long way trying to figure it out--that they 
understand intuitively that we really are handing this over, we 
really are going to stick with them until they get it right for 
them, unless we explain that to the American people, this is a 
loser. This is a loser.
    At any rate, thank you very, very much, Mr. Chairman, for 
your indulgence. I cannot thank you all enough for your input. 
I hope you will still take our calls, or at least my calls, as 
we seek more advice. Thank you.
    The Chairman. Well, thank you very much, Senator Biden. 
Perhaps as one conclusion of your story about the 10-minute 
speech, the President might ask these four to help draft it. I 
suspect that the that we have covered today, whether or not the 
President would include all of them in such a hypothetical 
speech, are very important. I agree with my colleague. We have 
explored the governance situation, the security situation, the 
delivery of services, and the priorities that are involved 
here. You are not all in perfect agreement, but at least there 
have been laid out some details that I think are very important 
and that have not been part of a public hearing before. I 
mention this to justify the efforts of this committee.
    I saw on one news show last evening a commentator 
commenting about our hearing yesterday. He said, all these 
statements have been made, all these questions and assertions 
and what have you, but what does all this mean? What are these 
people going to do about it? Well, somebody rationalizing said, 
this is what oversight is about. The Congress is not executive. 
We are legislative. Well, he said, are they going to pass laws? 
Are they going to offer legislation to put all this in place? 
The panel was in a quandary as to what we would do about it.
    The fact is, we should not do anything about it until we 
think we have got it right. We have been trying to draw out 
from you as experts some details that would be helpful to us in 
advising the administration and conducting other questioning 
and oversight of people who have these responsibilities. We are 
not substituting ourselves in executive roles or military 
roles, but sometimes asking questions of this sort, exploring 
new territory is helpful to these people, and I hope that has 
been the case today.
    You have certainly assisted us, and we thank you.
    The hearing is adjourned.
    [Whereupon, 12:52 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]

                                 <all>

</pre></body></html>
